<html>
<title> - FOURTH IN A SERIES ON SOCIAL SECURITY DISABILITY PROGRAMS' CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 FOURTH IN A SERIES ON SOCIAL SECURITY DISABILITY PROGRAMS' CHALLENGES 
                           AND OPPORTUNITIES
=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2002

                               __________

                           Serial No. 107-96

                               __________

         Printed for the use of the Committee on Ways and Means









                       U. S. GOVERNMENT PRINTING OFFICE
87-112                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               WILLIAM J. COYNE, Pennsylvania
WALLY HERGER, California             SANDER M. LEVIN, Michigan
JIM MCCRERY, Louisiana               BENJAMIN L. CARDIN, Maryland
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
JIM RAMSTAD, Minnesota               GERALD D. KLECZKA, Wisconsin
JIM NUSSLE, Iowa                     JOHN LEWIS, Georgia
SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
JENNIFER DUNN, Washington            MICHAEL R. MCNULTY, New York
MAC COLLINS, Georgia                 WILLIAM J. JEFFERSON, Louisiana
ROB PORTMAN, Ohio                    JOHN S. TANNER, Tennessee
PHIL ENGLISH, Pennsylvania           XAVIER BECERRA, California
WES WATKINS, Oklahoma                KAREN L. THURMAN, Florida
J. D. HAYWORTH, Arizona              LLOYD DOGGETT, Texas
JERRY WELLER, Illinois               EARL POMEROY, North Dakota
KENNY C. HULSHOF, Missouri
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

                     Allison Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Social Security

                  E. CLAY SHAW, JR., Florida, Chairman

SAM JOHNSON, Texas                   ROBERT T. MATSUI, California
MAC COLLINS, Georgia                 LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               BENJAMIN L. CARDIN, Maryland
KENNY C. HULSHOF, Missouri           EARL POMEROY, North Dakota
RON LEWIS, Kentucky                  XAVIER BECERRA, California
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






                            C O N T E N T S

                               __________
                                                                   Page
Advisory of September 19, 2002, announcing the hearing...........     2

                               WITNESSES

Social Security Administration:
Martin Gerry, Deputy Commissioner, Disability and Income Security 
  Programs.......................................................     5
Sarah Wiggins Mitchell, Chair, Ticket to Work and Work Incentives 
  Advisory Panel.................................................    16

                                 ______

ABIL Employment Services, Susan Webb.............................    65
Consortium for Citizens with Disabilities, Work Incentives Task 
  Force, Susan Prokop............................................    24
Gadaire, David, Career Point.....................................    71
Gilliland, Amy, Glendale, Arizona................................    70
Kregel, John, Benefits Assistance Resource Center, Virginia 
  Commonwealth University........................................    32
MAXIMUS Program Manager, Ticket to Work and Self-Sufficiency 
  Program, Mary Satterfield......................................    51
National Association of Protection and Advocacy Systems, Curtis 
  L. Decker......................................................    75
Wisconsin Department of Workforce Development, Division of 
  Vocational Rehabilitation, Charlene Dwyer......................    54
Oklahoma Department of Rehabilitation Services, Ticket to Work 
  and Community Rehabilitation, Dan O'Brien......................    57

                       SUBMISSIONS FOR THE RECORD

Alden, Natalie, Independent Living Resource Center of NE FL, 
  letter.........................................................   102
Council of State Administrators of Vocational Rehabilitation, 
  Bethesda, MD, Carl Suter, statement............................   103
National Alliance for the Mentally Ill, Arlington, VA, Steve 
  Miller, statement..............................................   105
National Council of SSA Field Operations Locals, and American 
  Federation of Government Employees, AFL-CIO, Witold 
  Skwierczynski, statement.......................................   110
National Rehabilitation Association, Bethesda, MD, Patricia C. 
  Leahy, letter..................................................   112


 FOURTH IN A SERIES ON SOCIAL SECURITY DISABILITY PROGRAMS' CHALLENGES 
                           AND OPPORTUNITIES

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2002

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Social Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:47 a.m., in 
room B-318 Rayburn House Office Building, Hon. E. Clay Shaw, 
Jr., (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON SOCIAL SECURITY

                                                Contact: (202) 225-9263
FOR IMMEDIATE RELEASE
September 19, 2002
No. SS-17

             Shaw Announces Fourth in a Series of Hearings

                on Social Security Disability Programs'

                      Challenges and Opportunities

    Congressman E. Clay Shaw, Jr. (R-FL), Chairman, Subcommittee on 
Social Security of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing to examine the implementation 
of the Ticket to Work and Work Incentives Improvement Act (P.L. 106-
170). The hearing will take place on Thursday, September 26, 2002, in 
room B-318 Rayburn House Office Building, beginning at 11:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Subcommittee and 
for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Over the past year, the Subcommittee has held a series of hearings 
examining the challenges and opportunities facing Social Security's 
disability programs. The first of these hearings provided an overview 
of the issues and options to decrease the processing time of disability 
decisions. During the second hearing, the Subcommittee examined reasons 
for delay, complexity, and inconsistency in the disability 
determination and appeals process, and explored recommendations for 
change. The third hearing in the series examined how disability is 
defined and the degree to which the definition addresses the needs of 
today's workers, beneficiaries, and the intent of the Social Security 
Disability Insurance (SSDI) and Supplemental Security Income (SSI) 
programs.
      
    The Ticket to Work and Work Incentives Improvement Act of 1999, 
P.L. 106-170, signed into law on December 17, 1999, established the 
Ticket to Work and Self-Sufficiency Program, expanded the availability 
of health care coverage, and provided for demonstration projects and 
studies. The Ticket to Work and Self-Sufficiency program, administered 
by the Social Security Administration (SSA), provides greater 
opportunities for SSDI and SSI disability recipients to receive 
assistance that would help them return to work. As part of the program, 
individuals receive a ``ticket'' from the SSA, which they may 
voluntarily assign to an Employment Network (EN) of their choice. An EN 
is a public agency or private organization that provides employment 
services, vocational rehabilitation services, or other support services 
necessary to achieve a vocational goal. The ENs are paid by the SSA for 
results, and choose between two payment systems, one based on the 
individual no longer receiving cash benefits because of work, the other 
based on attainment of certain vocational milestones.
      
    ``Tickets'' to beneficiaries are being issued at the State level in 
three phases, the first began in February 2002, with 13 States. Phase 
two is expected to begin in late 2002 and the third and final stage is 
expected early in 2003. Since February, about 2 million tickets have 
been mailed to beneficiaries, and over 6,400 of these tickets have been 
assigned to one of the more than 400 ENs that have become part of this 
program so far. The SSA has contracted with Maximus, Inc., to act as 
the Program Manager for the Ticket to Work program. Maximus, Inc., is 
responsible for the day-to-day administration of the program, 
recruiting employment networks, ensuring services are available for 
beneficiaries, and answering questions about the program.
      
    The Ticket to Work and Work Incentives Advisory Panel, which was 
established to advise the President, the Congress, and the Commissioner 
of Social Security on issues related to work incentive programs, made a 
number of recommendations in their Second Annual Report. These 
recommendations included: the importance of securing necessary 
resources to inform the public about the ticket program, expanding the 
pool of individuals who may be eligible for a ticket, ensuring a 
sufficient number of SSA specialists in SSDI and SSI work incentives 
are available to assist ticket holders, and a number of other 
administrative and reimbursement recommendations.
      
    In announcing the hearing, Mr. Shaw stated: ``Simply put, the 
Ticket to Work program is about work. Its aim is to replace barriers 
with opportunities, so that individuals with disabilities may achieve 
their goal of working and supporting themselves and their families. We 
must ensure implementation of this important program proceeds smoothly 
and addresses the concerns and needs of individuals with disabilities 
who want to work and organizations that are serving them.''
      

FOCUS OF THE HEARING:

      
    This hearing will examine the Ticket to Work program's 
implementation progress, identify preliminary results, and hear issues 
of concern, along with potential remedies.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c9c4c0d3c8cfc6c2cdc4d3cad28fd6c0d8d2c0cfc5ccc4c0cfd2e1ccc0c8cd8fc9ced4d2c48fc6ced7">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, by the close of business, Thursday, October 10, 2002. 
Those filing written statements who wish to have their statements 
distributed to the press and interested public at the hearing should 
deliver their 200 copies to the Subcommittee on Social Security in room 
B-316 Rayburn House Office Building, in an open and searchable package 
48 hours before the hearing. The U.S. Capitol Police will refuse 
sealed-packaged deliveries to all House Office Buildings.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3058555142595e57535c55425b431e47514943515e545d55515e43705d51595c1e585f4543551e575f46">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in Word Perfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov/.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call (202) 225-1721 or (202) 226-3411 TTD/TTY in advance of the event 
(four business days notice is requested). Questions with regard to 
special accommodation needs in general (including availability of 
Committee materials in alternative formats) may be directed to the 
Committee as noted above.

                                 <F-dash>

    Chairman SHAW. Good morning. I apologize, but neither Mr. 
Matsui nor I have any control over the schedule on the Floor, 
and there were three votes in a row, and that is what took us 
away from here, but we will move forward as quickly as we can.
    As we continue our hearing series examining the challenges 
and opportunities facing Social Security disability programs, 
today we turn our focus to the implementation of the Ticket to 
Work and Work Incentive Improvement Act of 1999.
    Originating in this Subcommittee the legislation's goal is 
to remove barriers and increase incentives for disabled 
individuals returning or seeking to return to work. These 
incentives empower beneficiaries with more choices. They can 
choose the services they want, from whom they want in the 
public or the private sector. These providers in turn are only 
paid for their work when their clients get jobs giving them the 
economic motivation to serve their clients quickly and 
effectively.
    Although it took the Social Security Administration (SSA) 2 
years to publish final implementing regulations, the good news 
is that the beneficiaries in 13 States received their tickets 
beginning in February of this year. These tickets may be used 
to obtain vocational rehabilitation (VR), job training and 
other support services. By next year the program will be 
available in all 50 States.
    So far, of the 2 million tickets mailed, over 7,000 
beneficiaries have assigned their tickets to one or more of the 
400 service providers or Employment Networks (EN) as referred 
to in the law, to receive employment services they choose to 
help them re-enter or enter the work force. While this program 
is still very young, early results are promising. We will hear 
today that beneficiaries' interest has overwhelmed service 
providers and that the number of beneficiaries actually 
participating in the program has quickly outpaced early 
estimates.
    Welcome news though, not surprising, as it is always the 
position of this Subcommittee that given the right support 
individuals with disabilities would choose work, if given the 
opportunity. Recognized as part of President Bush's Freedom 
Initiative, this landmark legislation transforms Social 
Security Disability programs from programs of dependency to 
programs of opportunity. The ultimate success of the program, 
however, will depend upon its effective implementation and 
sound management by the Social Security Administration, 
supported by key stakeholders. I look forward to the hearing 
with many of these stakeholders today, and as we examine the 
Ticket to Work program's implementation progress, preliminary 
results, along with issues of concern and their potential 
remedies.
    Last week I had the opportunity to visit one of these 
providers down in Palm Beach, it was by Goodwill Industries, 
and I was rather impressed with some of the results, the early 
results that they are getting. There are still some problems. I 
know Florida does not have the Medicaid continuation which is 
tremendously important, and it is rather scary if you are 
disabled, to lose that type of coverage. Mr. Matsui?
    Mr. MATSUI. Thank you very much, Mr. Chairman. I appreciate 
the fact that you are holding this hearing.
    I think it is very timely with the 13 States now beginning 
to implement the Ticket to Work program. I would hope that the 
witnesses will be thinking, before they come up here, because 
what we will really want to do is find ways to improve the 
system. Obviously, as the Chairman has mentioned, there are 
going to be a lot of stops and starts and a lot of little bumps 
as we go along the way, because it is a very innovative 
program, and certainly we want to make sure that at the end of 
the day this program works and obviously carries out the 
principles that Mr. Shaw and all of us on this Subcommittee 
want to happen.
    So, we look forward in a very positive way to your comments 
and observations. So, with that, Mr. Chairman, I will thank you 
again and look forward to hearing from the witnesses.
    I may have a little problem, and I would not want to be 
presumptuous here, but some of us--there are a lot of briefings 
going on now about the whole issue of Iraq and we lost 45 
minutes because of the three votes. I may have to leave at 
sometime, and I do want to just express my apologies before I 
actually do that. Thank you.
    Chairman SHAW. Thank you, Bob. We will proceed as quickly 
as possible through this very busy agenda we have, a large 
number of witnesses, particularly on the last panel.
    Our first witness is Martin Gerry, Deputy Commissioner, 
Disability and Income Security Programs. Welcome to the 
Subcommittee. We have your full testimony, as we do of all the 
witnesses, that will be put into the record, and you may 
summarize as you see fit.
    Mr. GERRY. Thank you, Mr. Chairman.
    Chairman SHAW. Thank you, sir.

STATEMENT OF MARTIN GERRY, DEPUTY COMMISSIONER, DISABILITY AND 
    INCOME SECURITY PROGRAMS, SOCIAL SECURITY ADMINISTRATION

    Mr. GERRY. First, let me thank you and the Subcommittee for 
inviting me today to discuss the Social Security 
Administration's implementation of the Ticket to Work and Self-
Sufficiency Program, which is part of the Ticket to Work and 
Work Incentives Improvement Act 1999 (TTWWIIA).
    As you know, the goal of the Ticket Act is to help disabled 
beneficiaries who want to work by improving employment support 
chances, providing enhanced work incentives, and lessening 
beneficiaries' fears about losing health care and income during 
attempts to work.
    I would very much like to express my thanks to you, Mr. 
Chairman and Mr. Matsui, and to other Members of the 
Subcommittee at the outset for your hard work and support in 
making the Ticket program a reality.
    My remarks--and I will try to make them a little briefer 
than I had otherwise planned--this morning will focus on the 
Ticket program, the central feature of the Ticket Act, and of 
course my written statement includes the status of the other 
work incentives in the Act. I was going to briefly outline the 
program, but, I will not do that because I know you have a lot 
of people waiting to testify.
    Let me talk about where we are with the program. We believe 
that the program is off to a good start. As of this month, more 
than 7,000 beneficiaries have gone to Employment Networks or to 
the State Vocational Rehabilitation Agencies in the initial 13 
States. We expect to see higher numbers of beneficiaries 
participating as we gain experience and the program matures. We 
know we have much work to do to make those expectations a 
reality.
    The second phase of the program will begin in November of 
this year, and during this phase of the program approximately 
2.6 million beneficiaries will be eligible to receive tickets 
in 20 additional States and in the District of Columbia. Then, 
in 2003, we will release tickets to the approximately 3.3 
million beneficiaries in the remaining 17 States and the U.S. 
territories during the third and final implementation phase, so 
that by January 2004 we will have fully implemented the Ticket 
program.
    Employment Networks operate under agreements with SSA and 
can be any qualified State or local government agency, or a 
private entity that assumes responsibility for the coordination 
and delivery of services under the Ticket program. An EN may be 
a one-stop delivery system established under the Workforce 
Investment Act of 1998, a State Vocational Rehabilitation 
Agency, a single provider of services, or a group of providers 
organized to combine their resources into a single entity.
    The ENs are already setting up client interviews and are 
beginning to provide services to beneficiaries in the 13 
initial States. We believe that these activities have increased 
demand for their services. That itself has had a positive 
impact on demand.
    The beneficiary bears none of the cost of employment, 
vocational or other support services. It is the Agency that 
pays an EN that provides services to a beneficiary. An EN can 
elect to receive payments under one of two systems. Under the 
Outcome Payment System, an EN will be paid for each month up to 
60 months in which a beneficiary that it is serving does not 
receive cash benefits due to worker earnings. In the other 
payment system, the outcome-milestone payment system, an EN 
will receive payments when a beneficiary it is serving achieves 
one or more milestones toward self-supporting employment. The 
EN will also receive reduced outcome payments for each month up 
to 60 months that a beneficiary does not receive cash benefits 
due to worker earnings. The Agency has provided up to four 
milestones for which an EN can be paid. We have begun receiving 
and processing the first requests for milestone and outcome 
payments from the ENs. The first milestone payment was made 
during May 2002.
    The Ticket Act also calls for the Commissioner to enter 
into an agreement with a program manager to assist the Agency 
in administering the Ticket to Work Program. MAXIMUS, Inc., is 
that program manager. Among MAXIMUS's duties are recruiting, 
recommending and monitoring the EN selected by SSA to provide 
services, facilitating beneficiary access to the ENs, 
facilitating payment to the ENs and resolving disputes between 
beneficiaries and ENs under the program. I am pleased to note 
that the ENs and beneficiaries appear to be satisfied with the 
level of service provided by MAXIMUS.
    I would like to briefly mention that SSA piloted the 
Employment Support Representative position from July 2000 to 
September 2001. As you know, SSA is required by the Ticket Act 
to provide beneficiaries with employment support information 
and services. We have made no decisions as yet as how to best 
provide those services.
    Finally, I want to thank you, Mr. Chairman, Mr. Matsui, and 
all the Members of the Subcommittee for showing continued 
dedication to the Ticket program. I look forward to working 
with you to successfully implement it.
    [The prepared statement of Mr. Gerry follows:]
 Statement of Martin Gerry, Deputy Commissioner, Disability and Income 
           Security Programs, Social Security Administration
    Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting me today to discuss the Social Security 
Administration's (SSA) implementation of the Ticket to Work and Self-
Sufficiency Program (``Ticket program''). As you know, Mr. Chairman, 
President Bush has a strong interest in disability issues. The 
President has said that he is committed to tearing down the remaining 
barriers to equality that face Americans with disabilities today. His 
``New Freedom Initiative'' will help Americans with disabilities by 
increasing access to assistive technologies, expanding educational 
opportunities, and increasing the ability of Americans with 
disabilities to integrate into the workforce.
    I would like to express my thanks to you, Mr. Chairman, Mr. Matsui, 
and members of the Subcommittee, for your hard work and support in 
making the Ticket program a reality. Established as part of the Ticket 
to Work and Work Incentives Improvement Act of 1999 (``Ticket Act''), 
it was a crucial element of meeting that legislation's goal to remove 
barriers to employment that many Americans with disabilities face. 
Because of the Ticket Program, beneficiaries will have more choices in 
obtaining employment support services to help them reach their 
employment goals.
    Today I would like to provide an update on the implementation of 
the Ticket program, and touch upon a few related issues.
Implementation of the Ticket to Work Program

    First, let me briefly outline this program. A disabled beneficiary 
receives a Ticket if he or she is between the ages of 18 and 64 and his 
or her medical condition is not expected to improve in the near future. 
The beneficiary may take the Ticket to the State Vocational 
Rehabilitation Agency or any of the employment service providers who 
offer employment support services in the community. These providers are 
called Employment Networks (ENs). The beneficiary and the Employment 
Network will jointly develop a plan of services leading to employment. 
In addition, SSA will not schedule a periodic continuing disability 
review (CDR) for a beneficiary who is receiving services from an EN. I 
will discuss these provisions in more detail later.
    We are implementing the Ticket program in three phases. By using a 
staggered approach to implementation we can further develop and refine 
the program before it is fully in place. About 2.4 million 
beneficiaries with disabilities are eligible to receive Tickets to Work 
in the 13 States selected for the first phase of the program. From 
February through June 2002, we mailed Tickets to most of these 
beneficiaries in a graduated release. (Because of the impact of last 
year's terrorist attacks, we developed a slightly delayed release 
schedule for Tickets in New York.) Using this method provided time to 
develop an infrastructure of ENs within these states to serve the 
beneficiaries and to ensure that they were aware of the program's 
availability. Currently we have more than 400 ENs in place.
    We believe the program is off to a good start. Participation is 
voluntary, and I am happy to report that as of this month more than 
7,000 beneficiaries out of the 2.4 million beneficiaries eligible to 
receive Tickets have assigned their Tickets to ENs or the State 
vocational rehabilitation agencies in the initial 13 States. We expect 
to see higher numbers of beneficiaries participating as we gain 
experience and the program matures, but we know we have much work to do 
to make those expectations a reality.
    The second phase of the program will begin in November 2002. During 
this phase of the Program, approximately 2.6 million beneficiaries are 
eligible to receive Tickets in 20 additional States and the District of 
Columbia. Then in 2003, we will release Tickets to the approximately 
3.3 million beneficiaries in the remaining 17 States and the U.S. 
Territories during the third and final implementation phase. By January 
2004, we will have fully implemented the Ticket program.
Employment Networks

    I would now like to focus on the role of the EN in the Ticket 
program. Under the Ticket Act, the Commissioner enters into agreements 
with qualified State, local, or private organizations to serve as ENs. 
These ENs will then provide vocational rehabilitation, employment, and 
other support services to beneficiaries with disabilities to assist 
them to find and maintain employment.
    Employment Networks operate under agreements with SSA, and can be 
any qualified State or local government agency, or a private entity, 
that assumes responsibility for the coordination and delivery of 
services under the Ticket program. An EN may be a one-stop delivery 
system established under the Workforce Investment Act of 1998; a State 
Vocational Rehabilitation Agency; a single provider of services; or a 
group of providers organized to combine their resources into a single 
entity. Employment Networks can provide services directly or by 
entering into agreements with other organizations or individuals to 
provide the appropriate services. ENs will only be paid based on their 
success in assisting beneficiaries to secure and maintain employment 
and move off the disability benefit rolls.
    On April 13, 2001, the Agency published a Request for Proposals for 
organizations in the 13 States in the first phase of the Program 
wishing to serve as ENs. On April 25, 2002, SSA published an amended 
Request for Proposals from organizations wishing to serve as ENs, based 
on the final regulations published on December 28, 2001. Our Program 
Manager, MAXIMUS, is currently evaluating and making recommendations on 
the organizations responding to the Request for Proposals. MAXIMUS and 
the Agency are also marketing the Ticket program to other prospective 
ENs through mailings, EN recruitment fairs, and other contacts.
    As of September 2002, we have received over 500 applications from 
providers to be ENs, and have entered into agreements with more than 
425 providers to serve as ENs. We are working hard to attract 
sufficient providers of employment services so that beneficiaries will 
enjoy the degree of choice when selecting an EN that members of 
Congress and people with disabilities envisioned when the Ticket Act 
was developed. ENs report that beneficiaries are apparently already 
comparing available ENs before deciding where to assign their Tickets.
    ENs are already setting up client interviews and are beginning to 
provide services to beneficiaries. We believe that these activities 
have increased demand for their services. For instance, as of early 
September 2002, over 60 percent of the tickets assigned were assigned 
by ``new'' participants (beneficiaries who had previously not received 
VR services and who first signed plans for services under the Ticket to 
Work program). I might note that, out of this group, about one-third 
assigned their Tickets to an EN. The remaining two-thirds signed plans 
for services with their State Vocational Rehabilitation Agency. We are 
and will continue to look carefully at the Ticket assignments to make 
sure that beneficiaries have a range of choice of providers envisioned 
by the legislation.
    A key element of the Ticket program is that the beneficiary bears 
none of the cost of employment, vocational, or other support services. 
It is the Agency that pays an EN for providing services to a 
beneficiary. An EN can elect to receive payment under one of two 
systems. Under the Outcome Payment System an EN will be paid for each 
month, up to sixty months, in which a beneficiary it is serving does 
not receive cash benefits due to work or earnings. Under the Outcome-
Milestone Payment System, an EN will receive payment when a beneficiary 
it is serving achieves one or more milestones toward self-supporting 
employment. Under this second payment system the EN will also receive 
reduced outcome payments for each month, up to sixty months, that a 
beneficiary does not receive cash benefits due to work or earnings. The 
Agency has provided up to four milestones for which an EN can be paid. 
We have begun receiving and processing the first requests for milestone 
and outcome payments from the ENs. The first milestone payment was made 
during May 2002.
    As I mentioned, the Ticket Act also calls for the Commissioner to 
enter into an agreement with a Program Manager to assist the Agency in 
administering the Ticket to Work Program, MAXIMUS, Inc. Among MAXIMUS' 
duties are recruiting, recommending, and monitoring the ENs selected by 
SSA to provide services; facilitating beneficiary access to the ENs; 
facilitating payment to the ENs; and resolving disputes between 
beneficiaries and ENs under the program. I am pleased to note that the 
ENs and beneficiaries appear to be satisfied with the level of service 
provided by MAXIMUS.
    As an Agency, we appreciate the important role our employees play 
in successfully implementing any new policy. That is why we arranged 
for training sessions on Ticket to Work and employment support topics 
during all three phases of the Ticket implementation. We have already 
completed the training sessions for the first phase, and will hold the 
sessions for the second phase in October 2002. We are also developing 
specialized training for field employees on employment supports.
Other Supports for Return to Work

    While the Ticket program is the central element of the Ticket to 
Work Act, that law includes several other provisions that seek to 
encourage disability beneficiaries to return to work. Importantly, 
these provisions benefit disabled individuals even if they are not 
using their Ticket. I will summarize the implementation status of these 
provisions.
    Pursuant to Section 121 of the Ticket Act, we established Benefits 
Planning, Assistance and Outreach (BPAO) program to fund organizations 
to help disability beneficiaries understand the effect of work 
activities on their benefits and explain other existing programs which 
assist disability beneficiaries who wish to work. In fiscal years 2000 
and 2001, we awarded cooperative agreements under the BPAO program to 
116 organizations, which are located nationwide and all U.S. 
territories. So far, more than 28,000 beneficiaries have received help 
from BPAO organizations.
    Section 122 of the legislation authorized SSA to make payments in 
each State to the protection and advocacy system established pursuant 
to the Developmental Disabilities Assistance and Bill of Rights Act. 
The payments are made to the Protection and Advocacy (P&A) systems for 
the purpose of providing services to assist in protecting the rights of 
disability beneficiaries in their return to work efforts. The P&As are 
to provide information and advice about obtaining VR and employment 
services, as well as advocacy or other services that a beneficiary 
needs to secure or regain gainful employment. In FY 2001, we awarded 57 
P&A grants nationwide, and in the U.S. territories. All P&A projects 
have completed implementation efforts and are providing the required 
information and advocacy services. By the end of 2001, they had 
provided services to over 10,000 beneficiaries.
    The Ticket Act also reduced the need for disability beneficiaries 
to choose between returning to work and receiving health care coverage. 
It extended Medicare coverage for working individuals with disabilities 
by an additional four and a half years, and expanded the Medicaid 
program to give the states the option of providing coverage to more 
working people with disabilities. This extension of coverage became 
effective on October 1, 2000. Twenty-six states already have Centers 
for Medicare and Medicaid Services (CMS) approved plans for extending 
Medicaid coverage in place and an additional eight states have passed 
enabling legislation and are working with CMS to gain approval for 
their plans. Additionally, approximately 52,000 persons have benefited 
from the extension of Medicare coverage.
    Also, the Ticket Act included two sections that sought to eliminate 
work disincentives for all disability beneficiaries, even those not 
using tickets. Under Section 112, an individual whose benefits 
terminated because of work activity can request that benefits start 
again without having to complete a new application. While the Agency 
determines the requestor's eligibility for reinstatement, he or she can 
receive provisional benefits for up to six months. This process is 
called expedited reinstatement. Since this provision became effective 
on January 1, 2001, we have adjudicated almost 12,000 expedited 
reinstatement claims that have been filed. We have completed SSA 
instructions and training for field employees, and expect to publish a 
Notice of Proposed Rulemaking on the provisions of expedited 
reinstatement in the winter.
    Under Section 111, a Social Security Disability Insurance 
beneficiary's work activity will not trigger a CDR if he or she has 
received benefits for at least 24 months. This provision became 
effective on January 1, 2002. We have completed instructions and 
training for field employees to familiarize them with the new 
provision, and we expect to publish a Notice of Proposed Rulemaking on 
the provisions of suspending CDRs also in the winter.
    One of the systems enhancements we are developing to prevent 
triggering a CDR is called the Disability Claims File. This system will 
link the software that tracks work information and the end of the trial 
work period for beneficiaries to the system that controls medical 
diaries. Additionally, because one system will track all work 
information and control all continuing disability reviews, we expect to 
improve our ability to properly handle work reports, reducing both the 
number of incorrect payments and our processing time for these reviews. 
We have begun efforts to improve automation of these workloads and 
expect further enhancements.
Work Incentive Specialists

    Section 121 of the Ticket Act requires SSA to establish a corps of 
specialists devoted to issues related to work incentives. From July 
2000 to September 2001 we piloted an Employment Support Representative 
position as we look for ways to provide that service. We are 
considering how best to provide employment support-related information 
and services to beneficiaries with disabilities who want to work, 
within the context of our overall operations. We have not made any 
decisions yet.
Conclusion

    Finally, I thank you, Mr. Chairman, Mr. Matsui, and all the members 
of the Subcommittee, for showing continued dedication to the Ticket 
program. Thanks to that commitment, we look forward toward providing 
more beneficiaries with the additional opportunities and tools they 
need to enter or reenter the workforce.
    I would also like to acknowledge the valuable input we have 
received from the Ticket Advisory Panel and the Social Security 
Advisory Board. We are committed to achieving the goal set by Congress 
to improve access to jobs for Americans with disabilities. I believe, 
and I am sure you will agree, that the nation benefits greatly when all 
of its citizens have the opportunity to make the most of their talents. 
We shall implement the Ticket program with the goal of realizing this 
idea.
    Again, thank you for inviting me to be here today. I look forward 
to working with you to successfully implement the Ticket program.

                                 <F-dash>

    Chairman SHAW. Thank you, Mr. Gerry.
    I think most of us agree that understanding the Social 
Security work incentives and how earnings impact benefits is 
not easy to do, and the lack of understanding promotes fear, 
which has the potential of preventing people from returning to 
work. One of those fears that I referred to earlier regarding 
loss of medical benefits, which we address in the law, but has 
not been implemented in many States including my own.
    That is why in the Ticket to Work law we ask the Social 
Security Administration to establish a core of trained, 
accessible and responsive work incentive specialists. What have 
we done in that regard in setting that up, and how is that 
working?
    Mr. GERRY. Well, of course, the agency did establish a 
pilot program where we set up Employment Support 
Representatives (ESR), and we have been looking at the 
experience. We currently have 24 of those representatives still 
working in the original structure. The Commissioner has not yet 
decided the best way to fully respond to what is clearly the 
mandate that Congress established in the statute. I think one 
of the things we have learned is that it is very important for 
the Agency as a whole to get involved in this work. That is, we 
have been looking at strategies, and I think the Commissioner 
will want to look at our entire workforce and try to make it 
generally more responsive. This is part of our regular 
business, and we need to begin to involve our claims 
representatives, our service representatives, the staff of all 
of our regional offices in this, not just a particularly small 
group of people that might be identified on the margins. I 
think the Commissioner believes that we need to integrate this 
program totally.
    So, we are going to be looking at options to do that, as 
well as continue to provide this kind of specific targeted 
support. I don't have an exact date at which point she will 
probably arrive at the conclusions, but I can tell you that it 
is something that we are actively looking at right now. We 
actually are just about to complete the roll-out in October 
because we had to delay the roll-out in New York State. At that 
point I think it would be a good time for us to look at the 
experience. We have been doing a lot of internal evaluations. 
We want to see how we can relate our staff to the organizations 
that we fund and figure out how we can really best serve people 
with disabilities in an integrated way across the system and 
not just create a separate group of people who, no matter how 
effective they might be, may not change the organizational 
culture. We need to change the way in which the Agency sees 
this job to include actively promoting employment opportunities 
for people with disabilities.
    Chairman SHAW. Are any of your people out there 
specifically assigned to that task?
    Mr. GERRY. Currently, we do have people working. As I 
mentioned, there are the Employment Support Representatives 
that we currently have, and increasingly we have been 
conducting training of all of our regional staff, so that there 
are people assigned to provide that assistance. We haven't 
gotten to the point that Congress wants us to get to, which is 
to designate formally in each field office, for example, how we 
would respond. Now, of course we are only doing this in 13 
States.
    One of the issues, and why I think it has been necessary to 
take some time to do this, is to look at demand: how much 
demand is there, and what is the demand for. We think that we 
ought to respond aggressively to the kinds of questions that 
were being asked. We are talking with the people who are 
fielding those questions and we are gaining a lot of experience 
every month about the kind of information we need to provide.
    Chairman SHAW. Well, is the system overwhelmed at this 
point or under-whelmed or how are we doing now? In my opening 
remarks I mentioned that we had, how many millions we had sent 
out and 7,000 picked them up.
    Mr. GERRY. I don't think the system is overwhelmed. I have 
been working, for example, fairly closely with New York. New 
York was a State that had grave concerns about being 
overwhelmed, particularly after the events of last September, 
and the concerns that they had about the potential impact. So, 
I have been monitoring New York very closely--and it is the 
largest State in the first 13. Actually, the States have 
responded well in terms of the demand. I think we have been 
able to meet the demand. We have a good volume, and that is 
what we wanted. We certainly didn't want to be under-whelmed. 
We are going to have to work harder to promote the program 
more.
    So, it is not so much that we need to measure the demand to 
know that we have to do this. It is more measuring the demand 
to know how many people we need, where we need them, and in 
some cases expanding the training. So, we are already involved 
in the systematic training of people in our field offices, 
moving more toward the idea that we ought to have people who 
work for our Agency to be able to address this issue.
    Chairman SHAW. Thank you. Mr. Matsui?
    Mr. MATSUI. Thank you very much, Mr. Chairman.
    Thank you very much, Mr. Gerry. I want to just follow up on 
the Chairman's comments in terms of under-whelmed, overwhelmed. 
Do you feel the program is at this time, given the fact that 
you have only been really actually in the field, so to speak, 
for about 7 or 8 months now, do you feel comfortable the 
program is on track and adequately working?
    Mr. GERRY. Yes. It was my sense from the beginning--and I 
think the Commissioner's sense from the beginning--that it was 
going to take some time for this program to fully gear up. As 
the Chairman mentioned in his opening remarks, that there is a 
lot of concern. There is some fear about what may happen to 
people. I think there is a trust issue that has always been 
there. A lot of the early experience that we have, and one of 
the reasons we have been trying to focus on doing it correctly, 
is to try to systematically convey that we can and will 
respond. It has always been true that there be some sort of a 
ramp in take-up rates, and a lot of it is the experience of the 
people who begin the program will have a lot to do with how 
many other people participate.
    So, given the projections that we had, we are doing a 
little bit better than we thought in terms of program 
participation. It is not as if a lot of people flooded our 
offices. I have not seen any evidence that the delivery system 
is overwhelmed. I am a little more concerned about being sure 
that we have all the choices and the broadest possible range of 
choices for people, more than I am that the people who are 
being chosen are overwhelmed. That is something we have to keep 
working on because one of the goals of the law, obviously, was 
to try to broaden that choice as much as possible.
    So, if I have any concerns it is more to be sure that the 
competition is there. That is the one thing I notice in terms 
of how the tickets are going out. It is not so much the volume, 
but it would be good to have even more competition than we seem 
to have. It varies a lot from State to State.
    Mr. MATSUI. How are the State vocational rehabilitation 
programs integrating with what your people are doing on the 
field, or is that even an issue yet, or is that something you 
are kind of thinking about, how you are going to--or is there 
even a need to integrate them, or coordinate them I guess is a 
better word?
    Mr. GERRY. There is a very real need to integrate and 
coordinate, and I have been spending a lot of time with the 
U.S. Department of Education, the Assistant Secretary for 
Special Education and Rehabilitation Services, which provides 
the other funding for the rehabilitation system.
    The integration also involves the Workforce Investment Act, 
which the VR systems are part of too. As part of that, there is 
sort of a three-way tie between the vocational rehabilitation 
program, the U.S. Department of Labor programs and ours. The 
shared goal, is to have as rich a set of opportunities and 
choices for people as possible and for the VR system, along 
with our system, to contribute to the overall employment 
support needed by people. So, it is very important that we not 
end up either having our funds replaced by funds that would 
otherwise be spent (and need to be spent) by the vocational 
rehabilitation providers, or for us not to coordinate 
effectively across and over timeframes. There are orders of 
priority in the Vocational Rehabilitation Act that actually put 
our beneficiaries high on the list. If things work well--and I 
mentioned this in some earlier testimony and some of the 
demonstrations that we are working on--it is to bring all these 
resources together and aggregate them and provide an integrated 
support structure over time. That is what we are trying to do.
    Mr. MATSUI. Would that require more legislative--probably 
would require more regulations I would imagine, or would it? 
Maybe not. I mean, can you do it?
    Mr. GERRY. Well, that is actually what we are trying to do 
in the demonstrations. We are trying to work at the State and 
local level to figure out how this should best proceed. It may 
bring up the need for legislation. It may bring up the need for 
regulations. I think we will know best when we actually are 
doing this, which we have started, and are doing with youth, 
and adults, and the VR systems are part of that. For the most 
part my own experience would be that most of this is able to be 
done without legislative changes. I don't think the laws are 
inconsistent.
    Mr. MATSUI. No.
    Mr. GERRY. There may be some need for regulatory changes. 
So far we haven't encountered that, but we are really just 
starting this. My experience with demonstrations is that you 
only find out once you finally get down to who is going to do 
what on Monday or who is going to pay for what. Are there 
barriers to doing it the way people at the local level really 
want to do it? Then we will find out. I think that will be 
within the next several months.
    Mr. MATSUI. I guess the turf issue is always a difficult 
one to really resolve.
    Mr. GERRY. It is, but had the Education Department and 
particularly Assistant Secretary Pasternack couldn't have been 
more cooperative. We have been working very closely with them, 
and I think at this point it is an excellent coordination.
    Mr. MATSUI. Is there an interagency task force that is 
actually on an ongoing basis now, labor education?
    Mr. GERRY. We don't have a formal one that I know of, but 
as part of the President's New Freedom Initiative, we have an 
ad hoc group of four agencies: the Labor Department, Education 
Department, Health and Human Services and the Social Security 
Administration. We have been meeting pretty much weekly to 
design and work together on a whole set of initiatives which 
the President has talked about, some of which are reaching 
fruition in terms of these demonstration programs. We are 
looking at some regulatory changes on our side, but those four 
agencies have been the core of that effort. I don't think we 
have an official designation, but it is being done under the 
New Freedom Initiative.
    Mr. MATSUI. Probably better that way. May I just ask one 
last question. The backlog of the disability claims review 
process, that is not being impacted in any adverse way by this 
program, I would imagine, through different personnel and all 
of that? Obviously your time is being taken up, and a few 
others probably at the top management level, but it is not 
being impacted negatively, I take it; is that correct?
    Mr. GERRY. Correct. One of the considerations in looking at 
this whole question of how we want to provide this kind of 
ongoing support is that there is no overlap. When we get into 
questions of how we use field office staff, there will be a lot 
of choices. Are we going to work on this workload or are we 
going to work on that workload? Those are real issues, because 
we have a lot of competing demands, as we have said. Right now 
the roll-out of the Ticket and the way we are operating the 
program is not creating any kind of a drain of resources from 
the working on backlog.
    Mr. MATSUI. Thank you.
    Thank you, Mr. Chairman.
    Chairman SHAW. Mr. Collins?
    Mr. COLLINS. Thank you, Mr. Chairman.
    Mr. Gerry, just one question pertaining to the 
demonstration project which will reduce the benefits one dollar 
for every two dollars of earnings above a certain threshold. 
Many call it a cash cliff. What is the status of the project 
itself and the report that is due in early 2004?
    Mr. GERRY. Well, Mr. Collins, we are moving ahead with that 
effort. In fact I have a meeting tomorrow in which we are 
finalizing the write-up of what amounts to a detailed design of 
a demonstration project.
    What we have decided to do is to pursue this in the form of 
State demonstrations. We will be looking for States who want to 
pursue this and help do the research that is necessary to see 
what the effect of that one for two offset would be on 
employment opportunities. We went through an extended period of 
time trying to evaluate whether we could do this on a national 
sample basis and the size and cost and complexity of that. I 
was very involved with looking at the welfare reform 
demonstrations and what has gone on there. I became convinced 
that we could do this effectively by using State 
demonstrations. I think we could learn a lot about the same 
questions and we could do it more rapidly. I think Congress 
wanted to get some information about what the actual 
consequences would be.
    I am hoping we will have something formalized by the end of 
this year. We may start with some States using existing funding 
before we do a formal competition, or we may go ahead and move 
to a formal competition, but we want these demonstrations to 
begin as soon as we can. The key is to design them so that we 
can learn as much as we can about the contribution that the one 
for two feature would make. The complexity is that it is very 
hard to keep all the other variables constant, because the 
economy changes, the employment demands change, etc. So, what 
we are trying to figure out is how to measure that factor so we 
can report to Congress with some clarity. That is my sense of 
what Congress wanted, whether this particular feature will 
contribute significantly and positively, and that is the design 
question. We are moving ahead as rapidly as we can at this 
point.
    Mr. COLLINS. The early 2004 date then seems to be kind of 
unreasonable to reach based on 2002 for design concept and 
implementation and very little time for actual result.
    Mr. GERRY. I think it is going to be difficult to have as 
much information as we would like, and I suspect that Congress 
wanted by that date. We will have some information, but 
probably it will be another 4 to 6 months before we have the 
kind of data that I would like. I do think it has been a very 
difficult process that we have gone through, but necessary to 
look at the design questions. We asked a lot of people. We met 
with the Ticket to Work Advisory Panel (Panel), and we 
discussed this at some length. We will have more of those 
discussions before the final design, but I think the key thing 
is that the Commissioner wants to move ahead and has decided to 
move on this, on a State demonstration approach. Having made 
that decision, I am confident that we will move ahead quickly.
    Mr. COLLINS. Very good. Thank you, Mr. Gerry.
    Chairman SHAW. If that cliff remains a problem, I have made 
some inquiries into that, and it is a question of tremendous 
expenses do away with it, but that is something that we should 
look at, because it in itself creates a barrier for a lot of 
people.
    I would like to just go on one further area, but it 
involves testimony of the third panel, Ms. Prokop and Mr. 
Decker, who will be part of that next panel, raised some 
questions that I would like to explore with you, because I will 
not have another chance at you after they finish.
    First, that most State Vocational Rehabilitation Agencies 
are opting to be paid under traditional cost reimbursement 
method, which cases are closed after 9 months of work as 
opposed to 60 months investment in the client that is required 
by private providers.
    Second, private providers perceive that if they sign up to 
be an employer network, their current relationship with their 
State Vocational Rehabilitation Agency may be jeopardized.
    Third, there have been reports that some current vocational 
rehabilitation clients were threatened with termination from 
vocational rehabilitation if they did not assign their ticket 
to the Vocational Rehabilitation Agency, or worse, were not 
informed that they could be better served by taking their 
ticket to elsewhere versus staying on a waiting list at the 
Vocational Rehabilitation Agency.
    This is most disappointing, and it is completely opposed to 
our goal of the Ticket to Work Program. Have you heard an of 
these allegations yourself? If so, are they true? What are we 
doing to address it?
    Mr. GERRY. Yes, Mr. Chairman, I have heard them. The first 
item you mention is really a choice that was provided under the 
statute, that is, the question of which payment system the VR 
Agencies would use. We have seen some States shifting to the 
new payment methodologies. So, I would say that although it is 
true that most are using the old payment system, many are 
shifting, but that Congress permitted them to do that, so it is 
not something that we have been pursuing, per se.
    We are required by the Act to look at the payment methods 
that we use. If we were to conclude that the payment 
methodologies that were created for one reason or another were 
so unattractive that no one wanted to use them, that would be 
something that we would report back. At this point there is no 
way we would know that. There are some States that are 
shifting. So, as far as the first point, I don't think that 
raises any particular concerns, that is, that they are using 
the original payment methodology.
    The other two points you made I have heard about. Let me 
take them separately for a minute. There are anecdotal accounts 
that there has been pressure put on some providers to enter 
into agreements with Vocational Rehabilitation Agencies, who 
also happen to provide funding to them under the Rehabilitation 
Act, so even though we are talking about the Ticket to Work, 
they have other relationships. That is a concern that I have 
raised with the Education Department, along with the third 
point you mention, which is this question of whether or not 
claimants are being told that they must use a ticket. Although 
I am not an expert on the Rehabilitation Act in any sense, I 
have talked to the Education Department about their view of 
whether or not it would be permissible to make someone use up a 
one-time ticket who was otherwise entitled to services under 
the Rehabilitation Act. We are talking at some length. I have 
also talked with the U.S. Department of Justice about both of 
these issues to be sure that we don't have these kinds of 
problems. Now, I have no hard evidence of any particular State 
where this has occurred, but I suspect I have heard many of the 
same reports that you have, and we take them seriously, and we 
are pursuing them.
    Chairman SHAW. The testimony I have referred to will of 
course be made available to you to follow up on it any way you 
can, and any further expansion that you can give us, please 
keep us advised.
    Mr. GERRY. As soon as I learn anything about it, I would be 
happy to provide it.
    Chairman SHAW. Thank you for your testimony. I appreciate 
you being with us here this morning.
    Chairman SHAW. Our second witness is Sarah Wiggins 
Mitchell, who is the Chair of the Ticket to Work and Work 
Incentive Advisory Panel. Ms. Mitchell, we have your full 
testimony, which of course will be made a part of the record, 
and you may proceed as you see fit, and welcome back to this 
Subcommittee.

STATEMENT OF SARAH WIGGINS MITCHELL, CHAIR, TICKET TO WORK AND 
 WORK INCENTIVES ADVISORY PANEL, SOCIAL SECURITY ADMINISTRATION

    Ms. MITCHELL. Thank you. Thank you very much. Now I should 
say good afternoon, Mr. Chairman, and Members of the 
Subcommittee.
    Chairman SHAW. Well, I think it is morning where you are 
from.
    Ms. MITCHELL. On behalf of the Ticket to Work and Work 
Incentives Advisory Panel, I would like to thank you for this 
opportunity to speak with you today. We are very appreciative 
of the high level of interest this Subcommittee has shown 
regarding the implementation of the Ticket to Work Program. We 
also would like to recognize the tremendous amount of support 
you demonstrate for not only this important law, but also for 
the well-being of people with disabilities in general.
    When you passed the Ticket to Work Program, you recognized 
that there are many people with disabilities currently 
receiving benefits to work. You also recognized that certain 
policies and procedures acted as disincentives and prevented 
people from attempting to work. Further, you also saw that both 
within SSA and in the Rehabilitation and Employment Support 
arena in general, that customer service supports were not 
available to assist with the transition off benefits, and you 
recognized also that with the proper supports people would want 
to attempt to go to work. Indeed, the early implementation of 
the programs authorized by the Ticket legislation is certainly 
proving your vision to be true.
    Although the Ticket program got off to a later start than 
anticipated in the statute, SSA has now mailed out over 2 
million tickets, as you noted, to Supplemental Security Income 
(SSI) and Social Security Disability Insurance (SSDI) 
beneficiaries in 13 States. The response from beneficiaries has 
been unexpected. Although ticket distribution did not begin 
until February of this year, as you noted, Mr. Chairman, over 
7,000 beneficiaries have signed up with Employment Networks or 
ENs. I am sure as you are going to hear later, there are now--
at least the last data that we received--438 ENs available to 
the service ticket holders.
    At our last Panel meeting in August we focused on ENs and 
we heard that the response from beneficiaries has been greater 
than expected. As one director put it, quote, ``If I had to 
express one word that represents the Ticket program in South 
Florida, it would have to be ``surprise.'' When the ticket was 
first mailed out last February, it was my understanding few of 
the Florida beneficiaries would want to work. I have received 
over 500 telephone calls from beneficiaries inquiring into the 
Ticket program and asking how they may participate.'' Now, 
although this was the experience of a particular EN, we heard a 
very similar response from all the other ENs that participated 
in our quarterly meeting.
    People with disabilities also obviously needed somewhere to 
go for information and advocacy related to SSA work incentives 
and how returning to work would affect their benefits. The 
programs established by the Ticket legislation are clearly 
helping to meet the needs of beneficiaries for information. 
Almost 31,000 beneficiaries have sought information and 
assistance from the Benefits Planning Assistance and Outreach 
Program, and over 17,000 of those individuals were not 
currently employed and were looking to work.
    A service provider who visited a benefit planner said, 
``The benefit specialist was able to present the information 
clearly and in simple terms. For the first time I really 
understood how SSI and SSDI work.'' A beneficiary commented to 
a benefits planner, ``You were enormously helpful, not to 
mention knowledgeable. I have a great challenge in front of me 
and you have given me a lot of good information. We shall see 
what lies ahead.''
    Then there are the protection and advocacy programs, which 
have also proven to be enormously helpful to people with 
disabilities. At the end of last year more than 10,000 people 
have been served by the protection and advocacy programs across 
the country. Obviously, advocacy was another service needed by 
the beneficiaries of Social Security disability programs.
    A significant barrier however to employment for people with 
disabilities has always been access to health care. As Deputy 
Commissioner Gerry noted in his testimony, approximately 52,000 
people have benefited from the extension of Medicare benefits. 
In addition, 23 States now have operational Medicaid buy-in 
programs enacted the authority created by both the Balanced 
Budget Act and the Ticket legislation. An additional 10 States 
have passed legislation to establish a buy-in program, but they 
are not up and running yet. The best news is that more than 
16,500 people with disabilities are working in these 23 States 
and participating in the Medicaid buy-in program.
    The programs authorized by the Ticket legislation are off 
to a good start and are beginning to meet the customer needs of 
SSA beneficiaries that have long been neglected. However, the 
Panel has serious concerns about whether SSA is devoting 
sufficient resources to these programs to allow them a chance 
to fulfill their potential. In addition, the Panel is concerned 
that SSA will not build the infrastructure and capacity needed 
to support the programs as they grow.
    To begin with, we believe the resources allocated to public 
education, training and marketing of the Ticket program are 
insufficient to support the programs through this critical 
startup period. The Ticket program represents a dramatic change 
in the role of SSA and its relationship to its customers with 
disabilities and rehabilitation providers. No longer will SSA 
only process claims and disburse checks. It will also offer 
employment support and direct help for beneficiaries who return 
to work. Based on public comment, the Panel believes that many 
beneficiaries who receive a ticket do not know what it is, what 
to do with it, or why it has been sent to them. The Panel has 
heard at public meetings from ENs, White House staff and senior 
SSA executives that a campaign to market the ticket to 
beneficiaries, providers and employers is crucial to the 
success of this program. As far as the Panel can determine, no 
resources have been allocated to marketing the Ticket program 
except to recruit new ENs.
    Not only must beneficiaries, employers, providers and all 
other relevant stakeholders know about the Ticket program, the 
Panel believes that for the program to succeed, they must also 
be well educated about it. The Benefits Planning Assistance and 
Outreach grantees are doing an excellent job, but they simply 
do not have the resources to educate everyone about the 
program. As far as the Panel knows, SSA has not developed a 
campaign to educate the public about the Ticket to Work 
Program.
    The training budget allocated to these programs by SSA is 
also problematic. SSA is spending less than $4 million on 
training. For a new program relying on both beneficiaries and 
providers to make informed choices and relying on many Federal, 
State and private strategic partners to coordinate their 
efforts, an intensive and comprehensive training regime is 
crucial. The Panel believes the amount of resources dedicated 
to training is terribly inadequate. In comparison to the $4 
million just noted for the Ticket program, one program, the 
Federal and State vocational rehabilitation program spends 
about $40 million per year on training activities.
    The Panel also thinks that SSA may not be creating the 
service capacity both inside the agency and out to adequately 
support the programs and work incentive improvements of the 
Ticket legislation. One major concern involves the requirement 
of the Ticket legislation for SSA to establish the ESR program, 
which you were questioning Deputy Commissioner Gerry about. In 
order to meet the requirement, SSA established the pilot 
program, which was noted previously to test the utility of 
full-time permanent SSA staff to fill that ESR role. The pilot 
actually involved 36 ESRs and the preliminary findings on the 
pilot program were extremely positive. The Panel heard positive 
feedback from SSA beneficiaries who interacted with ESRs. In 
addition, SSA's only evaluation report made positive 
recommendation regarding the ESR position.
    The future of the ESR program, however, is unclear. I did 
hear what Deputy Commissioner Gerry was saying, that they are 
evaluating this as to how they want to go forward with it, but 
to date, the Panel has not been advised as to how they will be 
proceeding. It is not clear whether they will expand the pilot 
to full coverage, hire outside contractors, or use claims 
representatives as part-time work incentive specialists. The 
Panel strongly believes that the establishment of work 
incentive specialists who are full-time permanent employees of 
SSA, as in the ESR pilot, is essential. The Panel has expressed 
this concern to Commissioner Barnhart, and we are waiting for a 
response. We do not know whether SSA intends to continue the 
ESR program.
    The second capacity issue involves ENs. As we said, there 
are now over 400 ENs to serve beneficiaries around the country. 
While this represents a good start, and MAXIMUS should be 
commended for the work they have done so far, a lot remains to 
be done. The Panel is concerned there are not enough providers 
with a diversity in both geographic location and specialization 
to meet the needs of beneficiaries. The geographic location of 
the ENs is a concern. At our Panel meeting last month we heard 
from an EN, ``There are 58 Employment Networks in Illinois.''
    Chairman SHAW. Could I interrupt? How much longer do you 
have?
    Ms. MITCHELL. Oh, I am just about finished. This is it.
    Chairman SHAW. Thank you.
    Ms. MITCHELL. ``There are surprisingly few, maybe eight in 
the metropolitan area of Chicago where we provide our service. 
The other side of that coin is that the majority of 
beneficiaries of course live in the metropolitan area of 
Chicago.'' If ENs are not located where the beneficiaries are, 
then beneficiaries will not be able to participate in the 
program.
    I would just like to finally close by indicating that the 
Panel was concerned that SSA has not developed the capacity to 
handle increased number of beneficiaries returning to work 
without exacerbating the overpayment problem. As you know, in 
fiscal year 1999 SSI beneficiaries owed SSA more than $3.8 
billion in overpayments. For many beneficiaries returning to 
work this of course remains a barrier for them.
    Now, the Panel is aware that SSA has finite administrative 
funds and the Agency must meet all of its needs with the 
dollars appropriated by Congress. We are also mindful of the 
increased demand for customer service that will be placed on 
the Agency as baby boomers begin to retire. We know that they 
must establish priorities and the Ticket legislation must 
compete with these other programs. However, if the resource and 
capacity issues are not addressed, the Ticket program may in 
fact fail, not because people with disabilities don't want to 
work and not because the program could not be effective, but 
rather because it was never given the chance to succeed.
    I just would like to, in closing, acknowledge and thank the 
Agency. The Agency has been most cooperative with the Panel, 
has been very accessible. They have solicited our input, and 
Deputy Commissioner Gerry and his staff, I would particularly 
like to acknowledge and thank. Thank you for your time and 
attention.
    [The prepared statement of Ms. Mitchell follows:]
  Statement of Sarah Wiggins Mitchell, Chair, Ticket to Work and Work 
       Incentives Advisory Panel, Social Security Administration
    Good morning Mr. Chairman, members of the Committee. On behalf of 
the Ticket to Work and Work Incentives Advisory Panel, we would like to 
thank you for this opportunity to speak to you today. The Panel is very 
appreciative of the high level of interest this committee shows 
regarding implementation of the Ticket to Work and Work Incentives 
Improvement Act. The Panel would also like to take the time to 
recognize the tremendous amount of support this committee demonstrates 
for not only this important law, but for the well being of people with 
disabilities in general.
    When you passed the Ticket to Work and Work Incentives Improvement 
Act, you recognized the desire of many people with disabilities 
currently receiving benefits to work. You also recognized that certain 
policies and procedures acted as disincentives and prevented people 
from attempting to work. Further, you saw both within SSA, and in the 
rehabilitation and employment support arena in general, that customer 
service supports were not available to assist with the transition off 
benefits. It was also clear to you that with the proper supports, 
people would want to attempt to go to work. Indeed, the early 
implementation of the programs authorized by the Ticket legislation is 
certainly proving your vision to be true.
    Although the Ticket program got off to a later start than 
anticipated in the statute, SSA has now mailed out over two million 
tickets to SSI and SSDI beneficiaries in 13 states. The response from 
beneficiaries has been unexpected. Although ticket distribution did not 
begin until February of this year, over 7000 beneficiaries have signed 
up with Employment Networks, or ENs, for services.
    There are now 428 ENs available to serve ticket holders. The Panel 
focused last month's quarterly meeting on ENs. We heard that the 
response from beneficiaries has been greater than expected. As one 
director put it, ``If I had to express one word that represents the 
Ticket program in South Florida, it would have to be ``surprise''. When 
the Tickets were first mailed out last February, it was my 
understanding few of the Florida beneficiaries would want to work. I 
have received over 500 telephone calls from beneficiaries inquiring 
into the Ticket program and asking how they may participate.'' Although 
this was the experience of a particular EN, we heard a very similar 
response from all the other ENs that participated in the Panel's 
quarterly meeting.
    People with disabilities also obviously needed somewhere to go for 
information and advocacy on SSA work incentives and how returning to 
work will affect their benefits. The programs established by the Ticket 
legislation are clearly helping to meet the need of beneficiaries for 
information. Almost thirty-one thousand beneficiaries have sought 
information and assistance from the Benefits Planning Assistance and 
Outreach program. Thirty-one thousand--a significant number of people. 
And over 17 thousand of those people were not currently employed and 
were looking to work. A service provider who visited a benefit planner 
said, ``The benefits specialist was able to present the information 
clearly and in simple terms. For the first time I really understood how 
SSI and SSDI works.'' A beneficiary commented to a benefits planner, 
``You were enormously helpful, not to mention knowledgeable. . . . I 
have a great challenge in front of me and you have given me a lot of 
good information. We shall see what lies ahead.''
    The Protection and Advocacy Program has also proved enormously 
helpful to people with disabilities. At the end of last year, more than 
ten thousand people had been served by the P&A programs across the 
country Obviously, advocacy was another service needed by beneficiaries 
of Social Security disability programs.
    A significant barrier to employment for people with disabilities 
has always been access to health care. Twenty-three states now have 
operational Medicaid buy-ins, enacted under the authority created by 
both the Balanced Budget Act and the Ticket legislation. An additional 
ten states have passed legislation to establish a buy-in but they are 
not up and running yet. The best news is that more than sixteen 
thousand five hundred people with disabilities are working in these 
twenty three states and participating in the Medicaid buy-in.
    The programs authorized by the Ticket legislation are off to a good 
start and are beginning to meet the customer service needs of SSA 
beneficiaries that have long been neglected. However, the Panel has 
serious concerns about whether SSA is devoting sufficient resources to 
these programs to allow them the chance to fulfill their potential. In 
addition, the Panel is concerned that SSA will not build the 
infrastructure and capacity needed to support the programs as they 
grow.
    To begin with, we believe the resources allocated to public 
education, training and marketing of the Ticket to Work Program are 
insufficient to support the programs through this critical start up 
period. The Ticket program represents a dramatic change in the role of 
SSA and its relationship to its customers with disabilities and 
rehabilitation providers. No longer will SSA only process claims and 
disburse checks. It will also offer employment support and direct help 
for beneficiaries who return to work. Based on public comment, the 
Panel believes many beneficiaries who receive a ticket do not know what 
it is, what to do with it or why it has been sent to them. The Panel 
has heard at public meetings from ENs, White House staff and senior SSA 
executives that a campaign to market the ticket to beneficiaries, 
providers and employers is crucial to the success of this program. As 
far as the Panel can determine, no resources have been allocated to 
marketing the Ticket Program, except to recruit new ENs.
    Not only must beneficiaries, employers, providers and all other 
relevant stakeholders know about the Ticket to Work Program, the Panel 
believes that for the program to succeed they must be well educated 
about it. The Benefits Planning Assistance and Outreach grantees are 
doing an excellent job, but they simply do not have the resources to 
educate everyone about the program. As far as the Panel knows, SSA has 
not developed a campaign to educate the public about the Ticket to Work 
Program.
    The training budget allocated to these programs by SSA is also 
problematic. SSA is spending less than four million dollars on 
training. For a new program relying on both beneficiaries and providers 
to make informed choices, and relying on many Federal, state and 
private strategic partners to coordinate their efforts, an intensive 
and comprehensive training regimen is crucial. The Panel believes the 
amount of resources dedicated to training is terribly inadequate. In 
comparison, one program, the Federal and State Vocational 
Rehabilitation program, spends about forty million dollars per year on 
training activities.
    The Panel also thinks that SSA may not be creating the service 
capacity, both inside the agency and out, to adequately support the 
programs and work incentive improvements of the Ticket legislation. One 
major concern involves the requirement in the Ticket legislation for 
SSA to ``establish a corps of trained, accessible and responsive work 
incentives specialists within the Social Security Administration--
(emphasis added)'' In order to meet the requirement, SSA established a 
pilot program to test the utility of full time permanent SSA staff to 
fill that role called Employment Support Representatives or ESRs. The 
pilot involved 36 ESRs. The preliminary findings for the pilot program 
were extremely positive. The Panel heard positive feedback from SSA 
beneficiaries who interacted with ESRs. In addition, SSA's own 
evaluation report made positive recommendations regarding the ESR 
position.
    The future of the ESR position, however, is unclear. SSA has not to 
date told the Panel how it intends to proceed. Will SSA expand the 
pilot to full coverage? Hire outside contractors? Will SSA use claims 
representatives who are part-time work incentive specialists? The Panel 
strongly believes that the establishment of work incentives specialists 
who are full-time, permanent employees of SSA, like the ESR pilot, is 
essential. The Panel has expressed its concern to Commissioner Barnhart 
and we are waiting for a response. We do not know whether SSA intends 
to continue the ESR program.
    The second capacity issue involves ENs. As we said, there are now 
over 400 ENs to serve beneficiaries around the country. While this 
represents a good start and Maximus should be commended for the work 
they have done so far, a lot remains to be done. The Panel is concerned 
there are not enough providers, with a diversity in both geographic 
location and specialization, to meet the needs of beneficiaries. The 
geographic location of the EN's is a major concern. As one EN told the 
Panel at our last meeting, ``There are 58 employment networks in 
Illinois . . . surprisingly very few, maybe eight in the metropolitan 
area of Chicago where we provide our service. The other side of that 
coin is that the majority of beneficiaries, of course, live in the 
metropolitan area of Chicago.'' If the ENs are not located where the 
beneficiaries are, then beneficiaries will not be able to participate 
in the Ticket Program.
    The Panel has also been told that not very many of these ENs are 
new providers. A primary goal of the Ticket program was to expand the 
universe of service providers to allow real choice for people with 
disabilities. We think the program has a long way to go to make true 
choice a reality. As that same Illinois EN reported to the Panel, ``. . 
. Very, very few new players have come in, which I think is not what 
the intent was . . . it is the same network of players that has always 
been there.''
    Finally, the Panel is concerned that SSA has not developed the 
capacity to handle increased numbers of beneficiaries returning to work 
without exacerbating the overpayment problem. As you know, in fiscal 
year 1999, SSI beneficiaries owed SSA more than 3.8 billion dollars in 
overpayments (GAO-01-778, Social Security Administration: Status of 
Achieving Key Outcomes and Addressing Major Management Challenges, June 
2001, p.12). Many beneficiaries who have returned to work in the past, 
or unsuccessfully attempted to do so, received overpayments and are 
required to repay the benefits. If this issue is not resolved, fear of 
being charged with an overpayment could act as a powerful disincentive 
to participation in the Ticket Program. A variety of factors may 
contribute to overpayments, but having the staff capacity to record and 
process earnings reports in a timely manner is essential to any return 
to work effort, including the Ticket Program.
    The Panel is aware that SSA has finite administrative funds and the 
agency must meet all of its needs with the dollars appropriated by 
Congress. The Panel is also mindful of the increased demand for 
customer service that will be placed on SSA as the baby boomers begin 
to retire. We know that SSA must establish priorities and the 
activities surrounding implementation of the Ticket legislation must 
compete with all the other service needs of the agency. However, if the 
resource and capacity issues the Panel has brought to your attention 
here are not addressed the Ticket program may in fact fail--not because 
people with disabilities don't want to work and not because the program 
could not be effective, but rather because it was never given the 
chance to truly succeed. Thank you.
                                 ______
                                 

                             Panel Members

Mary Katherine (Katie) Beckett, IA Richard V. Burkhauser Ph.D.--Cornell 
            University, Chair, Dept. of Policy Analysis and Management. 
            NY
Thomas P Golden, MS--Cornell University, Program on Employment and 
            Disability. NY
Kristin E. Flaten, INITIATIVES/Lifetrack Resources, Mental Health and 
            Benefits Advocacy Specialist. MN
Frances Gracechild, MA, Resource for Independent Living, Inc., 
            Executive Director. CA
Christine Griffin, Disability Law Center, Executive Director. MA
Jerome Kleckley, MSW, CSW--Eastern Paralyzed Veterans Association, 
            Director, Hospital Services. NY
Bryon MacDonald--World Institute on Disability, Project and Policy 
            Development Manager. CA
Sarah Wiggins Mitchell, Chair-- New Jersey Protection and Advocacy, 
            Inc., President/Executive Director. NJ
Vince Randazzo, The Business Roundtable, Director of Public Policy. VA
Stephen L. Start, S.L. Start & Associates, Inc., President/CEO. WA
Susan Webb, MBA-ABIL Employment Services. AZ

                                 <F-dash>

    Chairman SHAW. Mr. Collins?
    Mr. COLLINS. No questions.
    Chairman SHAW. Mr. Matsui?
    Mr. MATSUI. Thank you, Mr. Chairman.
    Ms. Mitchell, you mentioned--and I am still trying to 
figure out these--the ESR, which is obviously you feel that has 
been working very well, and the issue I guess is whether it 
will be phased out and a lot of the folks are really interested 
in this program. I should have probably asked Mr. Gerry that 
issue, but could that have something to do with the fact that 
SSA has to make a decision in terms of its priorities? You have 
the backlog, and we had a lot of hearings on that over the last 
couple, 3 years now, and that is a substantial problem to deal 
with. Then we have obviously this new program coming up, and we 
are trying to deal obviously with that. How would you respond 
to that? I do not mean to say you have to make a choice, 
because I don't know if that is really the case. How would you 
respond to that, because I think that is a dilemma that the 
Commissioner is facing and Mr. Gerry is facing, and I am trying 
to figure that out. I shouldn't say what is more important, 
because both of them are extremely important, but how do you 
help us resolve that issue? I have to say more money, but I 
don't think we could get into that. I mean I think that is a 
very difficult issue.
    Ms. MITCHELL. Right. We understand, the Panel understands 
the Agency's responsibility to weigh and balance resources and 
how they are to be utilized and what-have-you. However, I think 
we do believe that this ESR program is such a critical 
component of the Ticket program, that however that balancing 
goes on, that it perhaps deserves, maybe outweighs some other 
programs and issues that might be considered.
    We have heard from beneficiaries that some beneficiaries 
feel that without this program that there will be fairly high 
likelihood that there will be really serious difficulties in 
this Ticket program succeeding.
    Mr. COLLINS. Without that?
    Ms. MITCHELL. Yes, without this position.
    Mr. COLLINS. Thank you. Thank you.
    Chairman SHAW. Mr. Hayworth?
    Mr. HAYWORTH. I have no questions. Just thank you, Ms. 
Mitchell, for coming, and thank you, Mr. Chairman.
    Chairman SHAW. Thank you very much.
    Ms. MITCHELL. Thank you.
    Chairman SHAW. We will now go to the final panel, which is 
quite large. I will call, according to the order in which you 
will be asked to give your testimony.
    Susan Prokop, who is Co-Chair, Work Incentives Task Force, 
Consortium for Citizens with Disabilities; John Kregel, who is 
the Director of the Benefits Assistance Resource Center in 
Virginia Commonwealth University in Richmond, Virginia; Mary 
Satterfield, who is the Project Director of the MAXIMUS Ticket 
to Work in Alexandria, Virginia; Charlene Dwyer, who is 
Vocational Rehabilitation Administrator, Wisconsin Department 
of Workforce Development in Madison, Wisconsin; Dan O'Brien, 
who is the Program Manager of the Ticket to Work and Community 
Rehabilitation, Oklahoma Department of Rehabilitation Services, 
Oklahoma City, Oklahoma; Susan Webb, who's a Director of ABIL 
Employment Services, Avondale, Arizona.
    Is that in your district?
    Mr. HAYWORTH. These are good friends of mine from the 
State, but regrettably not my district. We were hoping 
realignment might take care of that, redistricting.
    Chairman SHAW. She is accompanied by Amy Gilliland, who is 
a Ticket to Work Program Participant in Glendale, Arizona. Am I 
getting closer? No?
    Mr. HAYWORTH. Still good friends.
    [Laughter.]
    Chairman SHAW. You know, it is amazing, everyone is a good 
friend as November comes closer.
    [Laughter.]
    Mr. HAYWORTH. Hard to believe, Mr. Chairman, but they have 
actually been my friends long before November.
    [Laughter.]
    Chairman SHAW. David Gadaire, who is the Program Director 
of Career Point, Holyoke, Massachusetts; and Curtis Decker, who 
is the Executive Director of the National Association of 
Protection and Advocacy Systems.
    We are going to be called for a vote right around 1 o'clock 
we have been advised. If you can summarize as best you can. We 
have your whole statement, which of course is being made a part 
of the record, and we very much appreciate you taking the time. 
We can recess and come back this afternoon, but if you can move 
quickly through the testimony, it would be helpful, and maybe 
we can include it before we are called away again to vote and 
delay your departure. Ms. Prokop.

   STATEMENT OF SUSAN PROKOP, CO-CHAIR, WORK INCENTIVES TASK 
        FORCE, CONSORTIUM FOR CITIZENS WITH DISABILITIES

    Ms. PROKOP. Thank you, Mr. Chairman, Members of the 
Subcommittee. Good afternoon. My name is Susan Prokop, and I am 
speaking to you today as Co-Chair of the Consortium for 
Citizens with Disabilities Work Incentives Task Force.
    First of all, thank you for your continued interest in the 
Ticket to Work and Work Incentives Improvement Act. At the 
outset, I want to draw your attention to the several positive 
developments surrounding Ticket and TTWWIIA implementation that 
we note in our written statement. The developments are 
encouraging, and I just wanted to point that out. The remainder 
of my oral remarks will focus on some other issues that we do 
feel need to be addressed in order for this law to be fully 
successful.
    As has already been mentioned, there is a concern in our 
Task Force about the marketing of TTWWIIA and Ticket to Work, 
despite the fact that Social Security, MAXIMUS, its marketing 
subcontractor, NISH, the Protection and Advocacy for 
Beneficiaries of Social Security (PABSS) program and Benefits 
Planning, Assistance and Outreach (BPAOs) have made concerted 
efforts to promote this program. The extent to which 
beneficiaries, at least from what our Members have ascertained, 
seem to be aware of TTWWIIA is not as strong as we would 
prefer. That is why we would like to see Social Security enlist 
more of its counterparts in other agencies involved with 
workforce development in promoting TTWWIIA on their own 
websites, in their own communications with the public, using 
the regional Disabled Business Technical Advisory Commission, 
Job Accommodation Network, the Centers for Independent Living, 
using the PABSS program more, and even perhaps pursing 
partnerships with groups like the Ad Council to put out public 
service announcements about TTWWIIA and the Ticket program.
    Our Task Force continues to believe that the payment system 
for the Ticket to Work Program needs to be improved if it is to 
serve all beneficiaries. Beneficiaries inquiring about the 
Ticket, being referred to Employment Networks, getting placed 
in jobs, seem to be predominantly those on Social Security 
Disability Insurance. For some ENs, it can take almost twice as 
long to recoup the costs of an SSI beneficiary than for an SSDI 
recipient. Impediments to serving those on SSI, often those 
with the most severe disabilities, include the longer time it 
takes for beneficiaries to reach zero cash benefits, the point 
at which an EN gets paid. In addition, an EN gets paid less to 
serve clients on SSI than clients on disability insurance (DI) 
because the SSI benefits are lower for those on DI.
    The zero cash benefits requirement also discourages ENs 
from serving beneficiaries who may only be able to reduce their 
dependence on benefits by working part time, and those with 
vision impairments who must reach the higher blind Substantial 
Gainful Activity (SGA) level. Clearly the payment system needs 
further improvements, although we do appreciate Social 
Security's addition of some more milestones and increase in the 
payments. In order to ensure a wide range of Employment 
Networks are there to serve the widest range of beneficiaries, 
we would like to see further exploration of improvements to the 
payment system.
    We also feel that Social Security still needs to clarify 
its policy regarding disabled adult children or DACs, as they 
are called. Disabled adult children, who depend on the higher 
benefits afforded them through their parents' earning records, 
may lose their DAC status if they go to work, earn above SGA, 
and then have to return to the disability rolls. SSDI benefits, 
based on their own work record, are likely to be substantially 
less. If Social Security won't issue a policy that clearly 
supports providing full access for disabled adult children to 
all of the provisions of TTWWIIA, including reentry to the 
program in DAC status, Congress should resolve this through an 
amendment to the law.
    I will just conclude with a couple of other issues which, 
although they rest with other Committees, are important to the 
success of TTWWIIA. The first concern is the troubling signs 
that State budget deficits will discourage participation by 
additional States in the Medicaid buy-in, or even prompt some 
States to drop out. You noted, Mr. Chairman, that Florida has 
backed out of or plans to repeal its Medicaid option, and that 
was rather distressing.
    As we all know, Medicaid covers important benefits not 
covered under Medicare and we are concerned that the fiscal 
difficulties facing some States may foreclose opportunities 
through TTWWIIA for millions of Social Security disability 
recipients. State budget woes also appear to be dampening 
interest in section 204 of the TTWWIIA, which authorizes 
demonstration projects for Medicaid coverage of workers with 
potentially severe disabilities that, without medical care and 
treatment, may force them onto the disability rolls. Only 4 
States have opted for this 204 program, and less than half the 
appropriated funds for section 204 will be used under current 
projections. Existing deadlines for evaluation of the program 
should be extended, or 204 made a permanent option for States 
to take advantage of in order to give it time to demonstrate 
its feasibility.
    We also have ongoing concerns about the relationship of 
State Vocational Rehabilitation Agencies in the Ticket program. 
I appreciate, Mr. Chairman, your question to Mr. Gerry about 
these concerns over VRs' use of the cost reimbursement method, 
the relationship of private providers to VR and VRs working 
with clients of VR who also get tickets. We are beginning to 
think it might be worthwhile to look at the relative advantages 
and disadvantages experienced under the Ticket program by 
private providers versus State Vocational Rehabilitation 
Agencies. We hope that you might add your voice to our own 
concerns in pressing Social Security and the Education 
Department to really clarify what we view as a distressing 
situation concerning the relationship of vocational 
rehabilitation clients in the Ticket program and Vocational 
Rehabilitation Agencies.
    Mr. Chairman, Members of the Subcommittee, our Task Force 
commends you for your continued interest in promoting economic 
self-sufficiency and opportunity for people with disabilities, 
and I look forward to answering any questions. Thank you.
    [The prepared statement of Ms. Prokop follows:]
   Statement of Susan Prokop, Co-Chair, Work Incentives Task Force, 
               Consortium for Citizens with Disabilities
    Mr. Chairman, members of the Committee, my name is Susan Prokop and 
I am Associate Advocacy Director for Paralyzed Veterans of America. 
Today, I am speaking to you in my role as cochair of the Consortium for 
Citizens with Disabilities Work Incentives Task Force. As you know, CCD 
is a coalition of over 100 national disability advocacy and service 
organizations based in Washington. Most of CCD's work is done through 
task forces. The Work Incentives Task Force was created to monitor the 
implementation of the Ticket to Work and Work Incentives Improvement 
Act (TTWWIIA) which passed in 1999.
    On behalf of the undersigned members of the Work Incentives Task 
Force, I want to thank you for holding this oversight hearing on 
TTWWIIA's progress. You and your colleagues on this committee were 
vital to the passage of the law and we deeply appreciate your continued 
interest in its success.
    Even as we share with you our thoughts on TTWWIIA, we are mindful 
of the fact that it is still early in implementation and that a fuller 
picture will not emerge until the Ticket program is operational in all 
states and a critical mass of beneficiaries has entered the workforce 
and left the benefit rolls. Still, there are a number of observations 
that can be made about this program based on our members' experiences 
and reports thus far.
    At the outset, let me commend the performance of the Ticket Program 
Manager MAXIMUS. Recently, several members of our task force toured the 
MAXIMUS offices in Alexandria, Virginia. We were shown their extensive 
call management systems, how they track recruitment of employment 
networks and the methods they use to collect data for program 
evaluation purposes while also protecting beneficiary privacy. We came 
away impressed with the degree of organization and service provided by 
their operation.
    In addition, we applaud the work being done by the Protection and 
Advocacy for Beneficiaries of Social Security Program (PABSS) that was 
authorized by TTWWIIA. As you know, PABSS mission was intended to 
provide information and guidance on employment and vocational services 
to beneficiaries and to provide advocacy services to help beneficiaries 
secure, maintain or regain gainful employment. Despite a late startup 
owing to difficulties with SSA, the PABSS program provided in its first 
year education and training, information and referral and legal-based 
advocacy to over 10,000 individuals.
    It has also been heartening to hear reports from the Centers for 
Medicare and Medicaid Services about ongoing state plan amendments 
being submitted and approved for adoption of Medicaid buy-ins--either 
under TTWWIIA or the Balanced Budget Act of 1997 (BBA) and from the 
Social Security Administration (SSA) and from MAXIMUS as to the numbers 
of beneficiaries assigning Tickets. There is clearly interest among 
many states and motivation among many beneficiaries to pursue the 
possibilities that TTWWIIA offers. Still, within these positive 
developments, there remain several issues that, if left unaddressed, 
will impede the fulfillment of TTWWIIA's promise. It is to those 
concerns that I will devote the rest of our statement.
Marketing

    The saying ``if you build it, they will come'' does not necessarily 
apply to TTWWIIA. It is a complicated law. It is not yet in place 
throughout the nation. There is a lingering mistrust among 
beneficiaries of SSA's intentions. In addition, having gone through the 
arduous application process and waited out their first continuing 
disability review, many beneficiaries may find the arrival of their 
Ticket--inviting them back into the workforce--more than a little 
confusing.
    Many of our organizations have asked their chapters if they were 
getting inquiries about the Ticket to Work program or other elements of 
the Work Incentives Improvement Act [TTWWIIA]. Unfortunately, even in 
states where the roll out is occurring, the extent to which Social 
Security disability beneficiaries seem to be aware of TTWWIIA or asking 
about return to work supports and services is not as strong as we would 
prefer.
    We believe that widespread, repeated marketing of Ticket to Work 
and the other elements of TTWWIIA is essential if this law is to have 
the impact it was intended to have. We certainly recognize that SSA and 
MAXIMUS, along with its marketing subcontractor, NISH, have been making 
concerted efforts to publicize TTWWIIA and get the word out about the 
Ticket program. Benefits planning organizations (BPAOs) and PABSS 
programs have been actively involved in roll out states providing 
information and guidance to beneficiaries on the use of Tickets and the 
interaction of various work incentives. Those efforts have been well 
documented. We also know that limited resources constrain the type of 
mass communications that might be undertaken to reach every affected 
beneficiary, potential provider and employer.
    Nevertheless, we would urge that SSA aggressively explore cost-
effective ways to heighten awareness of TTWWIIA. The Social Security 
Administration is already part of an interdepartmental network of 
numerous federal agencies involved with workforce development. SSA 
should press its counterparts at the Departments of Labor, Education, 
Health and Human Services, Commerce and other agencies to offer 
information about TTWWIIA and the Ticket on their websites and in their 
communications with the public. TTWWIIA was developed to be a multi-
dimensional, cross-jurisdictional program and SSA should not be solely 
responsible for getting the word out about this law.
    Other avenues to disseminate information about TTWWIIA could 
include the regional Disability Business Technical Advisory Committees 
or DBTACs, the Job Accommodation Network and Centers for Independent 
Living. Enhanced support for PABSS could draw more attention to TTWWIIA 
through the nationwide network of protection and advocacy cross-
disability services and programs. SSA might also approach private 
concerns like the Ad Council to produce public service announcements in 
areas where the Ticket is to be issued. Undoubtedly, there are 
additional, relatively economical ways in which to trumpet the return-
to-work program and we hope SSA will devote more attention to utilizing 
them.
Implications of the Milestone/Outcome Payment System

    At the most recent meeting of the Work Incentives Advisory Panel 
created by TTWWIIA, presentations were made by representatives from a 
variety of employment networks. Several reports served to reinforce our 
belief that the payment system for the Ticket to Work Program still 
needs to be improved if it is to assist those with the most significant 
disabilities who may need extensive long term supports and services.
    For example, Susan Webb, the director of ABIL Employment Services, 
noted that only 2 out of 22 of their Ticket clients who are currently 
employed are on SSI. Stephen Zwirm with Work Search of Coconut Creek 
Florida stated that the overwhelming majority of individuals with 
Tickets approaching his firm are those on SSDI. And the Massachusetts 
Projects with Industry indicated that three-quarters of Ticket-holders 
referred to them are SSDI beneficiaries. An analysis by Steve Start, 
CEO of SL Start and Associates, of the payment system for small ENs 
concluded that it could be profitable--particularly for SSDI clients. 
Start also determined that SSI clients could be served under his model 
but that they were ``more risky'' and the return on investment for the 
EN takes longer. A small EN would break even on most SSDI clients after 
2.4 years versus 5.5 years on a client on SSI. Start suggested it is 
better for ENs serving SSI beneficiaries to partner with other entities 
to mitigate the front-end cash requirements needed until SSA starts to 
pay.
    Some of the impediments to serving those on SSI or those with the 
most severe disabilities derive from the fact that it takes longer for 
these beneficiaries to reach ``zero cash benefits'', the point at which 
an EN gets paid. In addition, payments to ENs for serving clients on 
SSI are lower because SSI benefits are lower than those for clients on 
SSDI. The requirement that a beneficiary go completely off cash 
benefits also works against those who may only be able to work part-
time and those with vision impairments who must reach the higher blind 
substantial gainful activity (SGA) level.
    As we have said in previous testimony, we appreciate the fact that 
SSA increased the number and amount of milestone payments. However, we 
continue to believe that the payments are inadequate to ensure a wide-
range of employment networks--large and small providers, community 
rehabilitation programs, businesses and others--are available to serve 
Ticket-holders with the most significant barriers to employment, those 
who need intensive employment supports and those who want to work but 
may remain on benefits for an extended period of time.
Employment Network Training

    Task force members representing providers report a very strong 
desire among their members for more in-depth training beyond the half 
or whole-day training sessions offered by MAXIMUS and SSA. While those 
training programs offer basic information about the Ticket program and 
TTWWIIA, providers want practical information about how to make the 
program work for them. Providers are also finding a need for benefits 
training as they are often the first point of contact for beneficiaries 
and their families. As a result, providers are often in a position to 
convince beneficiaries that going to work and off benefits and becoming 
independent is not only possible but beneficial. We strongly recommend 
that ENs be given access to on-line benefits training to help them 
fulfill these additional responsibilities.
Disabled Adult Children

    Policy clarifications are necessary for people receiving ``disabled 
adult child'' (DAC) benefits if the Ticket program is to be successful 
for these individuals. For a disabled adult child, leaving the Title II 
program as a result of earning above the SGA level after the extended 
period of eligibility (EPE) and a re-entry grace period have expired 
could mean the loss of ``disabled adult child'' status for life. Our 
experience under current law indicates that many beneficiaries and 
their families do not understand that the benefits the parent has 
earned for the disabled adult child (severely disabled since childhood) 
could be permanently lost with no re-entry to DAC status in Title II 
after a certain period of time with earnings over SGA. This must be 
addressed. Otherwise, the purpose of the Ticket to Work and Work 
Incentives Improvement Act will be thwarted for those who qualify for 
benefits as disabled adult children. TTWWIIA clearly contemplated the 
ability of disabled adult children to move on and off the program to 
the same extent that other people with disabilities will be allowed to 
do so. TTWWIIA clearly cites the statutory language for disabled adult 
children throughout its provisions. We urge that policies clearly 
support the goal of providing disabled adult children full access to 
all of the provisions of the Ticket to Work and Work Incentives 
Improvement Act, including re-entry to the program with disabled adult 
child status. If SSA will not act, we urge that Congress resolve it 
through an amendment to the statute.
Employment Support Representatives

    Section 121 of TWWIIA calls for the establishment of a corps of 
trained, accessible, and responsive work incentives specialists within 
SSA who will ``specialize'' in disability work incentives ``for the 
purpose of disseminating accurate information with respect to inquiries 
and issues relating to work incentives to disabled beneficiaries'', 
applicants, and benefits planning, assistance and outreach 
organizations. We had expected that, in responding to this charge, SSA 
would provide ``dedicated'' staff to focus on work incentives and 
employment supports, who have undergone extensive and ongoing training, 
and are responsible for working directly with beneficiaries and 
community agencies.
    Indeed, the Social Security Administration seemed to be headed in 
that direction with the initiation of the Employment Support 
Representative (ESR) pilot program. Although the 32 ESR positions 
established under this pilot project did not offer the nationwide 
coverage that the law anticipated, it was an important first step. Last 
November, an independent evaluation of the ESR program favorably 
reported on its success and recommended adoption of an ESR field-office 
based model with an increase in the number of ESR positions to cover 
the entire country.
    This past May, SSA outlined a proposal that would end the ESR pilot 
and transfer the position responsibilities to existing staff. Citing 
budget and staffing limitations, SSA is proposing to create a Work 
Incentives Specialist (WIS) Corps. This corps will consist of 
designated SSA staff working part-time on disability work issues and 
supporting SSA field employees with their regular workloads. SSA states 
that this WIS Corps will receive training in its disability employment 
support programs and will have the opportunity to develop further 
expertise in this area. The fact remains that these ``specialists'' 
will not be working solely on disability work-issues. As for the 
requirement for ``outreach'' in TWWIIA, those duties to a great extent 
are to be transferred to SSA's Public Affairs Specialists with some 
support from the WIS Corps.
    However the Social Security Administration chooses to structure its 
employment support staff, we believe it is critical that beneficiaries 
are assured of accurate and timely information about SSA's work 
incentives and employment support programs. Failure by SSA to supply 
this assistance adequately may also adversely affect beneficiaries' 
access to case assistance and other types of benefits such as Medicaid 
and Medicare. As we noted earlier, while TWWIIA created new and 
important ``work incentive'' programs, it did not simplify the process. 
Given this situation, we strongly recommend that SSA be given the 
resources to continue providing the level of services to beneficiaries 
intended by TTWWIIA and urge this committee to exercise careful 
oversight on this important aspect of the law.
Demonstrations and Studies

    For many of the reasons outlined above, our task force continues to 
be very interested in the Adequacy of Incentives study being planned by 
SSA. It is critical that SSA knows what beneficiaries are being left 
out of the Ticket program, which providers are being discouraged from 
participating as ENs and what can be done to overcome the barriers they 
are facing. We appear to be getting preliminary information based on 
the experiences of early Ticket-holders and ENs. We trust that MAXIMUS 
and SSA are collecting this data for use by the contractor doing the 
Adequacy study. We urge this committee to be vigilant in pressing the 
Social Security Administration for a thorough evaluation of the issues 
surrounding the ability of TTWWIIA to assist those with the most severe 
disabilities.
    Our task force is very concerned about SSA's lack of progress in 
moving forward with the ``1 for 2'' demonstration. Beneficiaries who 
fear the adverse consequences of returning to work regularly cite the 
``cash cliff'' that SSDI beneficiaries face when they reach SGA 
(currently $780 a month or $1300 a month for those with vision 
impairments). This demonstration will test the feasibility of reducing 
Title II benefits as earned income rises. We understand that the 
demonstration may be limited in scope to a handful of states. While 
would have preferred a nationwide study, we believe it is more 
important for SSA to move on with this demonstration so that we can 
begin to answer the many questions surrounding the merits of that 
policy.
Medicaid

    Recognizing that your colleagues at the Energy and Commerce 
Committee have jurisdiction over Title 19, we nevertheless wanted to 
share with you our observations about this important element of 
TTWWIIA.
    According to CMS figures, 22 states, slightly less than half, are 
involved in some fashion with a Medicaid buy-in--either through the BBA 
or TTWWIIA. That would seem to be cause for some celebration yet the 
enrollment figures in some states are frustratingly low--40 in Florida, 
75 in Mississippi, 80 in Nebraska. And there are troubling signs that 
increasing state budget deficits will discourage participation by 
additional states in this important health care work incentive program. 
Again, according to a report from CMS, Florida has indicated that it 
plans to repeal its Medicaid buy-in option. Just last week, a story in 
the Charleston (WV) Daily Mail on the adverse impact of the state 
budget on implementation of a work incentives buy-in quoted a 
legislator saying, ``If we didn't have that $187 million hole, we could 
make it go.'' Assuring beneficiaries that they would retain access to 
health insurance coverage was a key tenet of TTWWIIA. Extended Medicare 
provided by the law is a critical element of that assurance. However, 
the Medicaid buy-ins were meant to supply important additional benefits 
not found in Medicare and considered necessary for many disability 
beneficiaries to make that leap into the workforce. We are concerned 
that fiscal difficulties in some states may foreclose opportunities 
through TTWWIIA for millions of Social Security recipients with 
disabilities.
    Section 204 of TWWIIA authorizes demonstration projects for 
coverage under Medicaid of workers with potentially severe disabilities 
that, without medical treatment, could place them on SSDI or SSI 
disability rolls. A total of $250 million was made available to the 
states, at the regular Medicaid matching rate, to provide Medicaid to 
such ``pre-disabled'' workers who meet state-set and HHS-approved 
medical criteria and are working at least 40 hours monthly (or meet 
comparable HHS-approved rules).
    However, apparently less than half the appropriated funds will be 
drawn down under current projections. This is because--again--
recession-related state funding shortages have prevented all but four 
states from taking this option--and even they are only now completing 
implementation. (Rhode Island covers individuals with early-stage 
multiple sclerosis; Texas, people with early-stage bipolar illness and 
schizophrenia; and the District of Columbia and Mississippi, people who 
are early-stage HIV-positive.) Moreover, Section 204(e) requires the 
Secretary of HHS to submit recommendations by October 1, 2004 
evaluating this provision and its possible continuance after Fiscal 
Year 2006.
    We recommend--because so few states have taken this option, and 
those four that have done so have been slow to implement it---that this 
provision be extended and that the Secretary's required recommendations 
be postponed for at least two years in order to allow more time for the 
program to play out. To do so, we suggest that Congress either codify 
the Section 204 coverage of ``pre-disabled'' workers with severe 
impairments into title XIX as a permanent, regular state eligibility 
option--or at least extend and fund Section 204 for several more years.
Vocational Rehabilitation and the Ticket Program

    Although this issue also falls under another committee's 
jurisdiction, we nonetheless feel it is important to bring to your 
attention the ongoing concerns about the relationship of state 
vocational rehabilitation agencies (VRAs) and the Ticket program. VRAs 
have a long and venerable history as the keystone of our nation's 
vocational rehabilitation system. Each year, through Title I of the 
Rehabilitation Act they successfully serve millions of people with 
disabilities.
    However, in order to give beneficiaries additional provider choices 
for job training and placement, and to improve through competition the 
existing VR system, the Ticket to Work Program was established. Yet, 
MAXIMUS reports that most Tickets are being assigned to state VRAs and, 
rather than competing with private employment networks (ENs) under the 
Ticket payment options, most VRAs are opting to be paid under the 
traditional cost-reimbursement method. Opting for the traditional 
payment method also allows the VRA to ``close'' a case after nine 
months as opposed to the 60 month ``investment'' in the client required 
of private ENs. Furthermore, some of our task force members involved 
with private providers are finding significant reluctance among those 
providers to become employment networks. These private providers 
perceive, whether justified or not, that becoming an EN might 
jeopardize an existing relationship with their state VRA. This unease, 
coupled with the financial risk of the payment system as outlined 
above, may discourage providers from becoming ENs, thus further 
limiting choice of provider to beneficiaries.
    We understand that many of the Ticket assignments have been VR 
clients already ``in the pipeline'' and that the assignment of new 
Ticketholders to private providers versus VR is nearing a 50/50 ratio. 
So, eventually, more beneficiaries may turn to private providers and, 
as VRAs become more familiar with the Ticket payment systems, their use 
of this option may increase. However, it may be worthwhile to look at 
the relative advantages and disadvantages experienced under the Ticket 
program by private providers versus state VRAs.
    Additionally, there seems to be confusion over VRAs' responsibility 
to beneficiaries eligible for services under the Rehab Act who may also 
have received a Ticket. There have been reports that some current 
clients of VR were threatened with termination of services if they did 
not assign their Ticket to the VR agency. While we do not want to see 
beneficiaries obtaining services to which they are not entitled, 
neither do we want to see beneficiaries denied rightful services under 
the law. We hope you can urge the leadership of SSA and the Department 
of Education to clarify this distressing situation.
Continuing Concerns about the Final Regulations

    Finally, we wish to convey a word about our continued misgivings 
about the final regulations for the Ticket to Work Program as they 
apply to those designated Medical Improvement Expected. We continue to 
believe that denying Tickets to those designated ``medical improvement 
expected'' (MIE) and who have not had their first continuing disability 
review (CDR) will deny many otherwise eligible beneficiaries immediate 
access to vital vocational rehabilitation services. We would prefer 
that SSA determine on a disability-by-disability basis those MIEs most 
likely to remain on benefits and issue them a Ticket. There is 
considerable evidence that earlier rehabilitation interventions result 
in better return-to-work outcomes for beneficiaries with disabilities.
    We hope that SSA and this committee will monitor this issue closely 
and respond quickly to any inappropriate denials of benefits to 
eligible individuals.
Conclusion

    We commend this committee for its continued interest in promoting 
economic self-sufficiency and opportunity for people with disabilities. 
In summary, we ask that this committee:

        <bullet> LPress SSA to ensure that all federal agencies 
        involved with workforce development publicize the merits of 
        TTWWIIA and to explore creative ways to draw attention to this 
        program from all stakeholders with an interest in employment of 
        people with disabilities.
        <bullet> LMakes sure that SSA's in-house employment support 
        staff, however it is structured, assure that beneficiaries have 
        access to timely and accurate information about work incentives 
        and TTWWIIA program benefits.
        <bullet> LBe prepared to adjust the scope and flexibility of 
        the PABSS program as continued barriers to employment are 
        identified.
        <bullet> LCarefully monitor the Adequacy of Incentives study 
        and evolution of the milestone/outcome payment system--and 
        respond when necessary--to ensure that the Ticket program is 
        attracting a broad range of providers and serving all 
        individuals with disabilities.
        <bullet> LUrge SSA to offer more extensive training to 
        providers in TTWWIIA and work incentives, including access to 
        on-line assistance, to prepare them to serve as additional 
        resources for beneficiaries and their families.
        <bullet> LUrge more time for the Section 204 Medicaid option to 
        demonstrate its merits by extending or making permanent its 
        authority.
        <bullet> LInsist that SSA's policies regarding disabled adult 
        children and TTWWIIA offer full access to its provisions, 
        including re-entry to the program with DAC status, or resolve 
        this issue through legislative correction.
        <bullet> LUrge SSA to move forward with the 1 for 2 
        Demonstration to answer conclusively many of the questions 
        surrounding one of the major remaining barriers to employment 
        of people with disabilities.
        <bullet> LEncourage SSA to work with the Department of 
        Education in resolving the confusion and misunderstanding 
        surrounding the role of the Ticket Program to vocational 
        rehabilitation agencies' Title I responsibilities and the 
        relationship of VRAs and ENs.

    Thank you, Mr. Chairman and members of the committee for your 
attention to our comments. The CCD Work Incentives Task Force looks 
forward to working with you in the future to assure employment 
opportunities for all individuals with disabilities and the proper 
implementation of the Ticket to Work and Work Incentives Improvement 
Act.
    On behalf of:
American Association on Mental Retardation
American Congress of Community Supports and Employment Services
American Network of Community Options and Resources
American Occupational Therapy Association
Association for Persons in Supported Employment
Brain Injury Association of America
Goodwill Industries International Inc.
International Association of Business, Industry and Rehabilitation--
INABIR
International Association of Psychosocial Rehabilitation Services
National Association of Developmental Disabilities Councils
National Association of Protection and Advocacy Systems
National Alliance for the Mentally Ill
National Multiple Sclerosis Society
National Organization of Social Security Claimants Representatives
NISH
Paralyzed Veterans of America
Title II Community AIDS National Network
The Arc of the United States
United Cerebral Palsy

                                 <F-dash>

    Chairman SHAW. Thank you. Dr. Kregel.

   STATEMENT OF JOHN KREGEL, ED.D., PRINCIPAL INVESTIGATOR, 
  BENEFITS ASSISTANCE RESOURCE CENTER, VIRGINIA COMMONWEALTH 
                 UNIVERSITY, RICHMOND, VIRGINIA

    Dr. KREGEL. Mr. Chairman, Members of the Subcommittee, 
benefits planning and assistance is the first stop on the road 
to employment for SSA beneficiaries. Authorized by section 121 
of the Ticket to Work Act, Benefits Planning, Assistance and 
Outreach, BPAO projects, are providing services to SSA 
beneficiaries in all 50 States and 5 territories. Collectively, 
116 BPAO projects employ over 400 benefit specialists, many of 
whom are themselves individuals with disabilities, and they 
currently serve 3,000 individuals each month.
    The purpose of the national BPAO initiative is to provide 
beneficiaries accurate and timely information about myriad 
regulations, provisions, work incentives, and special programs 
that complicate an individual's decision to enter or re-enter 
employment. Benefits planning and assistance is an employment 
program providing support to SSA beneficiaries who want to 
work. Virtually all individuals who contact a BPAO are either 
employed or are actively seeking employment. The BPAO 
initiative is not about helping people stay on benefits. 
Rather, its purpose is to empower individuals to take charge of 
their lives.
    Congress, in the Ticket to Work Act, had led to tremendous 
innovation and expansion of activity in this particular area. 
At the same time the speed at which these changes have occurred 
created significant challenges for the BPAO program. The BPAO 
initiative simply lacks sufficient capacity to adequately meet 
current and future demand. The problem is particularly acute 
for BPAOs and ticket roll-out States and programs in rural 
areas. For example, in Sacramento, Legal Services of Northern 
California is attempting to serve 87,000 beneficiaries in 19 
counties in and around Sacramento with just three benefit 
specialists. Beneficiaries in Plano, Texas are served by the 
West Texas and Panhandle Benefits Planning Services Project in 
Odessa, several hours away. In this project one benefit 
specialist is attempting to serve a catchment area of 38,000 
beneficiaries who live in 59 different counties. In Arizona six 
benefit specialists have served over 1,000 beneficiaries across 
the State. In Northern Arizona, 1\1/2\ staff people serve 
59,000 square miles from the Navajo Reservation to Lake Havasu.
    The national BPAO initiative is essential to the successful 
implementation of the Ticket program. When the Ticket to Work 
Program was launched in 13 States, BPAOs rose to the challenge 
and provided assistance to over 9,000 individuals in just a few 
months. The Ticket program manager, Employment Networks, local 
SSA offices, protection and advocacy agencies, and State VR 
Agencies all refer Ticket holders to BPAOs for information and 
support.
    For example, the Ticket to Work Coordinator in the Arizona 
Rehabilitation Services Administration has received over 900 
telephone inquiries since the Ticket roll-out began in his 
State. He refers each beneficiary to the local BPAO program to 
help assist in the decision as to whether or not to make a 
Ticket assignment.
    The BPAO program is about trust. If beneficiaries are to 
accept personal responsibility for their careers and their 
economic self-sufficiency, they have to be able to trust the 
information they receive and the service providers that assist 
them. If individuals with diabetes, epilepsy or psychiatric 
disability are told that they will still have access to health 
care coverage even though they no longer receive a cash benefit 
from SSA, they must be able to depend on this guidance, as 
erroneous information may literally put them in a potentially 
life-threatening situation. If an individual complies with all 
SSA regulations and reporting requirements, and SSA fails to 
accurately apply the reported information to the individual's 
case, the resulting overpayment can have a catastrophic and 
disheartening effect on even the most courageous and patient 
beneficiaries.
    For example, Goodwill Industries in southern California 
describe a number of consumers who have stopped working while 
on benefits because of substantial overpayment situations, many 
of which are due to improper SSA recordkeeping or insufficient 
knowledge of how to report and keep track of earned income.
    We need to learn from the lessons of welfare reform. 
Beneficiaries need to know and understand the rules and have 
them consistently interpreted and applied in order to fulfill 
their own responsibilities under the program and accept 
responsibility for their economic self-sufficiency. The 
national BPAO initiative, if effectively implemented, is an 
essential component of congressional efforts to include 
individuals with disabilities in our Nation's workforce. Thank 
you very much.
    [The prepared statement of Dr. Kregel follows:]
   Statement of John Kregel, Ed.D., Principal Investigator, Benefits 
Assistance Resource Center, Virginia Commonwealth University, Richmond, 
                                Virginia
              Benefits Planning, Assistance, and Outreach:
                The First Stop on the Road to Employment
                              Introduction
    Benefits planning and assistance is the first stop on the road to 
employment and economic self-sufficiency for SSA beneficiaries. 
Authorized by Section 121 of the Ticket to Work and Work Incentive 
Improvement Act of 1999, 116 Benefits Planning, Assistance and Outreach 
(BPAO) programs are providing services to SSA beneficiaries in all 50 
states and five territories. Collectively, the 116 BPAO projects employ 
over 400 benefits specialists, many of whom are themselves individuals 
with disabilities, and have served over 30,000 individuals since their 
inception less than two years ago.
    The purpose of the national BPAO initiative is to provide 
beneficiaries with accurate and timely information about SSA work 
incentives and other Federal efforts to remove regulatory and 
programmatic barriers to employment for persons with disabilities. 
Trained benefits specialists working in local BPAO programs work with 
individual beneficiaries to explain the myriad of regulations, 
provisions, work incentives and special programs that complicate an 
individual's decision to enter or reenter the workforce. Benefits 
specialists do not tell beneficiaries what to do or make specific 
recommendations. Instead, they allow beneficiaries to make their own 
informed decisions based on complete and accurate information. In 
addition, they support individuals who choose to enter employment by 
assisting them to comply with all relevant regulations and reporting 
procedures.
    The questions posed to benefits specialists by beneficiaries are 
basic and straightforward. What will happen to my benefit check if I 
return to work? What is the ticket program and what will it do for me? 
I am currently working and got a letter from SSA--can you help me? How 
can I notify SSA when I work so I can avoid overpayment situations? As 
simple and basic as these questions are, their answers are often 
complex and convoluted. Even more frustrating to beneficiaries is the 
overwhelming amount of confusing and inconsistent information they 
receive from SSA, Employment Networks, Vocational Rehabilitation and 
other agencies involved in the employment process. This sea of 
misinformation makes employment seem a perilous and terrifying 
undertaking and lessens the resolve of many beneficiaries attempting to 
pursue their career goals.
    Benefits planning and assistance is designed to fill this 
information void by providing beneficiaries access to complete, 
individualized information from a trained professional in a 
confidential setting apart from SSA. Armed with an understanding of the 
impact of employment on their benefits, beneficiaries can make informed 
choices about entering employment, maintaining health care coverage, 
and obtaining necessary supports and services. With the help of 
benefits planning and assistance, beneficiaries can take charge of 
their own careers without the constant worry that the application of an 
unknown rule or a mistake by a federal caseworker will jeopardize their 
ability to pay for their basic needs or treat their health conditions. 
Viewed in this way, benefits planning and assistance is the most basic 
of all employment programs.
    This testimony contains four sections. The first section discusses 
the achievements and challenges of the national BPAO initiative. The 
second section describes the current and future role of BPAOs in the 
implementation of the Ticket to Work program. The third section makes 
several recommendations for improving the BPAO program. Finally, the 
fourth section summarizes current trends in the implementation of 
benefits planning and assistance based on information from the National 
BPAO Data System maintained by Virginia Commonwealth University.
                               Section I:
         Achievements and Challenges of the Benefits Planning,
                   Assistance and Outreach Initiative
Accomplishments
    The national BPAO initiative is less than two years old. In that 
short time 116 local programs have been established, staff members have 
been hired and trained, and relationships have been developed between 
BPAOs and SSA field offices, Employment Support Representatives, 
Employment Networks, Vocational Rehabilitation Agencies and community 
advocacy and provider organizations. Several of the key accomplishments 
of the BPAO initiative are summarized below.
    The national BPAO initiative has grown at a remarkable rate. BPAO 
projects are located in independent living centers, advocacy agencies, 
State Vocational Rehabilitation agencies, community rehabilitation 
providers, legal aid agencies, universities, and other diverse 
settings. Over 400 benefits specialists have received ongoing training 
and technical assistance to insure program quality. To date over 30,000 
individuals have received services from BPAOs, with over 3,000 new 
beneficiaries receiving service each month. SSA has done an outstanding 
job of launching a major new national service in a very short amount of 
time.
    Benefits planning and assistance is an employment program, 
providing support to SSA beneficiaries who want to work. Approximately 
85% of all individuals who contact a BPAO are either employed or are 
actively seeking employment. Another 13% are attempting to get 
information about work incentives, the ticket, and other programs that 
will help them decide whether to pursue employment. Only 2% of persons 
contacting BPAOs are in the process of terminating employment or 
reducing their work hours. The BPAO initiative is not about helping 
people stay on benefits. Rather, its purpose is to empower individuals 
to take charge of their lives and enhance their economic self-
sufficiency.
    The national BPAO initiative is essential to the successful 
implementation of the ticket program. When the Ticket to Work program 
was launched in 13 states, BPAOs rose to the challenge and provided 
assistance to over 9,000 individuals in a very short time. The Project 
Manager, Employment Networks, local SSA offices, Protection and 
Advocacy agencies, and State Vocational Rehabilitation agencies all 
refer ticket holders for information and support.
    Individuals with disabilities are actively involved in the delivery 
of benefits planning and assistance services. Approximately half of the 
400 benefits specialists working in BPAO programs are individuals with 
disabilities. Many of these individuals have personal experience with 
SSA disability programs. Individuals with disabilities, serving in paid 
professional positions, are using their knowledge, skill, and personal 
experience to assist other persons with disabilities to navigate the 
maze of SSA work incentives and regulations to obtain employment and 
maximize their economic self-sufficiency.
    The national BPAO initiative is a major component of a multi-
faceted effort by Congress and SSA to improve services to 
beneficiaries. Congress and SSA have developed and launched a network 
of services and support structures that have enhanced the overall 
efficiency and responsiveness of the agency. The BPAO initiative allows 
beneficiaries to get their questions answered by a trained professional 
without the fear of losing their cash benefits, medical benefits and 
experiencing further financial barriers. At the same time, a cadre of 
Employment Support Representatives, working inside the agency, are 
indispensable for the success of the overall reform initiative. ESRs 
provide crucial access to information and guidance to BPAOs on cases, 
thereby making the BPAOs more effective. BPAOs need an SSA ``insider'' 
with significant work incentives knowledge to assist with developing 
work CDRs. Employment Support Representatives provide support to 
benefits specialists, as well as provide direct service to 
beneficiaries. In addition, the Modernized Return to Work system, 
currently being implemented all across the country, has automated and 
vastly improved the exchange of information between SSA and the BPAOs.
Challenges
    The national BPAO initiative began during a time of tremendous 
change in the disability benefit programs. The launch of the Ticket to 
Work program, the creation of Medicaid buy-in programs, the 
implementation of enhanced work incentives in the TWWIIA, and the 
establishment of the Employment Support Representative pilot all 
contributed to a spirit of innovation and reform. At the same time, the 
speed at which these changes occurred created significant challenges 
for the BPAO program. Several of these are summarized below.
    The national BPAO initiative lacks sufficient capacity to 
adequately meet current and future demand. The number of beneficiaries 
requesting services has overwhelmed a large number of local BPAOs. The 
problem is particularly acute for BPAOs in ticket rollout states, and 
programs in rural areas where extensive travel reduces potential 
service time. As a result, a significant number of BPAOs are curtailing 
their outreach efforts, so that they do not create a demand that cannot 
be met. With aggressive marketing efforts, many programs indicate they 
could substantially increase the number of beneficiaries served. The 
following examples illustrate the current situation.

        <bullet> LIn northern California, Legal Services of Northern 
        California is attempting to serve 87,000 individuals in 19 
        counties in and around Sacramento with just three benefits 
        specialists.
        <bullet> LBeneficiaries in Plano, Texas are served by the West 
        Texas and Panhandle Benefits Planning Services project in 
        Odessa, a full seven hours away. In this project, one benefits 
        specialist is attempting to serve a catchment area of 38,000 
        beneficiaries who live in 59 counties.
        <bullet> LMCIL in Baltimore serves a catchment area of over 
        50,000 beneficiaries with 2.5 benefits specialists. The project 
        has served over 500 beneficiaries since its inception and is 
        struggling to handle its current caseload. They have limited 
        their outreach activities for fear they could not adequately 
        respond to the resulting referrals.
        <bullet> LIn Arizona, six benefits specialists have served over 
        1,000 beneficiaries across the entire state. In northern 
        Arizona, 1.5 staff members serve 59,000 square miles from the 
        Navajo reservation to Lake Havasu.
        <bullet> LIn Austin, Texas, four staff from the Austin Resource 
        Center for Independent Living are attempting to serve a 
        catchment area of 119,000 individuals spread across 58 
        counties. Beneficiaries frequently wait two weeks to meet with 
        a benefits specialist, as each specialist is responsible for 
        serving anywhere from 11 to 15 counties.
        <bullet> LIn Los Angeles, beneficiaries are experiencing delays 
        of seven to ten business days before seeing a benefits 
        specialist. Goodwill Industries of Southern California and AIDS 
        Project Los Angeles have served over 700 individuals, many of 
        whom have significant cognitive or psychiatric disabilities 
        that require an extensive amount of service, with just four 
        benefits specialists.

    Youth are currently not significantly represented oin the 
population served by the Program. Indeed, less than eight percent of 
beneficiaries receiving services from local BPAOs are under the age of 
22. At one level this is understandable, as current implementation 
efforts have focused on assisting in the rollout of the ticket program. 
However, the challenges faced by transition-aged beneficiaries are 
unique, and specific work incentives have been developed to assist them 
in their employment efforts. Future BPAO outreach activities should 
focus on contacting and serving adolescents and young adults.
    For many BPAOs, staff turnover is becoming a serious issue. 
Stability of direct service staff is essential to the success of a 
local BPAO, or any human service program. Unfortunately, for an 
increasing number of BPAOs, staff turnover has become a significant 
problem. The role of a benefits specialist is a brand new professional 
position in many states, and some degree of turnover should be expected 
in any new initiative. However, in some instances staff turnover is 
resulting from a disparity in salary structures in the various systems 
that employ benefits specialists. Specifically, specialists working in 
independent living centers and non-profit community organizations are 
leaving to take similar positions in State Vocational Rehabilitation 
agencies, universities, or Department of Labor settings. Retaining 
skilled, experienced benefits specialists may remain a significant 
problem for small BPAO programs for the foreseeable future.
                              Section II:
   Role of BPAOs in the Implementation of the Ticket to Work Program
    The national BPAO initiative is cruicial to the successful 
implementation of the Ticket to Work program. The vast majority of 
Employment Networks have little knowledge of SSA benefit programs and 
applicable work incentive provisions. Many ENs are ``non-traditional'' 
providers who may be working with SSA beneficiaries for the first time 
and encountering the complex array of rules and procedures with little 
knowledge or support.
    Similarly, State Vocational Rehabilitation (VR) agencies in the 
initial rollout states and the Project Manager are ill equipped to 
adequately address questions being asked by ticket holders. Responding 
to hundreds of inquiries when tickets are mailed, State VR agencies 
simply lack the resources and trained staff to answer questions about 
benefit changes, health care coverage, and eligibility for other 
programs. Most local VR counselors possess little more than basic 
knowledge of work incentives and are unable to provide accurate and 
complete information. The Project Manager, faced with receiving tens of 
thousands of inquiries annually, is not staffed to provide lengthy, 
detailed information to each individual ticket holder.
    Without this information, ticket holders will justifiably be 
reluctant to jeopardize crucial financial and health care benefits and 
assign their ticket to an EN. Local BPAO programs have stepped forward 
to meet this need in the initial rollout states. For example:

        <bullet> LGulfstream Goodwill in West Palm Beach, Florida has 
        responded to over 500 individuals who have contacted the 
        program inquiring about the use of their ticket. Ticket holders 
        make up over half of the 900 individuals served by the agency's 
        BPAO since program inception. While keeping the BPAO and EN 
        components of the agency separate, Gulfstream Goodwill has 
        nevertheless been able to provide timely and accurate 
        information to ticket holders that can aid beneficiaries in 
        decision-making.
        <bullet> LThe Ticket to Work Coordinator in the Arizona 
        Rehabilitation Services Administration has received over 900 
        telephone inquiries since the ticket rollout began in his 
        state. After explaining the role of the State VR agency, the 
        Coordinator refers the ticket holder to the BPAO organization 
        for an explanation of the ticket program and a detailed 
        analysis of the impact of program participation on an 
        individual's income and health care. Interested ticket holders 
        then contact their local VR office to assign their ticket.
        <bullet> LAn Oklahoma benefits specialist reports receiving 
        several calls from an SSI recipient who had been told by an 
        agency involved in ticket implementation that he could earn up 
        to $560 without his benefit being reduced. Her message to 
        others in her region, ``If you are getting ready to be a Ticket 
        state get ready to undo a lot of damage!''
        <bullet> LIn Oregon, the Oregon Vocational Rehabilitation 
        Services staff member who screens Ticket to Work calls explains 
        program features and goals, but refers all callers to the local 
        BPAO to address specific benefit and work incentive questions. 
        However, available BPAO resources in the state make it 
        difficult to consistently respond in a timely manner and a 
        number of ticket holders have experienced significant waits for 
        BPAO services.
        <bullet> LIn Florida, Oklahoma, Arizona and other states, ENs 
        and BPAOs are implementing innovative strategies to maximize 
        the availability of BPAO services. BPAO staff are attending and 
        participating in orientations sponsored by ENs that are 
        conducted for interested ticket holders. In this way, the ENs 
        and BPAOs are attempting to make sure that beneficiaries have 
        all necessary information before beginning the ticket 
        assignment process.
        <bullet> LThe Houston Center for Independent Living has already 
        begun to educate and inform the Houston community about the 
        upcoming ticket rollout. The Center, which serves 13 counties 
        and 12,500 square miles, estimate that the workload for each of 
        the four current benefits specialists will double when the 
        ticket program is launched in Texas in 2003.
                              Section III:
       Recommendations for Improving the National BPAO Initiative
    It's about trust. If beneficiaries are to accept personal 
responsibility for their careers and their economic self-sufficiency, 
they have to be able to trust the information they receive and the 
service providers that assist them. If a beneficiary is told that 
employment will affect his or her benefit in a certain manner, they 
have to be able to trust and act on that information. If individuals 
with diabetes, epilepsy or a psychiatric disability are told that they 
will still have access to health care coverage even though they no 
longer receive a cash benefit from SSA, they must be able to depend on 
this information, as erroneous information may literally put them in a 
potentially life threatening situation. If an individual complies with 
all SSA regulations and reporting requirements and SSA fails to 
accurately apply that reporting information to the individual's case, 
the resulting overpayment can have a catastrophic and disheartening 
effect on even the most courageous and patient beneficiary. The 
following examples illustrate these concerns.

        <bullet> LStaff from Project ABIL in Phoenix, Arizona report 
        talking to many individuals who have received conflicting and 
        sometimes inaccurate information from the Project Manager, VR, 
        SSA, and ENs. This confusion increases fear and causes concerns 
        among individuals bravely attempting to return to work.
        <bullet> LOne benefit specialist in south Florida, discussing 
        the advantages of the BPAO, stated, ``Beneficiaries are able to 
        ask questions of a BPAO benefits specialist that they are 
        simply afraid to ask Social Security.''
        <bullet> LIn Los Angeles, Goodwill Industries of Southern 
        California describe a number of consumers who have stopped 
        working while on benefits because of substantial overpayment 
        situations, many of which are due to improper SSA record 
        keeping or insufficient knowledge of how to report and keep 
        track of earned income.
        <bullet> LIn western Kentucky, staff from the Center for 
        Accessible Living report that beneficiaries have responded 
        positively to the simple fact that accommodations such as sign 
        language interpreters are provided by the BPAO project upon 
        requests. Many beneficiaries have noted they have not been 
        provided accommodations at the SSA office even when requested.
        <bullet> LThe Sheperd Center in Atlanta has served over 400 
        beneficiaries throughout the metropolitan Atlanta area, 
        including Fayette, Henry, and Clayton counties. Sheperd Center 
        staff report dozens of instances in which beneficiaries 
        accurately report earnings to SSA, yet these reports are not 
        acted upon, resulting in significant overpayments to 
        beneficiaries and loss of trust in SSA. Center staff is relying 
        on assistance from the local SSA public affairs specialist to 
        work up and resolve the cases.
        <bullet> LIn Los Angeles County, most beneficiaries contacting 
        Familia Unida have language and cultural barriers that affect 
        their communication with SSA. Most of these individuals are 
        afraid to call the SSA office and are not clear about the 
        information they have received.

    We need to learn from the lessons of welfare reform. Beneficiaries 
need to know and understand the rules, and have them consistently 
interpreted and applied, in order to fulfill their own responsibilities 
under the program and accept responsibility for their economic self-
sufficiency. The national BPAO initiative, if effectively implemented, 
is an essential component of Congressional efforts to include 
individuals with disabilities in our nation's workforce. To this end, 
five recommendations are offered.
    Congress should expand the network of local BPAO projects to meet 
existing demand for the service and adequately serve beneficiaries 
attempting to participate in the Ticket to Work program. The BPAO 
program simply lacks the capacity to respond to the overwhelming demand 
for services. In some instances, BPAOs have been forced to make 
beneficiaries wait up to two weeks for initial appointments. In other 
communities, BPAOs have sharply curtailed outreach activities so that 
they don't create a demand that they just can't meet. BPAOs estimate 
that when the ticket program is rolled out across the nation, benefits 
specialists' caseloads will double. Additional program capacity will 
enable BPOAs to address current and future demand. In addition, 
enhanced program capacity would allow BPAOs to increase marketing 
activities that would allow thousands of individuals, who now feel that 
they are incapable of employment, to test their abilities without 
jeopardizing their livelihood.
    SSA should work with the Project Manager, State Vocational 
Rehabilitation agencies, and Employment Networks to insure that 
benefits planning and assistance supports are available to 
beneficiaries early in the Ticket to Work process. When a beneficiary 
contacts the Project Manager, he or she should receive information 
about the availability of BPAO services in the local area, as well as 
the type of services provided by BPAOs. Clear policies should be 
developed regarding the extent to which Project Manager staff members 
should provide work incentive information to beneficiaries. Similarly, 
State Vocational Rehabilitation agencies should provide information 
about BPAOs to the hundreds of beneficiaries who contact them during 
the initial stages of ticket rollout. Technical assistance should be 
provided to local Employment Networks so that they understand the 
importance of BPAO services and assist potential ticket holders to 
access the service.
    Efforts to improve the overall capability of SSA to effectively and 
responsibly serve disability beneficiaries should be maintained and 
expanded. BPAOs operate independently of SSA, but not in isolation from 
the agency. The piloting of the Employment Support Representative 
position, the creation of the Modernized Return to Work (MRTW) 
software, continued training for field office staff, and efforts to 
collaborate with State Protection and Advocacy agencies are all 
strategies that support the BPAOs and improve service to beneficiaries. 
The Employment Support Representative program should continue and be 
expanded. The MRTW automation efforts should be immediately implemented 
nationwide.
    SSA should begin now to evaluate the effectiveness of the national 
BPAO initiative. SSA plans to initiate a consumer satisfaction survey 
of beneficiaries who have received BPAO services in the near future. In 
addition to consumer satisfaction, SSA should plan and implement an 
impact evaluation of the BPAO program. The resulting information can be 
used to determine the effect of BPAO services on beneficiary employment 
and earnings, as well as the cost-effectiveness of the program.
    SSA's national BPAO initiative should coordinate its activities 
with other programs and agencies providing benefits planning and 
assistance services. In addition to BPAOs, benefits planning and 
assistance services are being supported by the Center for Medicaid and 
Medicare Services, the Department of Labor, the Rehabilitation Services 
Administration and other funding agencies. SSA should coordinate 
training, evaluation and quality assurance activities with its Federal 
partners to insure that these efforts maximize combined program 
capacity and increase long-term program stability.
                              Section IV:
           Benefits Planning, Assistance and Outreach Summary
Results from the National BPAO Data System
    Nationally, 116 organizations, 156 sites, 400 benefit specialists, 
and 27,502 beneficiary recipients participated in the BPAO Program 
between March 1, 2001 and July 31, 2002. An organization, defined as 
the primary BPAO awardee, is an entity or agency that has directly 
entered into a cooperative agreement with SSA to provide benefits, 
planning, assistance, and outreach services to beneficiaries. An 
organization may be providing all BPAO services directly, or may have 
established agreements with subcontractors to assist with service 
delivery. Each organization can have one or multiple sites, a decision 
that is dependent upon physical location and data partitioning 
preferences.
    Many different types of organizations are providing BPAO services. 
Centers for Independent Living (CILs) are providing services in 53 
communities, accounting for nearly half of all BPAO organizations. Non-
profit communities organizations, ranging from Goodwill Industries to 
mental health centers, provide services in 21 locations. State 
Vocational Rehabilitation (VR) agencies operate BPAO programs in 18 
states. Other BPAO organizations include advocacy organizations (e.g. 
United Cerebral Palsy), universities, and legal aid agencies (including 
Protection and Advocacy organizations).


------------------------------------------------------------------------
          Organization                 Frequency            Percent
------------------------------------------------------------------------
Independent Living Centers                       53                45.7
------------------------------------------------------------------------
Non-Profit Community                             21                18.1
 Organizations
------------------------------------------------------------------------
State Vocational Rehabilitation                  18                15.5
  and Legal Aid Organizations
------------------------------------------------------------------------
Advocacy Organizations                           10                 8.6
------------------------------------------------------------------------
Universities and State Agencies                   9                 7.8
------------------------------------------------------------------------
Legal Aid Organizations                           5                 4.3
  (including Protection and
 Advocacy)
------------------------------------------------------------------------
Total                                           116                 100
------------------------------------------------------------------------

    Many of the 116 organizations provide their services at a single 
site. In many instances staff based at the site may travel locally, or 
in some instances across large geographic areas, to meet and serve 
beneficiaries. In other instances, in order to adequately serve its 
specified catchment area, a project may establish multiple sites across 
a region or an entire state. At the present time, 156 sites are 
represented across the 116 organizations.
    At the present time 400 benefits specialists are submitting data 
into the VCU BPAO database. Approximately half of these benefits 
specialists are individuals with disabilities, many of whom have 
personal experience with the SSA disability programs. This is a key 
feature of SSA BPAO program. Individuals with disabilities, serving in 
paid professional positions, are using their knowledge, skill, and 
personal experience to assist other persons with disabilities to 
navigate the maze of SSA work incentives and regulations to obtain 
employment and maximize their economic self-sufficiency.
    The Benefits Assistance Resource Center at Virginia Commonwealth 
University maintains a uniform data management system was developed 
that allowed BPAO contractors to submit, revise, and aggregate 
information on their clientele via web-based forms. The National BPAO 
Data System collects information on:

        Beneficiary Name
        Social Security Number
        Address
        Age
        Sex
        Type of Disability
        Current Benefits Received
        Current Employment Status
        Reasons for Contacting the BPAO
        Types of Services Delivered
        Work Incentives and Provisions Discussed with Beneficiary
        Amount of Time Required to Assist Beneficiary

    This national reporting effort is being used to gather information 
that documents the degree to which the BPAO Program is achieving the 
outcomes intended by Congress when it established the program as a key 
component of the Ticket to Work and Work Incentives Improvement Act. 
The program continues to expand rapidly, providing an array of services 
to SSDI and SSI beneficiaries that will ultimately enable an 
increasingly diverse population of people with disabilities to fulfill 
their goals of returning to work and achieving self-sufficiency.
Total Number of Beneficiaries Serviced in the BPAO Program
    The data reported below reflects the experiences of 27,502 
beneficiaries who received services through the 116 organizations on or 
before July 31, 2002, based on information submitted to the national 
BPAO data system maintained by Virginia Commonwealth University. To 
better understand the activities of the local projects, beneficiaries 
are grouped based upon the level of services received. One group 
consists of 14,044 beneficiaries (51%) who receive only Information and 
Referral and/or Problem Solving and Advocacy services. The second group 
(49%) includes 13,458 persons who received ``Benefits Analysis and 
Advisement,'' ``Benefits Support Planning,'' and/or ``Benefits 
Management'' and is referred to as individuals who receive Intensive 
Benefit Support. As illustrated in the table below, SSDI and concurrent 
beneficiaries are significantly more likely to receive Intensive 
Benefit Support services than SSI recipients.

                                        Benefit Status by Type of Service
----------------------------------------------------------------------------------------------------------------
                  Benefit Status                        I & R/Problem Solving        Intensive Benefit Support
----------------------------------------------------------------------------------------------------------------
SSI                                                                         33.8                           30.4
----------------------------------------------------------------------------------------------------------------
SSDI                                                                        43.5                           48.3
----------------------------------------------------------------------------------------------------------------
Concurrent SSI/SSDI                                                         14.6                           20.0
----------------------------------------------------------------------------------------------------------------

    The number of beneficiaries served by the BPAO Program and the 
intensity of services provided varies greatly by state, as the 
following table reveals. This information should be interpreted 
carefully. The state-by-state data presented in the table below does 
not reflect services provided but not reported to the VCU database, 
services provided by other funding sources, or services provided or 
reported since July 31, 2002.

                                              Persons Served in BPAO Programs March 1, 2001--July 31, 2002
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  I & R/Problem Solving                   Intensive Benefit Support
                         State                         ------------------------------------------------------------------------------------     Total
                                                             SSI          SSDI       Concurrent        SSI          SSDI       Concurrent
--------------------------------------------------------------------------------------------------------------------------------------------------------
AK                                                                1             0             0             6            18             7            32
--------------------------------------------------------------------------------------------------------------------------------------------------------
AL                                                              129            94            47            46            65            29           410
--------------------------------------------------------------------------------------------------------------------------------------------------------
AR                                                              116           186            61            29            46            26           464
--------------------------------------------------------------------------------------------------------------------------------------------------------
AZ                                                              156           383            69            76           167            51           902
--------------------------------------------------------------------------------------------------------------------------------------------------------
CA                                                              639           380           298           305           319           282          2223
--------------------------------------------------------------------------------------------------------------------------------------------------------
CO                                                               37            71            11            63           119            39           340
--------------------------------------------------------------------------------------------------------------------------------------------------------
CT                                                               16            67            12            59           168            37           359
--------------------------------------------------------------------------------------------------------------------------------------------------------
DC                                                               17             6             4             1             1             3            32
--------------------------------------------------------------------------------------------------------------------------------------------------------
DE                                                                5            15             1            25            77            11           134
--------------------------------------------------------------------------------------------------------------------------------------------------------
FL                                                              494           946           207           363           687           236          2933
--------------------------------------------------------------------------------------------------------------------------------------------------------
GA                                                               73            85            33            97           159            63           510
--------------------------------------------------------------------------------------------------------------------------------------------------------
HI                                                               15             6             2             0             1             0            24
--------------------------------------------------------------------------------------------------------------------------------------------------------
IA                                                               33            32            12            27            22            11           137
--------------------------------------------------------------------------------------------------------------------------------------------------------
ID                                                               37            14            18            53            52            28           202
--------------------------------------------------------------------------------------------------------------------------------------------------------
IL                                                              113           163            36            39            81            16           448
--------------------------------------------------------------------------------------------------------------------------------------------------------
IN                                                               59            90            30           111           233            43           566
--------------------------------------------------------------------------------------------------------------------------------------------------------
KS                                                                4            25             5             8            24            14            80
--------------------------------------------------------------------------------------------------------------------------------------------------------
KY                                                              108           144            44           104           167            95           662
--------------------------------------------------------------------------------------------------------------------------------------------------------
LA                                                              204           188            67           124            94            49           726
--------------------------------------------------------------------------------------------------------------------------------------------------------
MA                                                               75            76            26           244           432           211          1064
--------------------------------------------------------------------------------------------------------------------------------------------------------
MD                                                               25            47             7            43            84            23           229
--------------------------------------------------------------------------------------------------------------------------------------------------------
ME                                                               46            56            30            63           106            45           346
--------------------------------------------------------------------------------------------------------------------------------------------------------
MI                                                              115           172            42            89           115            48           581
--------------------------------------------------------------------------------------------------------------------------------------------------------
MN                                                               23            54            24             7            15            12           135
--------------------------------------------------------------------------------------------------------------------------------------------------------
MO                                                              119           183            55           146           289           123           915
--------------------------------------------------------------------------------------------------------------------------------------------------------
MS                                                              228           195            78            35            48            22           606
--------------------------------------------------------------------------------------------------------------------------------------------------------
MT                                                                5             8             4            10             6             5            38
--------------------------------------------------------------------------------------------------------------------------------------------------------
NC                                                              176           273           103           164           325           148          1189
--------------------------------------------------------------------------------------------------------------------------------------------------------
ND                                                                8            17             3             7             2             1            38
--------------------------------------------------------------------------------------------------------------------------------------------------------
NE                                                               15            36            13             0            11             4            79
--------------------------------------------------------------------------------------------------------------------------------------------------------
NH                                                                2             5             3            14            37            11            72
--------------------------------------------------------------------------------------------------------------------------------------------------------
NJ                                                               40            66            20            68           126            35           355
--------------------------------------------------------------------------------------------------------------------------------------------------------
NM                                                               23            29             7            39            52            21           171
--------------------------------------------------------------------------------------------------------------------------------------------------------
NV                                                               19            39            12             7             6             4            87
--------------------------------------------------------------------------------------------------------------------------------------------------------
NY                                                              418           435           184           299           230           158          1724
--------------------------------------------------------------------------------------------------------------------------------------------------------
OH                                                              126           109            36           368           638           218          1495
--------------------------------------------------------------------------------------------------------------------------------------------------------
OK                                                               47            62            25            28            90            19           271
--------------------------------------------------------------------------------------------------------------------------------------------------------
OR                                                               63           130            29             4            18             5           249
--------------------------------------------------------------------------------------------------------------------------------------------------------
PA                                                               96           124            38           296           390           169          1113
--------------------------------------------------------------------------------------------------------------------------------------------------------
PR                                                                2             4             0             2            34             0            42
--------------------------------------------------------------------------------------------------------------------------------------------------------
RI                                                               13            50            13            32             8            24           140
--------------------------------------------------------------------------------------------------------------------------------------------------------
SC                                                              144           170            54            63           116            44           591
--------------------------------------------------------------------------------------------------------------------------------------------------------
SD                                                               14            45            11             3            19             5            97
--------------------------------------------------------------------------------------------------------------------------------------------------------
TN                                                               47            65            23            36            67            23           261
--------------------------------------------------------------------------------------------------------------------------------------------------------
TX                                                              299           344           123           242           353            96          1457
--------------------------------------------------------------------------------------------------------------------------------------------------------
UT                                                               89           113            40             3            13             7           265
--------------------------------------------------------------------------------------------------------------------------------------------------------
VA                                                              103           100            29            16            29            15           292
--------------------------------------------------------------------------------------------------------------------------------------------------------
VT                                                                7             5             4             7             2             4            29
--------------------------------------------------------------------------------------------------------------------------------------------------------
WA                                                               58           126            26            30            86            18           344
--------------------------------------------------------------------------------------------------------------------------------------------------------
WI                                                               33            55            17            55           121            64           345
--------------------------------------------------------------------------------------------------------------------------------------------------------
WV                                                               19            23            10           131           126            69           378
--------------------------------------------------------------------------------------------------------------------------------------------------------
WY                                                                1             2             0             2             6             3            14
--------------------------------------------------------------------------------------------------------------------------------------------------------

                  Intensive Benefit Support Recipients
    Age--The vast majority of individuals receiving Intensive Benefits 
Support services are between the ages of 20 and 59, with less than 10 
percent falling either above or below this range. Both sexes were 
represented equally.

               Age of Intensive Benefit Support Recipients
------------------------------------------------------------------------
                   Age                               Percentage
------------------------------------------------------------------------
Under 22                                                            7.4
------------------------------------------------------------------------
23to 39                                                            38.3
------------------------------------------------------------------------
40to 59                                                            50.3
------------------------------------------------------------------------
Over 60                                                             4.0
------------------------------------------------------------------------
Total                                                               100
------------------------------------------------------------------------

    Primary Disability--BPAOs serve individuals with a wide variety of 
both physical and mental disabilities. The two most common primary 
disabilities reported for beneficiaries receiving intensive benefit 
support were mental/emotional disorders and system diseases, such as 
neurological, endocrine, respiratory and circulatory systems. These two 
categories jointly account for more than half of all beneficiaries 
receiving Intensive Benefit Support. The categories reported least 
often are traumatic brain injury, sensory impairments, and infectious 
diseases. Just over seven percent of all intensive benefit support 
recipients reported having some sort of special language consideration, 
such as the use of sign language or English as a second language.

       Primary Disability of Intensive Benefit Support Recipients
------------------------------------------------------------------------
                 Primary Disability                       Percentage
------------------------------------------------------------------------
Mental and Emotional Disorders                                     38.2
------------------------------------------------------------------------
System Diseases (e.g. nervous, endocrine, cardiac,                 15.7
 etc.)
------------------------------------------------------------------------
Cognitive Disabilities (Mental Retardation)                        12.0
------------------------------------------------------------------------
Non-Spinal Cord Orthopedic Disabilities/Amputations                11.6
------------------------------------------------------------------------
Spinal Cord Injury                                                  5.4
------------------------------------------------------------------------
Blind or Visual Impairment                                          5.1
------------------------------------------------------------------------
Traumatic Brain Injury                                              4.1
------------------------------------------------------------------------
Hearing, Speech, and other Sensory Impairments                      2.9
------------------------------------------------------------------------
Infectious Diseases                                                 2.2
------------------------------------------------------------------------
Other                                                               2.3
------------------------------------------------------------------------
Unknown                                                             0.5
------------------------------------------------------------------------
Total                                                               100
------------------------------------------------------------------------

    Employment Status--More than 90 percent of those individuals who 
receive intensive benefit support through the BPAO Program are either 
employed or in the process of seeking employment. Most are currently 
not working, but have a desire to change their employment status. 
Slightly more than half indicate that they were not employed, but are 
actively seeking employment, and nearly 30 percent are currently 
employed part-time, working less than 30 hours a week. Less than six 
percent of intensive benefit support beneficiaries were employed full-
time, working 30 or more hours a week.

    Current Employment Status of Intensive Benefit Support Recipients
------------------------------------------------------------------------
         Employment Status                        Percentage
------------------------------------------------------------------------
Employed Full-Time                                                  5.8
------------------------------------------------------------------------
Employed Part-Time                                                 29.3
------------------------------------------------------------------------
Not Employed, Seeking Employment                                   55.7
------------------------------------------------------------------------
Not Employed, Not Seeking                                           9.2
 Employment
------------------------------------------------------------------------
Total                                                               100
------------------------------------------------------------------------

    Reasons for Contacting BPAO--Nearly 75 percent of beneficiaries 
have requested services in direct response to the outreach efforts of 
the BPAO Program. Having an interest in examining new or expanded work 
options is another relatively common reason for seeking services, cited 
by over 40 percent of individuals receiving Intensive Benefit Support. 
Approximately nine percent of beneficiary recipients indicate that 
communication from SSA led them to request services. Eight percent of 
total recipients indicate that they sought services in response to 
Ticket to Work communications from SSA; this finding must be 
interpreted with caution, however, since of the 27,502 total 
beneficiaries, only 9,583 were in the 13 states included in the first 
phase of implementation of the Ticket to Work Program.
    Types of Services Provided--Services providing by local BPAO 
programs are classified into five distinct service categories to 
facilitate comparison and communication across programs. Services most 
often delivered to the Intense Benefit Services group are ``Benefits 
Analysis and Advisement,'' during which the benefit specialist may 
assess the potential impacts of employment or other changes on the 
person's financial well being and develop an outline of available 
options and projected outcomes. ``Information and Referral,'' which 
involves providing basic written and verbal information in response to 
inquiries about benefit program, and referral to government agencies or 
other resources, has been provided to 80% of beneficiaries. The service 
category least frequently provided to this group was ``Benefits 
Management,'' although the nature of this category, which involves the 
provision of ongoing, comprehensive benefits monitoring and management 
assistance to those beneficiaries who are likely to experience dramatic 
life changes, makes it critical to those individuals who do receive it.

   Services Delivered to Persons Receiving Intensive Benefit Supports
------------------------------------------------------------------------
              Service                             Percentage
------------------------------------------------------------------------
Information and Referral                                           80.5
------------------------------------------------------------------------
Problem Solving and Advocacy                                       43.4
------------------------------------------------------------------------
Benefits Analysis and Advisement                                   94.8
------------------------------------------------------------------------
Benefits Support Planning                                          32.6
------------------------------------------------------------------------
Benefits Management                                                10.9
------------------------------------------------------------------------

    Amount of Services Provided--The amount of services provided to 
individuals varies significantly. About a quarter of beneficiaries 
receive one hour or less of services, and nearly half receive between 
two and four hours, with an average service time of about 3.4 hours. 
Nearly a quarter of beneficiaries received more than five hours of 
service; however, only about five percent received more than 10 hours. 
Individuals with mental and emotional disorders, and currently 
unemployed individuals seeking to obtain employment tend to receive the 
largest amount of services.

   Amount of Services Provided to Persons Receiving Intensive Benefit
                                Supports
------------------------------------------------------------------------
               Amount                             Percentage
------------------------------------------------------------------------
Less than 1 hour                                                   12.5
------------------------------------------------------------------------
1 hour                                                             16.2
------------------------------------------------------------------------
2 hours                                                            23.2
------------------------------------------------------------------------
3 hours                                                            16.1
------------------------------------------------------------------------
4 hours                                                             9.7
------------------------------------------------------------------------
5-9 hours                                                          17.0
------------------------------------------------------------------------
More than 10 hours                                                  5.3
------------------------------------------------------------------------
Total                                                               100
------------------------------------------------------------------------

   Intensive Benefit Support Recipients Grouped by SSA Benefit Status
    In addition to the findings above, it is useful to compare the 
experiences of beneficiaries receiving Intensive Benefit Support on the 
basis of whether they receive SSI only (n = 4089), SSDI only, (n = 
6500), or Concurrent SSI and SSDI (n = 2694). Nearly 90 percent of 
those receiving SSI or concurrent SSI/SSDI and just over 30 percent of 
those receiving SSDI are currently utilizing Medicaid. SSDI 
beneficiaries are more likely to receive private health insurance 
(although coverage is quite low in absolute terms), and less likely 
than the other two groups to currently receive subsidized housing or 
food stamps.

                                  Other Benefits Received by SSA Benefit Status
----------------------------------------------------------------------------------------------------------------
                                                                                                  Concurrent
                   Current Benefit                        Percentage        SSDI Percentage       Percentage
----------------------------------------------------------------------------------------------------------------
Medicare                                                            4.8                77.0                81.0
----------------------------------------------------------------------------------------------------------------
Medicaid                                                           87.9                32.4                89.7
----------------------------------------------------------------------------------------------------------------
Private Health Insurance                                            3.3                11.2                 2.2
----------------------------------------------------------------------------------------------------------------
Subsidized Housing                                                 19.5                11.4                24.7
----------------------------------------------------------------------------------------------------------------
Food Stamps                                                        27.8                12.3                30.9
----------------------------------------------------------------------------------------------------------------
TANF                                                                3.1                 0.3                 2.2
----------------------------------------------------------------------------------------------------------------
Workers Compensation                                                  0                 0.8                   0
----------------------------------------------------------------------------------------------------------------
Unemployment Insurance                                              0.3                 0.5                 0.2
----------------------------------------------------------------------------------------------------------------
Veterans Benefit                                                    0.5                 2.3                 0.5
----------------------------------------------------------------------------------------------------------------
Other                                                               6.3                 9.6                 5.9
----------------------------------------------------------------------------------------------------------------

    Current Employment Status--The current employment status of the 
recipients did not appear to vary much across the three benefit 
categories; type of benefit does not appear to predict employment 
status among the individuals served by the BPAO Program. Across all 
three groups, more than half of the intensive benefit support 
recipients were not currently employed, but actively seeking 
employment.

                                 Current Employment Status by SSA Benefit Status
----------------------------------------------------------------------------------------------------------------
                                                                                                  Concurrent
                  Employment Status                     SSI Percentage      SSDI Percentage       Percentage
----------------------------------------------------------------------------------------------------------------
Employed Full-Time                                                  5.9                 6.3                 4.3
----------------------------------------------------------------------------------------------------------------
Employed Part-Time                                                 30.3                28.5                30.2
----------------------------------------------------------------------------------------------------------------
Not Employed, Seeking Employment                                   55.5                56.1                55.5
----------------------------------------------------------------------------------------------------------------
Not Employed, Not Seeking Employment                                8.2                 9.1                 9.9
----------------------------------------------------------------------------------------------------------------
No Response                                                         0.1                 0.0                 0.1
----------------------------------------------------------------------------------------------------------------

    Work Incentives Recommended for Consideration--While benefit 
specialists are not responsible for recommending a specific course of 
action to beneficiaries, they do describe work incentives and 
provisions that are available to particular individual, fully 
discussing the requirements of and possible ramifications of each.
    The incentives and provisions that described by specialists as 
options for beneficiaries to pursue vary across current benefit status, 
consistent with expectations. A Trial Work Period, which provides an 
opportunity for beneficiaries to test work skills while maintaining 
benefits, has been discussed with nearly 80 percent of SSDI and 
concurrent beneficiaries, and a subsequent Extended Period of 
Eligibility has been described to about three quarters of these 
individuals. A Plan for Achieving Self Support was presented to roughly 
a third of SSI and concurrent recipients and to 16 percent of SSDI 
beneficiaries. Impairment Related Work Expenses were presented to about 
half of all intensive benefit support recipients, regardless of benefit 
status.
    Section 1619(a) has been presented to about a third of SSI and 
concurrent recipients, and 1619(b) has been discussed with nearly two 
thirds of SSI and concurrent recipients. The Medicaid Buy-In program 
was slightly less likely to be presented as an option for SSDI 
beneficiaries than for either of the other two groups. Extended 
Medicare has been presented to approximately a third of concurrent 
beneficiaries and to a slightly greater proportion of SSDI 
beneficiaries, while the opposite trend was true for Subsidy 
Development.
    The incentives presented as options least frequently overall were 
Blind Work Expense and Student Earned Income Exclusion, reflecting the 
demographic characteristics of the individuals currently served by the 
BPAO Program. Indeed, the data must be examined within the context of 
the appropriate subgroups to provide a more accurate understanding of 
the extent to which these incentives are indicated to beneficiaries. 
Student Earned Income Exclusion was indicated for 30 percent of the 989 
intensive benefit services youth under the age of 22, and Blind Work 
Expense was indicated for over half of the 680 individuals with visual 
disabilities who received intensive benefit services.

                        Work Incentives Discussed with Beneficiary by SSA Benefits Status
----------------------------------------------------------------------------------------------------------------
                      Incentive                               SSI                SSDI             Concurrent
----------------------------------------------------------------------------------------------------------------
TWP                                                                   0                79.6                78.6
----------------------------------------------------------------------------------------------------------------
EPE                                                                   0                76.0                74.7
----------------------------------------------------------------------------------------------------------------
PASS                                                               32.7                15.8                36.3
----------------------------------------------------------------------------------------------------------------
IRWE                                                               47.5                49.4                52.4
----------------------------------------------------------------------------------------------------------------
1619(a)                                                            41.7                   0                34.2
----------------------------------------------------------------------------------------------------------------
1619(b)                                                            71.0                   0                68.1
----------------------------------------------------------------------------------------------------------------
Medicaid Buy-In                                                    14.2                17.4                15.8
----------------------------------------------------------------------------------------------------------------
Blind Work Expense                                                  3.7                   0                 3.3
----------------------------------------------------------------------------------------------------------------
Student Earned Income Exclusion                                     6.6                   0                 2.8
----------------------------------------------------------------------------------------------------------------
Subsidy Development                                                   0                17.4                20.2
----------------------------------------------------------------------------------------------------------------
Extended Medicare                                                     0                39.0                34.2
----------------------------------------------------------------------------------------------------------------

    Other Provisions--Continuing Disability Review Protections are 
discussed as an option for a slightly higher proportion of concurrent 
and SSDI beneficiaries than for SSI beneficiaries, Expedited 
Reinstatement of Benefits were less likely to be presented to SSI 
recipients than to the other two groups, and the provision of Property 
Essential to Self Support was least likely to be presented to SSDI 
beneficiaries, although the overall trends were very similar across all 
three benefits groups.

                        Other Provisions Discussed with Beneficiary by SSA Benefit Status
----------------------------------------------------------------------------------------------------------------
                      Provision                               SSI                SSDI             Concurrent
----------------------------------------------------------------------------------------------------------------
Property Essential to Self Support                                  6.3                 4.3                 6.1
----------------------------------------------------------------------------------------------------------------
Expedited Reinstatement of Benefits                                17.0                26.4                26.1
----------------------------------------------------------------------------------------------------------------
Continuing Disability Review Protections                           13.0                16.7                17.3
----------------------------------------------------------------------------------------------------------------
Section 301                                                         5.0                 5.1                 6.5
----------------------------------------------------------------------------------------------------------------
Unsuccessful Work Attempt                                             0                11.5                13.3
----------------------------------------------------------------------------------------------------------------

    Anticipated Change in Employment Status--The overall patterns of 
anticipated employment status change are consistent across the three 
groups; however, there are a few minor differences. Over half of the 
beneficiaries in each group anticipated that they would be seeking a 
new or supplemental job in the future. A similar pattern was found for 
intention to use the Ticket to Work Program to seek a new or 
supplemental job. A smaller proportion of SSDI beneficiaries indicated 
that they intended to pursue education/training than was true for the 
other two groups. Less than two percent of all intensive benefit 
services recipients sought planning assistance due to an intention to 
cease employment or decrease work hours. It appears that individuals 
receiving Intensive Benefits Support clearly intend to enter employment 
or improve their employment situation, regardless of the type of 
benefit they presently receive from SSA.

                           Anticipated Employment Status Change by SSA Benefit Status
----------------------------------------------------------------------------------------------------------------
                    Status Change                             SSI                SSDI             Concurrent
----------------------------------------------------------------------------------------------------------------
Intends to seek new job or supplemental job                        54.6                55.2                55.7
----------------------------------------------------------------------------------------------------------------
Intends to increase work hours in current job                       8.4                 7.4                 7.8
----------------------------------------------------------------------------------------------------------------
Intends to cease employment                                         0.3                 0.3                 0.3
----------------------------------------------------------------------------------------------------------------
Intends to decrease work hours in current job                       0.6                 1.1                 0.8
----------------------------------------------------------------------------------------------------------------
Does not intend to change current employment status                16.8                16.7                15.7
----------------------------------------------------------------------------------------------------------------
Made no decision                                                   19.3                19.1                19.0
----------------------------------------------------------------------------------------------------------------
Intends to pursue education or training                            25.8                21.2                27.0
----------------------------------------------------------------------------------------------------------------
No Response                                                         0.1                 0.2                 0.9
----------------------------------------------------------------------------------------------------------------

    Amount of Services Provided--In terms of the amount of services 
provided to Intensive Benefit Support recipients, SSI recipients are 
slightly more likely to receive less than one hour of service, while 
concurrent beneficiaries are least likely to receive less than one hour 
of service. Not surprisingly, concurrent beneficiaries are likely to 
receive more services than the other two groups. Mean service hours are 
2.6 for the SSI group, 2.8 for the SSDI group, and 2.9 for the 
concurrent beneficiary group.

                                    Amount of Services by SSA Benefit Status
----------------------------------------------------------------------------------------------------------------
                       Amount                                 SSI                SSDI             Concurrent
----------------------------------------------------------------------------------------------------------------
Less than 1 hour                                                   14.8                12.1                10.3
----------------------------------------------------------------------------------------------------------------
1 hour                                                             18.8                15.4                14.2
----------------------------------------------------------------------------------------------------------------
2 hours                                                            22.6                23.6                23.2
----------------------------------------------------------------------------------------------------------------
3 hours                                                            16.0                16.1                16.1
----------------------------------------------------------------------------------------------------------------
4 hours                                                             9.3                10.2                 9.3
----------------------------------------------------------------------------------------------------------------
5-9 hours                                                          14.5                17.5                19.7
----------------------------------------------------------------------------------------------------------------
More than 10 hours                                                  4.0                 5.2                 7.4
----------------------------------------------------------------------------------------------------------------

          Information and Referral/Problem Solving Recipients
    The second major category of beneficiaries served by the BPAO 
Program includes 14,044 individuals receiving ``Information and 
Referral'' and/or ``Problem Solving'' only. In this group, virtually 
all beneficiaries receive information and referral services, and 
approximately a quarter also receive problem solving and advocacy 
services. Nearly half of these individuals receive less than one hour 
of total service. The average service time for this group is 1.3 hours, 
with less than 14 percent receiving three or more hours.
    Individuals in the I & R Problem Solving group receive 
significantly less service than the Intensive Benefit Support group, 
primarily due to the nature of the various services included in each. 
Nearly 70 percent of individuals in the I & R/Problem Solving group 
receive one hour or less of total service, whereas most of those in the 
intensive benefit support group receive one hour or more of service, 
with only 12.5 percent receiving less than one hour.

                      Amount of Services Provided to Persons Receiving I&R Problem Solving
----------------------------------------------------------------------------------------------------------------
                      Amount                                  Frequency                       Percent
----------------------------------------------------------------------------------------------------------------
Less than 1 hour                                                            6394                           45.5
----------------------------------------------------------------------------------------------------------------
1 hour                                                                      3227                           23.0
----------------------------------------------------------------------------------------------------------------
2 hours                                                                     2481                           17.7
----------------------------------------------------------------------------------------------------------------
3 hours                                                                      901                            6.4
----------------------------------------------------------------------------------------------------------------
4 hours                                                                      383                            2.7
----------------------------------------------------------------------------------------------------------------
5-9 hours                                                                    499                            3.6
----------------------------------------------------------------------------------------------------------------
More than 10 hours                                                           159                            1.1
----------------------------------------------------------------------------------------------------------------
Total                                                                     14,044                            100
----------------------------------------------------------------------------------------------------------------

    Due to the less intensive nature of the services received by 
beneficiaries in this category through the BPAO program, the submission 
of some of the data collected from this group was not strictly required 
by the program. Therefore, the data that was obtained may not be 
completely representative of this group as a whole, and may 
underestimate the general trends that exist within the group.
    Results suggest that the level of support received did not appear 
to vary based on beneficiary demographics. As in the Intensive Benefit 
Support group, no differences in sex emerged, and the majority of 
beneficiaries were between the ages of 20 and 59, with slightly more 
than 13 percent of I & R/Problem Solving recipients falling above or 
below this range.
    Mental and emotional disorders are indicated as the primary 
disability by nearly a third of beneficiaries in the I & R/Problem 
Solving group, followed by system diseases and non-spinal cord 
disabilities and amputations. The least commonly reported primary 
disability categories were sensory impairments and infectious diseases. 
Overall, the pattern of primary disabilities indicated in the I & R/
Problem Solving group was very similar to that in the intensive benefit 
support group. Nearly eight percent of I & R/Problem Solving group 
reported that they require some sort of special language consideration.
    Benefits Received--I & R/Problem Solving recipients received a 
broad range of benefits. Nearly 80 percent received either SSI or SSDI 
only, with a smaller percentage receiving concurrent SSI/SSDI. Nearly 
90 percent received either Medicaid or Medicare. In terms of other 
benefits, food stamps and subsidized housing were most common in this 
group, and Workers Compensation, Veterans Benefit, and unemployment 
insurance were least common. It is possible that the data below for I & 
R/Problem Solving recipients underreport the number of individuals 
receiving SSA benefits; due to the structure of the databases, a small 
number of cases contain missing data on this element. Data from the 
intensive benefit support group is repeated in several tables in this 
section, for the purpose of facilitating comparisons between the two 
service groups.

                  Benefits Received by Type of Services
------------------------------------------------------------------------
                                     I & R/Problem     Intensive Benefit
             Benefit                    Solving             Support
------------------------------------------------------------------------
Medicare                                       40.9                55.1
------------------------------------------------------------------------
Medicaid                                       46.7                60.7
------------------------------------------------------------------------
Private Health Insurance                        4.6                 6.9
------------------------------------------------------------------------
Subsidized Housing                              8.2                16.5
------------------------------------------------------------------------
Food Stamps                                    12.3                20.8
------------------------------------------------------------------------
TANF                                            1.3                 1.6
------------------------------------------------------------------------
Workers Compensation                            0.9                 0.5
------------------------------------------------------------------------
Unemployment Insurance                          0.4                 0.4
------------------------------------------------------------------------
Veterans Benefit                                0.9                 1.4
------------------------------------------------------------------------
Other                                           9.9                 8.4
------------------------------------------------------------------------

    Employment Status--Just over half of all I & R/Problem Solving 
recipients indicate that they were not currently employed, but seeking 
employment. Eighteen percent of these individuals were employed part-
time, yet only four percent were working full-time. I & R Problem/
Solving Recipients are less likely to be employed part-time and far 
more likely to not be employed and not seeking employment than 
individuals receiving Intense Benefit Services.
    Although over half of the beneficiaries in each of the two 
categories indicate that they were currently not employed, but seeking 
employment, a greater proportion of individuals in the Intensive 
Benefit Support group are currently employed than was true for the I & 
R/Problem Solving group. This is true for both full and part-time work. 
The proportion of individuals who are not employed and not seeking 
employment in the I & R/Problem Solving group is more than twice that 
of the Intensive Benefit Support group.

              Current Employment Status by Type of Service
------------------------------------------------------------------------
                                      I&R Problem      Intensive Benefit
             Status                     Solving             Support
------------------------------------------------------------------------
Employed Full-Time                              4.1                 5.8
------------------------------------------------------------------------
Employed Part-Time                             18.1                29.3
------------------------------------------------------------------------
Not Employed, Seeking Employment               53.8                55.7
------------------------------------------------------------------------
Not Employed, Not Seeking                      19.7                 9.2
 Employment
------------------------------------------------------------------------

    Anticipated Employment Status Change--Individuals in the I & R/
Problem Solving group are less likely to be seeking employment when 
they contact the BPAO. They are for more likely to not have made a 
decision regarding their future employment status. Generally, these 
individuals are requesting assistance regarding communication from SSA, 
seeking information about the Ticket to Work program, or asking a 
specific question about their benefit status.

         Anticipated Employment Status Change by Type of Service
------------------------------------------------------------------------
                                      I&R Problem      Intensive Benefit
          Status Change                 Solving             Support
------------------------------------------------------------------------
Intends to seek new job or                     38.3                55.0
 supplemental job
------------------------------------------------------------------------
Intends to increase work hours                  3.4                 7.8
 in current job
------------------------------------------------------------------------
Intends to cease employment                     0.4                 0.3
------------------------------------------------------------------------
Intends to decrease work hours                  0.4                 0.9
 in current job
------------------------------------------------------------------------
Does not intend to change                      13.3                16.5
 current employment status
------------------------------------------------------------------------
Made no decision                               43.7                19.3
------------------------------------------------------------------------

    Work Incentives Recommended for Consideration--A variety of work 
incentives have been discussed with for the I & R/Problem Solving 
recipients; a Trial Work Period and subsequent Extended Period of 
Eligibility were presented most frequently, along with Impairment 
Related Work Expenses and Section 1619(b). As would be expected, 
benefits specialists discuss far fewer incentives with individuals 
receiving I & R/Problem Solving services, since a detailed knowledge of 
the individuals specific situation is required before the benefits 
specialist can provide customized information on a range of incentives.

                        Work Incentives Recommended for Consideration by Type of Service
----------------------------------------------------------------------------------------------------------------
               Incentive                       I & R/Problem Solving              Intensive Benefit Support
----------------------------------------------------------------------------------------------------------------
TWP                                                                   35.5                                 55.6
----------------------------------------------------------------------------------------------------------------
EPE                                                                   32.4                                 53.1
----------------------------------------------------------------------------------------------------------------
PASS                                                                  16.3                                 25.0
----------------------------------------------------------------------------------------------------------------
IRWE                                                                  31.2                                 49.1
----------------------------------------------------------------------------------------------------------------
1619 (a)                                                              12.6                                 20.9
----------------------------------------------------------------------------------------------------------------
1619 (b)                                                              25.0                                 39.0
----------------------------------------------------------------------------------------------------------------
Medicaid Buy-In                                                        9.6                                 16.0
----------------------------------------------------------------------------------------------------------------
Blind Work Expense                                                     2.5                                  3.1
----------------------------------------------------------------------------------------------------------------
Student Earned Income Exclusion                                        3.0                                  3.2
----------------------------------------------------------------------------------------------------------------
Subsidy Development                                                    5.5                                 15.0
----------------------------------------------------------------------------------------------------------------
Extended Medicare                                                     15.2                                 26.2
----------------------------------------------------------------------------------------------------------------

Ticket to Work Rollout States
    Of the 27,502 total beneficiaries, 9,583 (34%) were in the 13 
states included in the first phase of implementation of the Ticket to 
Work Program. Within those states, the Ticket was presented as a 
provision to 47.2 percent of I & R/Problem Solving beneficiaries and to 
42 percent of Intensive Benefit Support beneficiaries. Nearly a third 
of the I & R/Problem Solving group and just over 20 percent of the 
Intensive Benefit Support group responded to Ticket to Work 
communication from SSA as a reason for seeking services from the BPAO 
Program. Nearly a quarter of the I & R/Problem Solving group and almost 
30 percent of the Intensive Benefit Support group indicated that they 
intended to use the Ticket program to seek a new or supplemental job.
    It seems apparent that in the Ticket to Work impacted BPAO in at 
least two ways. First, the Ticket program creates a considerable demand 
for BPAO, accounting for over one third of all beneficiaries accessing 
BPAO services. Second, large numbers of beneficiaries in these states 
are indicating a desire to use the Ticket to obtain a new or 
supplemental job, requiring the BPAO to provide Intensive Benefit 
Support services.

                                 <F-dash>

    Chairman SHAW. Thank you. Ms. Satterfield?

   STATEMENT OF MARY SATTERFIELD, PROJECT DIRECTOR, MAXIMUS 
 PROGRAM MANAGER, TICKET TO WORK AND SELF-SUFFICIENCY PROGRAM, 
                      ALEXANDRIA, VIRGINIA

    Ms. SATTERFIELD. Thank you, Mr. Chairman.
    As you know, I represent MAXIMUS, who has the program 
manager contract with the Social Security Administration to 
administer the Ticket program. As the Ticket to Work program 
manager, we function as a trusted agent of the Social Security 
Administration. They retain program authority. They decide 
Ticket eligibility, schedule the roll-out phases, schedule the 
graduated delivery of tickets during the roll-out phases, 
propose regulations, create and interpret policy, and actually 
approve the providers who have applied to become Employment 
Networks.
    As the program manager, we actually execute all tasks that 
are critical to the operation of the program, and that includes 
serving as a centralized information source, marketing the 
Ticket to Work program to providers and recruiting them to 
participate, facilitating that link between the beneficiaries 
and the Employment Networks, providing training to a variety of 
stakeholders, developing and maintaining a very secure and a 
robust information technology system, collecting program data, 
which we share with the evaluation contractors and Social 
Security, and reviewing all EN requests for payment.
    All aspects of the initial startup for Ticket went very 
smoothly. This included a very complicated undertaking of a 
systems link with Social Security Administration, via which we 
at the Program Manager site, exchange information necessary to 
the operation of the program with SSA on a daily basis. 
Additionally, the start-up of the national call center, which 
has been operational since March of last year, went very 
smoothly, and to date we have logged over 150,000 calls, the 
bulk of which were received after the tickets began to go out 
in February.
    We commenced our marketing and recruitment campaign 
immediately and very aggressively after the release of the 
first EN request for proposal, back in April of last year. This 
included in-person meetings, presentations at conferences, 
exhibits at large disability-related events, targeted mailing, 
phone call campaigns, e-marketing strategies, and any other 
method that we could think of that would represent an 
opportunity for us to get the word out to providers.
    Our marketing team makes presentations about Ticket to 
dozens of different events every month, including the 
recruitment conferences that we host in conjunction with the 
administration. To date we have done over 50 of those, covering 
the Phase I and Phase II States, and we are planning almost 40 
again for next year.
    We have made well over 100,000 different marketing contacts 
to a broad variety of traditional and nontraditional providers 
throughout the country, including employers and educational 
institutions.
    Although our marketing effort has obviously not been 
without challenges, we are encouraged by the 542 applications 
we have received to date, and this includes several providers 
who have elected to cover all of the States in the country. The 
Administration has already formed contracts with 438 of those 
providers, and they are on board as ENs, and the remaining 
applications are in the review process and should be approved 
very soon.
    Last year our recruitment efforts were particularly 
hampered by provider dissatisfaction with the proposed payment 
system, and certainly the more robust payment system that was 
presented in the final regulations was very positively 
received, and then additionally the release of tickets that 
occurred in February also served as a catalyst for this very 
market-driven program. However, we continue to find that 
providers remain focused on concerns about sufficient start-up 
capital, and while there are always various marketing and 
recruitment challenges that are specific to each State, these 
financial concerns traverse State boundaries, impairment groups 
served and affiliations for the providers.
    We know this program represents tremendous change for 
beneficiaries and providers. Transitioning providers from what 
is a very deeply rooted fee-for-service mindset to the outcome-
based concept of the Ticket to Work Program is taking a lot of 
time. Providers continue to be reluctant to actively 
participate in the program because they might not be able to 
afford the up front costs of providing services, or because 
outcomes are far from certain, or they may have to wait a 
substantial period before payments based on outcomes will be 
received.
    Ticket is a new way of doing business for them. They must 
become accustomed to the idea of forming partnerships and 
sharing risk, as well as receiving clients who have not been 
prescreened. While beneficiaries have been overwhelmingly 
optimistic and positive about the opportunity that Ticket 
presents for them, they too remain fearful of ultimately going 
off of benefits. Ticket is a mindset change for them as well.
    On behalf of the Program Manager and the staff that are 
working on the project, we are encouraged by early success 
indicators such as the number of tickets assigned, which is 
almost 7,500 to date, the number and mix of providers that are 
participating and the number of payment requests that we have 
received so far, which is somewhere between 80 to 90. We 
continue to focus strongly on recruitment and supporting the 
ongoing needs of both the ENs and the beneficiaries. We thank 
you for this opportunity to speak with you today.
    [The prepared statement of Ms. Satterfield follows:]
   Statement of Mary Satterfield, Project Director, MAXIMUS Program 
   Manager, Ticket to Work and Self-Sufficiency Program, Alexandria, 
                                Virginia
LProgram Manager's Briefing on the Ticket to Work Program 
        Implementation
    As the Ticket to Work Program Manager, MAXIMUS functions as a 
trusted agent of the Social Security Administration (SSA). SSA retains 
Program authority, decides Ticket eligibility, schedules the roll out 
phases and the graduated delivery of Tickets during each roll out 
phase, proposes regulations, creates and interprets policy, and 
approves providers to become Employment Networks (ENs). The Program 
Manager executes all tasks critical to the operational administration 
of the Program, including:

        <bullet> LServing as a centralized information source for 
        beneficiaries, Employment Networks (ENs), and the general 
        public, primarily through our nationwide toll-free call center;
        <bullet> LMarketing the Ticket to Work concept to service 
        providers and recruiting them to participate as ENs;
        <bullet> LFacilitating the link between beneficiaries and ENs;
        <bullet> LProviding training to a variety of customers 
        including ENs;
        <bullet> LDeveloping and maintaining a secure and robust 
        information technology (IT) system;
        <bullet> LCollecting Program data; and
        <bullet> LReviewing EN requests for payment.

    All aspects of the initial start-up for Ticket went very smoothly. 
This included the complicated undertaking of a systems link with SSA 
via which we exchange information necessary to the operation of the 
Program on a daily basis, as well as the start up of the national call 
center, which has been operational since March 2001. To date we have 
logged over 150,000 calls, almost 90 percent of which were received 
after the release of the fist Tickets.
    We commenced the marketing and recruitment campaign immediately and 
aggressively after the release of the first EN Request for Proposal 
(RFP) in April 2001. This included in-person meetings and presentations 
at conferences, exhibits at large disability related events, targeted 
mailings, phone call campaigns, e-marketing strategies, and any other 
method that represented an opportunity. Our Marketing team makes 
presentations on Ticket to Work at dozens of events every month, 
including the recruitment conferences MAXIMUS hosts in conjunction with 
SSA, numbering 50 to date throughout the Phase I and Phase II states, 
with an additional 35-40 planned for next year. To date, we have made 
well over 100,000 marketing contacts with a broad array of traditional 
and nontraditional providers including employers and educational 
institutions.
    Although the marketing effort has not been without challenges, we 
are encouraged by the 542 applications received from providers, 
including several providers serving all states. SSA has already 
contracted with 438 ENs, and the remaining applications are currently 
in the review pipeline and we expect them to be approved soon.
    Last year, recruitment was particularly hampered by provider 
dissatisfaction with the proposed payment systems. Certainly, the more 
robust payment system presented in the final regulations was positively 
received. Additionally, the release of Tickets in February served as a 
catalyst for this market-driven Program. However, we continue to find 
that providers remain focused on concerns about sufficient start up 
capital, and while there are always various marketing and recruitment 
challenges specific to each state, these financial concerns traverse 
state boundaries, impairment groups, and affiliations.
    We know this Program represents tremendous change for beneficiaries 
and providers. Transitioning providers from what is a deeply rooted 
fee-for-service mindset to the outcome-based concept of Ticket to Work 
is taking time. Providers continue to be reluctant to actively 
participate in the Program because they may not be able to afford the 
up front costs of providing employment services, either because 
outcomes are far from certain or they may have to wait a substantial 
period of time before payments based on outcomes are received.
    Ticket is a new way of doing business for them. They must become 
accustomed to the idea of forming partnerships and sharing risk, as 
well as receiving clients who have not been pre-screened. And while 
beneficiaries have been overwhelmingly optimistic and positive about 
the opportunity Ticket presents, they remain fearful of ultimately 
going off benefits. Ticket is a mindset change for them as well.
    We are encouraged by early success indicators such as the number of 
Tickets assigned, the number and mix of providers participating, and 
the number of payment requests received. We continue to focus strongly 
on recruitment and supporting the ongoing needs of both ENs and 
beneficiaries.

                                 <F-dash>

  STATEMENT OF CHARLENE DWYER, ED.D., DIVISION ADMINISTRATOR, 
DIVISION OF VOCATIONAL REHABILITATION, WISCONSIN DEPARTMENT OF 
           WORKFORCE DEVELOPMENT, MADISON, WISCONSIN

    Dr. DWYER. Good afternoon. Thank you from Wisconsin.
    How did the Ticket roll-out fare? As of last week, we had 
about 1,200 assignments of tickets in Wisconsin. Wisconsin has 
the highest percentage of ticket assignments, based on the 
mailing that was made, of the 13 roll-out States.
    I think a more interesting question is how much new 
interest has been stimulated by the mailing? If we look at who 
our current customers were at the time of the mailing and how 
many new customers we generated as a result of the mailing, we 
can attribute about 300 new customers to the ticket mailing. 
That is about two-tenths of 1 percent of the mailing.
    Where are the Ticket holders in Wisconsin assigning their 
tickets? We have about 1,200 tickets assigned. Ninety-six 
percent of those have been assigned them to the Wisconsin VR 
Agency.
    Why such a high percentage of tickets to the VR Agency? 
Well, in Wisconsin, we know that about 70 percent of the people 
who have assigned tickets were our current customers when they 
received the ticket and chose to assign the ticket to us. We 
also know that we had a very positive response in our call 
center where we took over 1,000 phone calls, and where we gave 
a very positive message about the ticket and the benefits of 
the ticket. We offered benefits counseling to every caller, if 
they would like to engage in benefits counseling, and we think 
that drove up the number of ticket assignments as well. As well 
as the fact that we answered our phones. We did hear that 
toward the end of the rollout period there were some ENs that 
weren't answering their phones. We answered every phone call.
    We also know that we had EN providers in Wisconsin 
referring ticket holders to us after they conducted their risk 
assessment. They just couldn't afford to take the ticket from 
the caller, and they referred those individuals to us. We told 
EN's that referrals were fine. We will turn around and buy the 
services from an EN if the EN is the preferred provider for 
that individual.
    What needs to be improved? We are going to take on the 
ticket referrals, the higher-risk ticket holders from the EN 
referrals. We are willing to do that. That is our role and we 
are willing to serve those individuals. We are a unemployment 
benefits agency that rolled out under ``cost reimbursement.'' 
We are going to be moving into an outcome payment system by the 
end of the year, but right now we are still engaged in cost 
reimbursement. We would like to know that if we do the job, if 
we meet the goals, if we help that customer achieve the ticket 
outcomes, that we can be paid. There are some disconnects in 
the current final rules that can prevent us from being paid 
even when the outcome is clearly attached to our services. If 
the ticket gets moved and another EN places the claim under a 
milestone claim, our claim can be trumped. In that case, we get 
no reimbursement. Under our standard cost reimbursement, we 
also have no recourse for appeals with SSA.
    So, we would like to see some changes in the cost 
reimbursement system from SSA.
    Why is it important? Because last year in a 12-month 
period, we earned, for our successes, $1.64 million in SSA cost 
reimbursement. We took 700 people off of our wait list with 
those funds. We are a State, as all other States are, that is 
entering into some very hard economic times at the State budget 
level. We do know if we are not able to recover for our 
successes--and I am talking about recovering for the outcome 
work that we do--that we will have a longer wait list in our 
State. We have a wait list now, and we anticipate it will get 
longer.
    We believe these outcome payment glitches can be worked 
out. We would like to continue to focus on the benefits of the 
Ticket to the Ticket holder and less on cost recovery and 
assignment of tickets. Thank you.
    [The prepared statement of Dr. Dwyer follows:]
Statement of Charlene Dwyer, Ed.D., Division Administrator, Division of 
      Vocational Rehabilitation Wisconsin Department of Workforce 
                    Development, Madison, Wisconsin
    Thank you for the invitation to share our Ticket to Work rollout 
experience with you today.
    In the next five minutes I'll pose and answer 7 questions to help 
you understand the impact of the Ticket to Work in Wisconsin from a 
public agency's perspective.
1. In general, how did the Ticket roll out fare in Wisconsin?
    Early measures of success in the roll out are whether Ticket 
Holders elected to use their Tickets and where they are assigning those 
Tickets. Another measure is whether the Ticket mailings are stimulating 
``new'' return to work interest among the target group.
    As if last week Friday (9/20/02), Maximus reported that with more 
than 2 million Tickets delivered across 13 roll out states, 6,471 (or 
.3%) had been assigned.
    With .8% of available tickets assigned, Wisconsin is the state with 
the highest percentage of Ticket assignments of any of the 13 roll out 
states. (126,449 Tickets mailed; 1,113 assigned in Wisconsin)
2. How much ``new'' interest has been stimulated by the mailing?
    Based on our historical application patterns for the target group 
and the activity in our Ticket to Work Call Center, about 300 new 
applications from Ticket holders might be credited to the Ticket 
mailing. We did hear from some callers that they had never heard of DVR 
before they received the Ticket mailing. Others had been our customers 
in the past, but the mailing stimulated their interest in ``trying 
again''.
    In the big picture of the statewide mailing of over 126,000 
Tickets, 300 individuals responding to the point of applying for 
services and assigning a Ticket equates to a .02% ``new business'' 
rate.
3. Where are Ticket Holders assigning their Tickets? 
    96% (1,069) of the Wisconsin Ticket holders who elected to use 
their Tickets assigned them to the DVR. As of September 20th, only 44 
Tickets were assigned to one of the other 20 ENs serving Wisconsin.
4. Why such a high percentage of Tickets to VR?
    Some preliminary answers:
    Ticket recipients were already our customers (69% were already 
working with us prior to receiving their Ticket) or would have become 
our customers regardless of receiving the Ticket in the mail (SSA 
recipients were 15.4% of our customer base).
    We have 650+ SSA beneficiaries engaged in an SSA work incentive 
demonstration in our State called ``Pathways to Independence''. During 
the past 4 years, the DVR has funded a statewide network of return to 
work benefits specialists who provided information on the ``added 
value'' features of the Ticket to consumers in our demonstration. We 
were able to ``prime the pump'' so to speak in Wisconsin--at least for 
that demonstration group.
    We know that some EN providers have referred Ticket holders to us 
after they received a request from a Ticket holder and following their 
outcome payment risk assessment.
    The EN decided that either the risk of achieving the outcome, or 
the cost to serve the individual was too high. In short, based on the 
current outcome payment system, they couldn't afford to take the 
Ticket.
    VR is the only Ticket services provider that will not reject a 
Ticket holder. Wisconsin DVR annually spends $35-40 million for the 
purchase of rehabilitation services from the private sector. We have 
asked our EN partners who decided not to take a Ticket to give a 
positive message to Ticket holders and send them to us. We can simply 
buy services from the EN if the Ticket holder wished to receive 
services from them.
Initial conclusion for Wisconsin VR
    In the roll out period, we were very prepared, and have been 
extremely ``underwhelmed'' by the response from Ticket holders.
    Conversely, we have been somewhat ``overwhelmed'' by the additional 
administrative requirements for collecting the Tickets and getting them 
assigned. Instructions for claiming the Ticket have been ``varied and 
evolving'' since January. This has added to the confusion and 
complexity of getting this program off the ground in our agency.
6. What needs to be improved?
    If we are to take on the higher cost and riskier Ticket business 
that other EN's refuse--and we are willing to do so--we need a more 
equitable system of SSA payment. We only want to be paid when we are 
clearly responsible for assisting Ticket Holders in achieving 
employment goals that satisfy the Ticket to Work requirements.
    Under our traditional ``cost reimbursement'' recovery--SSA ``pays 
us back'' in full for the costs associated with the rehabilitation 
plan. You might think of these funds as SSA's community reinvestment 
funds--or better yet employment reinvestment funds.
    In a recent 12-month period we recovered $1.64 million for our SSA 
successes--sufficient funding to take 700 people off of our wait list 
for services!
    When we provide successful rehabilitation services under our 
regular cost reimbursement system, the Ticket works well for us when 
the consumer

        <bullet> LDecides to use the Ticket and assign it to us
        <bullet> LDecides to assign it to another EN who has an 
        agreement with us (we have many EN agreements and have not 
        qualms about sharing the Ticket challenge and payments with our 
        private sector partners).

    The Ticket does not work for us when

        <bullet> LThe consumer uses our services, but then assigns the 
        Ticket elsewhere with an EN that has refuse an agreement with 
        us, effectively preventing us from claiming any portion of the 
        reimbursement.

    Under the final rules, when DVR chooses cost reimbursement,
    1. An EN can refuse an agreement arrangement
    2. The consumer can reassign the Ticket to an EN that can claim 
reimbursement after 1 month of SGA activity--under cost reimbursement 
VR has to wait for 9 months of SGA activity. An EN can ``trump'' the 
claim.
    3. VR receives $0 recovery if an EN places the claim first
    4. VR has no appeal recourse with SSA.
    According to the final regulations--reports from the CBO stated 
that the Ticket to Work Program would ``. . . partially displace the 
current cost reimbursement program''.
    Apparently the final rules are based on ``cost savings to SSA'' 
without regard for how the SSA reimbursements are ``reinvested'' into 
future rehabilitation efforts for the ``next'' customer--perhaps 
someone on a wait list.
7. What would work better for an agency electing the cost reimbursement 
        payment system?
    When a VR agency can demonstrate that services provided led to the 
desired employment outcome, the agency should:
    a. be able to submit claims and recover their cost under the 
traditional cost reimbursement as the stand-alone program it was 
intended to be--when there is not another EN in the mix.
    b. be put on an equal footing with other ENs and be able to appeal 
a reassigned ticket claim with SSA if the Ticket is reassigned to an EN 
who refuses an agreement, and the VR services and costs are clearly 
related to the successful employment outcome.
Why is it important to make these changes in the cost reimbursement 
        system for the VR agencies?
    Because of the reinvestment value of the SSA cost reimbursement.
    Wisconsin currently has a wait list for services. We already have 
several hundred people and it is growing.
    We are facing our next round of very significant state budget 
reductions (as most states are).
    Lost SSA cost reimbursements for our successes will mean that our 
wait list will be longer.
    We believe that SSA and RSA can successfully work together to 
eliminate the major stumbling blocks so that we can concentrate less on 
Ticket assignment procedures and cost recover glitches and more on 
selling the benefits of the Ticket to the Ticket holder.
    Thank you.

                                 <F-dash>

    Chairman SHAW. Thank you, Dr. Dwyer. Mr. O'Brien?

STATEMENT OF DAN O'BRIEN, MPA, PROGRAM MANAGER, TICKET TO WORK 
     AND COMMUNITY REHABILITATION, OKLAHOMA DEPARTMENT OF 
        REHABILITATION SERVICES, OKLAHOMA CITY, OKLAHOMA

    Mr. O'BRIEN. My name is Dan O'Brien. Thank you, Chairman 
Shaw and Ranking Member Matsui and Members. I am with the 
Oklahoma Department of Rehabilitation Services. I am the 
Program Manager for Ticket and Community Rehabilitation.
    To give you a sense of what is going on in Oklahoma, we 
have had just about 100,000 tickets mailed out. We looked at 
our caseloads before they went out. Eighteen percent of our 
caseloads were already Social Security customers, which was 
4,000 out of 22,000. We have had about 1,500 ticket calls to 
our ticket hotline. We set up a hotline to make sure there was 
access to services and the phone would be answered. We have had 
Outreach meetings at the One-Stops, where we provide work 
incentive training to the Social Security beneficiaries, so 
that they understand what will happen to their benefits before 
they get involved.
    I guess we were asked because we are the big user of the 
milestone payment system, and that is because in 1992 we 
developed the milestone payment concept for contracting out as 
a way of risk sharing and improving outcomes. I was a co-
designer of the original milestone system. It has been imitated 
in a lot of States, and I think it was suggested as a way for 
Employment Networks to be able to take on the risk as opposed 
to the outcome system, and that is proven to have been the case 
as, if I am reading it correctly, two out of three of the 
tickets assigned to Employment Networks are under the milestone 
system so that they apparently do feel like it obviates the 
risk to their programs.
    I want to just highlight a couple of my comments. The 
Ticket assignment rate, at this time 6,000 sounds like a lot or 
7,000, but that is one-third of 1 percent. Based on our 
experience and from what I understand from Social Security you 
would have to have a multiple of that to get to the goal that 
Susan Daniels, Martin Gerry's predecessor, set of one-half of 1 
percent going off rolls, you would have to have a multiple of 
one-half of 1 percent assigning their tickets. I think the 
multiple would be at least 10 to 1. I understand under Social 
Security existing work incentive programs it is more like 14 to 
1, the rate of people who engage in work activity and actually 
go off benefits. So, that would mean a ticket assignment rate 
of about 7 percent would be needed to get half of 1 percent off 
the rolls.
    At one-third of 1 percent we have a long way to go. I think 
that represents some access problems in the system that need 
addressed, and the two recommendations that I would have from 
the frontline would be to reduce the penalty--and this mainly 
affects ENs, other than VR--reduce the penalty for choosing the 
milestone payment system. The penalty now is a 15 percent 
penalty. They only accrue 85 percent of the funds that they can 
under the outcome system. That, in a lot of people's opinion, 
was intended to discourage use of the milestone system, which 
from the EN's activity appears to be the one that they think 
can work. Reduce that penalty to 5 percent instead of 85 
percent, and then distribute those funds among the milestone 
payments not in the outcome payments. That would make a system 
that would lower the bar for getting in the front door, which 
is one of the issues with an Employment Network. They have to 
make a risk assessment whether this person is likely to be paid 
for.
    The other thing is that several people have mentioned--
there needs to be a marketing triumvirate: benefits planning, 
outreach and Employment Support Representatives. Those three 
pieces, for this to work, have to work in conjunction. I think 
the outreach, the O in BPAO has not been funded. Actually, the 
BP hasn't been well funded either. Benefits planning is way 
inadequately funded, but the outreach part hasn't been funded 
at all, and that could be done through the one-stops, and 
Martin Gerry, I think is working on that with the other 
agencies. That is to be commended.
    The zero cash benefits. Making the payments contingent on 
zero cash benefits I think is a mistake. That makes Social 
Security beneficiaries with the one for two undesirable 
customers under the Ticket, and if the one for two is extended 
to SSDI, it would put the entire Ticket out of business, 
because right now the research is that SSDI beneficiaries are 
the only ones that make sense to take a Ticket on because of 
the cash cliff, because at that point you can be paid. With a 
one for two write-down, there will be nobody who will be 
desirable. So, that problem has to be addressed. My suggestion, 
as a number have suggested is a strategy of partial self-
sufficiency, making payments based on a percentage of benefits 
not payable, not necessarily going to zero benefits. If some 
benefits aren't payable, a percentage can be paid out.
    The roll-out was too aggressive, this will be a particular 
problem for California. This is going to be a problem. It needs 
to be stretched out a little bit, either 10 percent a month or 
10 percent the first 2 months, 20 percent for 4 additional 
months. It was the 30 percent and the 40 percent months that 
really killed us, and it is going to murder California and 
Texas.
    The only other thing, I submitted a statement from 
Connecticut Rehabilitation. There is a lot of concern about 
absorbing the reimbursement system into the ticket system. I 
think that sets up the problem the Chairman asked about 
earlier, of VR looking at this as antagonistic. If that could 
be changed, that would reduce that. Thank you.
    [The prepared statement of Mr. O'Brien follows:]
  Statement of Dan O'Brien, MPA, Program Manager, Ticket to Work and 
    Community Rehabilitation Oklahoma Department of Rehabilitation 
                   Services, Oklahoma City, Oklahoma
    Chairman Shaw, Ranking Member Matsui and members of the 
subcommittee, thank you for asking the Oklahoma Department of 
Rehabilitation Services to share it's experience as one of the 13 
initial rollout states for the Ticket to Work. My name is Dan O'Brien; 
I am the Program Manager for the Ticket to Work for the Oklahoma DRS, 
the State Vocational Rehabilitation and Visual Services Agency.
Oklahoma's Experience with the Ticket--Just the Facts
        <bullet> LTickets mailed--99,915
        <bullet> L4,000 existing SSA cases (18% of DRS caseload)
        <bullet> LTicket Hotline Calls--1456 calls (1.5% of Tickets 
        mailed)
        <bullet> LOutreach/Ticket Orientation Meetings at One Stops--
        100+
        <bullet> LOK Tickets Officially Assigned as of 9/10/02--462
        <bullet> LAbout 92% of all OK tickets assigned have gone to VR
        <bullet> LNew applications for services from Ticket--150+
        <bullet> LIn over 50% of OK DRS Ticket cases Milestone/Outcome 
        payment system was chosen, the remainder are traditional 
        reimbursement.
        <bullet> LOK DRS is the VR leader in Ticket Milestone System, 
        OK DRS had 90% of all VR Agency Milestone Cases nationally on 
        8/12/02.
        <bullet> LCounselors are recommending the Milestone system be 
        used instead of traditional reimbursement if they determine the 
        beneficiary is not likely to go off benefits or the case cost 
        is projected to be low.
        <bullet> L90 of 254 Milestone cases had some work activity 
        since Ticket issued, only 13 worked above SGA (14%).
        <bullet> LMilestone claims billable on the 13 beneficiaries 
        working over SGA worth about $5000 as of 9/23/02.

The Oklahoma Ticket Model (see attachment A)
    Oklahoma DRS designed the Milestone Payment system in 1992 as a 
method for sharing risk and improving service outcomes. It has been 
widely imitated and was a finalist in the 1997 Kennedy School of 
Government Innovations in American Government awards. As a result of 
the success of the Milestone system it was included in the Ticket 
legislation. In 1998 we were the recipients of a 5 year SSA State 
Partnership Initiative Grant to pilot an assertive engagement/outreach 
system for a vocational voucher system.
    In 2001 we developed a Ticket implementation model based on our SSA 
SPI grant assertive engagement/outreach model. The Oklahoma Model 
involves specially trained outreach staff working through the One Stop 
system, who conduct work incentive training, make referrals to the BPAO 
and expedite the application and eligibility.
General Comments and Recommendations:
    Comment #1: The low Ticket assignment rate, as of September 2002, 
\1/3\ of 1%, is a red flag that there may be substantial barriers to 
service access. In order for the stated goal of \1/2\ of 1% of the 
Ticket holders to leave the rolls a substantial multiple of that figure 
will be needed in entries to the program. I have been told that the 
current ratio of employment effort to exits is 14 to 1, thus at least 
7% assignments would be needed. One of the barriers to access is the 
high level of risk that EN's must accept, the milestones were meant to 
obviate some of this risk. The 15% reduction in total ticket payments 
available for the milestone/outcome over the straight outcome payments 
seems excessive. Another barrier is fear, misunderstanding and 
mistrust. Assertive engagement and outreach techniques are needed to 
increase participation.

        <bullet> LRecommendation #1.1: Reduce the penalty for choosing 
        the milestone/outcome system from 15% to 5%. Therefore, the 
        total payment for the milestone/outcome system would be 95% 
        rather than 85% of the total funds available under the outcome 
        only system. In addition invest all of that addition money in 
        increasing the milestone payments. See attachment B for 
        details.
        <bullet> LRecommendation #1.2: Fully fund an Outreach effort 
        that has three prongs, the Benefits Planning Grantees (BPAO), 
        the ESR and an Outreach effort that has a local presence in the 
        Comprehensive One Stops. Engage DOL and the One Stop system in 
        funding and implementing an Assertive Outreach effort. See 
        attachment C, for details.

    Comment #2: The focus on going off benefits as opposed to a goal of 
increasing self-sufficiency misses the big savings to SSA. The sole 
focus on leaving the rolls does not recognize the reality that many SSA 
beneficiaries take a series of steps, each time increasing their work 
activity, leading to leaving the rolls over a period of years. An all 
or nothing strategy makes these customers undesirable to EN's and 
generally discourages participation from EN's by raising their level of 
risk unreasonably high. See attachment B for detail.

        <bullet> LRecommendation #2: Implement a partial self-
        sufficiency return to work strategy. Milestone and outcome 
        payments should be paid as a percentage of benefits not 
        payable. When partial cash benefits are paid to the 
        beneficiary, the milestone and outcome payments would be based 
        on a percentage of benefits not payable. For administrative 
        simplicity a two tier payment structure could be implemented, a 
        lower milestone and outcome payment at the Trial Work level and 
        the full milestone and outcome payment at SGA. (See Attachment 
        B).
Administrative Issues:
    Comment #3: Rollout schedule was too aggressive--SSA sent Tickets 
out over 5 months--10% the first month, 20% the third month, 30% the 
fourth month and 40% the fifth month. The fourth and fifth months were 
difficult to keep up with phone calls and created a lag in determining 
eligibility that took several months to clear up.

        <bullet> LRecommendation #3: Consider either a ten month 10% 
        per month rollout or a six month rollout, 10% first two months 
        and 20% the last four months. This will allow the larger states 
        particularly Texas and California to manage the increase in 
        applications.

    Comment #4: The procedure for confirming whether a Ticket is 
assignable is cumbersome. OK DRS had about 4,000 SSA beneficiaries on 
caseloads when the Ticket program began. To confirm whether a Ticket 
was assignable DRS staff had to call or fax in a list of names to 
Maximus. Maximus staff initially refused to take lists longer than 20 
names. Ultimately DRS staff were told they could no longer fax in lists 
and had to read hundreds of names to the Maximus staff over the phone. 
This verbal only system is not a particular burden for an EN building a 
caseload one client at a time, but for a state agency with thousands of 
SSA customers it is a huge burden.

        <bullet> LRecommendation #4: Allow states to electronically 
        submit lists of existing customers with SSN's before the mail 
        out so that they can be alerted to those who are expected to 
        have a Ticket mailed.

    Comment #5: DRS Ticket Unit staff report that some Maximus phone 
staff are lacking in English proficiency, making the aforementioned 
hours of phone confirmation take two or three times longer than 
necessary.

        <bullet> LRecommendation #5: Verbal English proficiency should 
        be a requirement for Maximus phone staff.
LConcern from Peter Baird, Connecticut Bureau of Rehabilitation 
        Services shared by many of the Rehabilitation State Agencies
    We have significant concerns regarding ticket assignment procedures 
for a ``new case.'' New cases are defined by Social Security as those 
individuals who sign an IPE after becoming eligible for the ticket. SSA 
has determined that for a ``new case,'' a State VR Agency will need to 
have the ticket assigned to receive either cost-reimbursement or one of 
the new EN outcome payments. (Section 12.2B)) SSA considers the 
signature on the IPE to be an indication that an individual has decided 
to use the ticket to obtain services from the State VR Agency. As a 
result, a State VR agency is allowed to have the ticket assigned to 
them for a ``new case'' even when the person does not sign the Ticket 
Assignment Form. Section 12.10(C) states:

        If the beneficiary (or the beneficiary's representative) does 
        not sign the form, submit the unsigned form, with the front (or 
        cover) page and last (or signature) page of the IPE, to 
        MAXIMUS.

    We have two concerns regarding the issues above, and are seeking 
guidance from RSA on these matters.
    1) SSA has subsumed the traditional cost-reimbursement system under 
the Ticket to Work Program for all ``new cases.'' SSA has verbally 
cited that the basis for this opinion can be found in section 101(b) of 
The Ticket to Work legislation. We do not believe that this is the 
intent of the legislation, and we are unaware of any authority SSA has 
to subsume the cost-reimbursement system under the Ticket to Work 
Program, thereby making reimbursement contingent upon ticket 
assignments. We also believe that the provisions allowing for 
reimbursement for non-ticket holders and for pipeline cases demonstrate 
that the reimbursement program is in fact separate from the ticket 
program.
    2) We have significant concerns regarding confidentiality. SSA has 
stated that the Ticket Assignment form and IPE can and should be 
submitted to Maximus without the consumer's explicit signed consent. We 
believe that the principles of confidentiality, informed choice and the 
Ticket legislation's principles of ``voluntary assignment'' (see 
Chapter 12.1 (B)) are violated by the assignment of Tickets without a 
consumer's explicit consent. We do not believe that we have the 
authority to share the IPE with Maximus without the consumer's explicit 
consent.
                                 ______
                                 
Attachment A.
LOklahoma DRS and Workforce Oklahoma Collaboration on Ticket to Work 
        (aka ``THE OKLAHOMA TICKET MODEL'')
    In Oklahoma, 100,000 SSI/SSDI recipients received a Ticket to Work 
from the Social Security Administration between February and July 2002. 
Recipients were instructed to call the program manager, Maximus for 
Employment Networks in their local area. The DRS asked that Maximus 
only give out the Ticket Unit toll free number for the OK DRS Ticket 
Unit (866) 882-4515. The toll free number is staffed by Rehab 
Technicians who are trained on SSA work incentives by the Benefits 
Planning Assistance and Outreach contractor (BPAO), the Ticket and VR/
VS services. The callers are invited to a Ticket Orientation meeting at 
the One Stop where detailed work incentive information is presented at 
the meeting or individually using WorkWorld software at the One Stop. 
The presentation uses a simple scenario based PowerPoint slide show, 
developed by OK DRS specifically to answer the two main customer 
questions ``what will happen to my benefits if I go to work'' and ``how 
can VR help me accomplish my career goals.''
Purpose of the Ticket Unit
    1) Inform Ticket Holders about VR services and available Work 
Incentives so that they can make an informed choice to pursue 
employment.
    2) Expedite application and eligibility determination for Ticket 
customers.
    3) Increase SSA reimbursement by creating follow-along caseloads of 
closed (26) cases that are eligible for reimbursement or milestone 
payments from SSA.
Procedure:
    1) When the Ticket Holder calls the DRS Ticket Hotline their call 
will be routed to the Ticket Unit in OKC. They will be offered an 
opportunity to attend a three-hour orientation session on the Ticket 
and VR services. One-Stop staff will also invite Ticket holders to the 
Ticket Orientation sessions who call or come to the center. Sessions 
are scheduled at all the Comprehensive One-Stops on a regular basis.
    2) The Ticket Orientation will cover the Ticket, VR services 
available and a brief overview of Social Security Work Incentives. The 
orientation is not required; it is intended as a step in the Ticket 
holder making an informed choice of employment service provider. Ticket 
holders who wish to immediately apply for VR services will be directed 
to the local DRS office.
    3) The One-Stop will have Work World available in their resource 
room. The Work World program allows consumers to enter several work 
scenarios into the computer and advises them on the use of work 
incentives.
    4) At the end of the presentation consumers will have an 
opportunity to apply.
    5) The Ticket Unit Tech III or the assigned local staff will take 
an application. The Ticket Unit VR Counselor IV, will review the 
documentation and determine the customer eligible within 3-5 working 
days following the application.
    6) The case will be referred back to the local counselor after 
eligibility determination. The home counselor will obtain the Ticket 
from the beneficiary when the IPE is signed, keep the original and fax 
a copy to Ticket unit.
    7) When the case is moved to an employed status (status 18 for SE 
and 22 for all others) the Ticket unit will be alerted by ORMIS. After 
26 closure a Ticket Unit Tech III will begin tracking the case until 
all SSA reimbursement is submitted.
Questions: email Dan O'Brien at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee8a8b818c9c878b80ae8a9c9dc09d9a8f9a8bc08185c09b9d">[email&#160;protected]</a> or 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b3b2b8b5a5beb2b997b6b8bbf9b4b8ba">[email&#160;protected]</a>
                                 ______
                                 
Attachment B.
LExample of a Ticket Scenario that Addresses a Number of the Equity of 
        Access Issues
    Prepared by Dan O'Brien, Ticket Program Manager OK Dept of 
Rehabilitation Services
Potential Breakeven scenario for SSI recipients
    If the intent of the Ticket is to create a breakeven scenario for 
the SSA then SSI must be considered separately from SSDI, as the 
baseline assumptions are different. At least until a 2 for 1 work 
incentive system is in place for SSDI.
    Specifically, savings accrue, i.e., some benefits are not payable, 
from any SSI work activity that exceeds $85 per month. This allows a 
breakeven scenario for SSI based on payment of Milestone and Outcome 
payments as a percentage of the benefits not payable due to work 
activity.
    The chart below reflects a recommendation that the total payments 
available under the Milestone/Outcome system be increased from 85% to 
95% of the Outcome only system. This increases the total payment (2002 
figures) available under the Milestone system from $9,720 currently to 
$10,887. The additional $1167 is distributed evenly among the milestone 
payments in this example. The payment threshold is set at the Trial 
Work level, $560 for 2002, for the first three milestone payments, to 
allow Ticket holders to work up to SGA. The dual level of Outcome 
payments recognizes the reality that some beneficiaries will not 
achieve SGA but SSA will accrue savings. This involves a slightly 
higher level of risk sharing on the part of SSA but still results in 
savings to SSA from a partial reduction of benefits scenario rather 
than the ``0'' benefits level and overall could lead to substantially 
higher cumulative savings.
    Two payment tiers are envisioned for the two levels of significant 
work activity recognized and tracked by the Social Security 
Administration, the Trial Work (TW) level, currently $560/mo. and the 
SGA level, currently $780/mo. For the lower TW level the last Milestone 
payment would not be paid until achievement of SGA. This withholding of 
funds would serve as an incentive for EN's to boost work hours to the 
SGA level at the appropriate time. When a higher level of work activity 
was achieved an additional Milestone payment would be paid and a higher 
level of Outcome payments would begin.
    With this shift in risk sharing and marketing of ``partial self-
sufficiency'', a reasonable goal would be for 5% of SSI beneficiaries 
(200,000 of 4 Million) to work part-time at the Trial Work level or 
above. This level of work activity is generally achieved now in RSA 
Supported Employment programs that predominantly serve SSA 
beneficiaries. This work activity level is achievable and would result 
in a savings to SSA of $159 per month per worker ($237-$78) for a net 
of $32 Million per month. This scenario could also apply to SSDI if the 
2 for 1 was applied to Title II, as is being considered.


----------------------------------------------------------------------------------------------------------------
                                    Payment                              Milestone    Net Benefits     SSA Net
           Milestone                Criteria       Payment  Threshold     Payment      not payable    loss/gain
----------------------------------------------------------------------------------------------------------------
Job                             1 month          Earnings of at least   $454         $237            -217
Placement                       work              $560 \1\
----------------------------------------------------------------------------------------------------------------
Job                             3 months         Earnings of at least   $616         $711            -359
Training                        work              $560
Complete
----------------------------------------------------------------------------------------------------------------
Integration                     7 months of      Earnings of at least   $940         $1659           -410
into                            work             $560/month
Worksite
----------------------------------------------------------------------------------------------------------------
Attainment                      Minimum of       Earnings in last 5     $1102        $2701           -$411
of                              12 mo. work       months at least $780
SGA
----------------------------------------------------------------------------------------------------------------
Monthly                         Monthly          Monthly Earnings at    Outcome      Breakeven       After 24
Outcome                                                                              Point           Months
Payment                         Payment                                 Payment \2\

                                a) After 7       a) $560+/Mo.           a) $78       a) 10 mo. of    a)+$2226
                                Mo. Mlstn                                            work @ $560

                                b) After 12      b) $780+/Mo.                        b) 14 mo.
                                month                                   b) $118      Work @ $780+    b)+2295
                                milestone
----------------------------------------------------------------------------------------------------------------
\1\ Trial Work Level for 2002 $560/mo.
\2\ 34% of benefits not payable

                                 ______
                                 
Attachment C.
LAssertive Engagement/Outreach of SSA Ticket Holders as a method to 
        increase workforce participation rates
    There are troubling signs of service access barriers in the 
assignment rate of Tickets from the initial rollout states. Less than 
one-third of 1% of the Tickets mailed out in the first 13 states have 
been assigned as of September 10, 2002. Part of the rationale for the 
Ticket program was to give the SSA beneficiary greater access to 
services through choice of vocational provider beyond the VR system. 
Assertive Engagement/Outreach may help with this problem.
    Key elements of Assertive Engagement/Outreach approach include the 
staff work in the community in the clients own settings, outreach 
includes the possibility of home visits, clients are not dropped 
because they don't take the initiative or miss appointments, contact is 
frequent even if there is no initial response, staff make use of 
families and client support systems. Assertive Engagement is a concept 
borrowed from the Mental Health field. Participation rates in MH 
treatment were recognized as inadequate, the etiology of the problem 
could be traced to fear, lack of trust and disengagement in social 
support systems. Reports indicate that SSA beneficiaries suffer from 
similar low levels of trust and fear; front line workers report that a 
common reason given for not using the Ticket is that it is a trick. One 
of the OK-DRS Ticket Outreach staff, Judi Fretwell, writes of her 
experience.

        L  ``Both in the meetings and on the telephone, I've noticed a 
        high degree of suspicion among most of the attendees but those 
        who have been diagnosed with mental disorders seem almost 
        paralyzed with fear about the program, sometimes to the extent 
        that they can't seem to grasp the idea that it is a voluntary 
        program and that non-participation will not come back to hurt 
        them. Most consumers have been so traumatized by the process 
        they have had to follow to reach the status of SSI or SSDI 
        recipient and have been so man-handled by the system (however 
        they might define it), that any ``official''-looking envelope 
        will be immediately put aside as a threat they can't deal with 
        right away. This initial reaction complicated by the very 
        nature of their illness will extend the response time far 
        beyond that of those with physical limitations only. 
        Eventually, peer pressure or family pressure or a combination 
        of things will embolden them to call (hurdle number one) but 
        the process is so cumbersome (call Maximus for a list, call the 
        list etc.) that even people with no thought disturbances and 
        those with no depression would find it highly confusing and 
        very discouraging to follow such a ``trail of breadcrumbs.''

    Assertive engagement is a term used for a group of strategies meant 
to address barriers to service access. Traditional helping systems have 
developed self-protection strategies that increase barriers to entry as 
the work load increases. Long periods of unemployment such as many 
Ticket holders have experienced lower self-esteem and reduce resilience 
and consequently the Ticket holder's ability to tolerate long waits for 
services and assertively advocating for their needs.
    At least one new barrier to access has been created under the 
Ticket program. The EN risk assessment, a business requirement for a 
successful EN, presents a barrier to access and may represent an even 
higher bar than the access barriers in the public program. The danger 
is that the Ticket program has only increased the choice of the chosen, 
those who have good prospects of obtaining and retaining high-income 
employment. Worse yet it may simply result in payment for those who 
would have gone to work without help, paying for something that SSA got 
free last year. Creaming, selection or profiling of the best candidates 
is implicit in the outcome payment system. The Milestone payment system 
was included in the Ticket legislation to obviate some of the risk to 
the EN and lower the threshold for entry into the program. Milestone 
rates will need to increase in order to reduce EN risk, for an 
assertive engagement strategy to lead to higher levels of employment, 
rather than rising rates of rejection.
    Assertive engagement involves investing in interactive information 
delivery through a trusted, objective and stable helper. The 
beneficiary must have the sense that the information is being provided 
from their point of view with their interests as a central focus.
    The assertive engagement requires multiple outreach efforts through 
all available means, mail, phone, home visits and third party contact 
through trusted helpers, advocacy organizations and family members. 
Consistency and physical availability to meet and answer questions are 
essential. The goal of assertive engagement is to get the individual in 
the front door. The front door could be a Ticket holder Orientation 
session held at an easily accessible location such as a Workforce/One 
Stop Center. The Orientation session should cover basic work incentives 
available, the effect of work on benefits and information on available 
EN's. Ideally the available EN's would be represented at the sessions 
and be available to take applications after the session. Many of the 
existing EN's are Workforce Partners and would support this function 
for the One Stop Centers.
    The Benefits Planning Assistance and Outreach (BPAO) grants are a 
good example of this focus. The benefits planners are independent of 
the service provider system and SSA and can provide objective 
information. The BPAO effort is woefully under funded, at $23 million 
for the entire country the funding is a fraction of what it should be 
just for the Benefits Planning portion of their mission. The outreach 
function has little possibility of being operationalized unless 
adequate funding is available for the core service of Benefits 
Planning. A team effort would be ideal that included three components, 
a Ticket Outreach/Disability Specialist at the Comprehensive One Stops, 
the BPAO Benefits planner available for difficult cases and the SSA 
Employment Support Representative to attend the outreach meetings, lend 
credibility, handle earnings reports and work generated CDR's.

                                 <F-dash>

    Chairman SHAW. There is a vote on the Floor, and we think 
we have only got just a few minutes to make that vote, so I am 
going to recess just a few moments. Mr. Hayworth left early, 
you note, to go vote, and he will come back and call on Ms. 
Webb to testify, and then I will return just as quickly as I 
can too. So, we will recess just for a few moments, don't go 
far.
    [Recess.]
    Mr. HAYWORTH. [Presiding.] The Subcommittee will come to 
order.
    If this resembles some sort of power grab, let me assure 
you, that is not the case. With the generous cooperation and 
assent of the minority, and the Chairman, as the vote is going 
on on the Floor, they asked me to return and resume the 
Subcommittee hearing, and I am very pleased to do so, because 
as I understand it, the portion of the hearing picks up with 
what we might call home cooking.
    [Laughter.]
    Mr. HAYWORTH. My friends from Arizona, and I welcome our 
friend, Susan Webb, for her testimony now.

 STATEMENT OF SUSAN WEBB, DIRECTOR, ABIL EMPLOYMENT SERVICES, 
                        PHOENIX, ARIZONA

    Ms. WEBB. Well, Congressman Hayworth, you are going to know 
everything I have to say.
    Mr. HAYWORTH. The important thing, if you would yield, and 
I thank you, ma'am, the important thing is that our folks here 
and our friends who join us via C-SPAN will get to know the 
success that we have experienced in Arizona.
    Ms. WEBB. Well, then that is a deal. Thank you for allowing 
me to come and speak with you today.
    As you know, ABIL Employment Services is a participating 
Employment Network in the Ticket to Work Program, and it is 
indeed a pleasure to be here today with you. What I want to do 
is start with a brief overview of our program and our outcome 
so far. Now that, I haven't spoken to you about, and I think 
you will be pleased. Then I want to comment on the different 
elements of the TTWWIIA that have helped us to implement our 
program. I think that the comments that I am going to make 
today are actually quite positive about the program. I think 
there are a number of reasons for that, and I think that many 
Employment Networks around the country can share in our success 
if given the same opportunities that we have had.
    First of all, we began as part of a Center for Independent 
Living. We are a 501(c)(3) nonprofit, CIL, authorized by Title 
VII of the Rehabilitation Act. So, what that means is that we 
enjoy the infrastructure of the CIL. They pay our bills. They 
do our payroll. But ABIL Employment Services is a completely 
separate program within the center. We are located in a 
different building, a totally different funding stream, a 
totally different staff. I think the beauty is that ABIL 
Employment Services does only the Ticket. Everybody that 
participates in our program is a Ticket participant, so it 
allows us to focus just on this program. We have not basically 
dumped it on top of existing staff doing other things. We 
started from scratch. We were able to do that because we did 
apply for and got a very generous grant from the Nina Mason 
Pulliam Charitable Trust, which is a local foundation, and that 
was matched 100 percent by the Center for Independent Living, 
so the Center made that commitment and did provide that up-
front funding, and we have just been approved for our second 
year, and we believe that those 2 years of up-front funding 
before we start generating the break-even point that we need to 
sustain the program long term.
    I am also happy to say that when it gets into our outcomes 
we have five people on our staff. We have built up to five 
people specifically for this program, and two of those, Mr. 
Chairman, are in fact Ticket participants. We are very proud of 
that. We have taken them off the program, trained them to 
provide services to other participants in this program.
    Our results so far have exceeded our expectations and I 
want to take just a few moments to tell you what those are. We 
have accepted 109 Tickets, which is on a part with our State 
agency. It is a little different than we have heard from 
Oklahoma and Wisconsin. Our State agency and our agency in 
particular are about neck and neck in terms of Ticket 
acceptances. We have had 48 placements, so we have been putting 
people to work, and currently we have 26 people that are out 
there today working, and next you will hear from Amy Gilliland 
who is one of our Ticket participants who is in fact employed. 
We have the honor of being the Employment Network who did 
receive the very first outcome payment from the Social Security 
Administration under the Ticket program and a very lovely note 
from the Commissioner congratulating us on that.
    Now, these results are early, and I don't want to suggest 
that we have all the answers. There are challenges that any 
Employment Network will experience. For example, that startup 
funding is going to be a challenge for many Employment 
Networks, and another is collecting and reporting the earnings 
information to SSA so that we can get paid. That is proving to 
be a very, very cumbersome and almost impossible process right 
now. I know the Agency is working real hard on it, but right 
now it is taking about 120 days to get paid, and there is not a 
whole lot of Employment Networks out there that are going to be 
able to sustain that kind of cash flow problem.
    Let me tell you now, these are the operational issues that 
we went under and I believe that these are important for any 
Employment Network to be successful. As I mentioned, we are 
only doing the Ticket. We did not dump it on top of other 
staff. What that means is that we recruited staff specifically 
for this program who have the background and skill in operating 
like business, and specifically like a staffing agency. That is 
what we operate like. We focus primarily on participation's 
abilities, not on their disabilities. We are finding is because 
the majority of our staff are people who ourselves have 
disabilities, have been on the system, know what that is like. 
We are finding that participants love that our advocacy and our 
peer support is what motivates them to participate, to put up 
the good fight, and to keep going until we do achieve the 
actual job. You know the ropes, so to speak.
    Now, another key element, and I want to read this from my 
testimony because it is so important, and that is that we know 
the market. We knew going into this program a majority of 
people who are on SSI and DI are not the same people normally 
served by the State's ER system. We have known for many years 
that most people on this program were not being served at all, 
and that is not to disparage my good friends here from the VR 
system. They are very effective in working with people who 
truly need their intensive services, but the majority of people 
in SSI and DI are not those same people. The Ticket program 
requires a completely different approach, one that views Ticket 
holders as the customer and one that maintains an almost 
compulsive focus on employment, not on delivering services.
    We operate like a staffing agency, we are able to 
effectively work with employers, and because the Ticket program 
allows for 60 months of ongoing support after the beneficiary 
goes to work, we are also finding that we are a tremendous 
resource to that employer as well to keep that person working 
after they get the job.
    I have to tell you, since we operate like a staffing 
agency, one of the things we love most about this program is 
its flexibility. There is nobody in my face when I sit across 
the desk from that consumer telling me I can't do something 
because I am not funded to do it. We can sit down one on one, 
face to face, and do whatever it takes for that person as an 
individual to get off the benefits and back into the workforce. 
I love that flexibility. There is nobody I have to ask 
permission to. MAXIMUS has been wonderful. We send off the 
Individual Work Plan. When that thing is signed by me and by 
that consumer, that Ticket is assigned. We are off and running. 
We are ready to work.
    I also want to take a moment to say that in our State, and 
I know, Congressman Hayworth, you will love to hear this, our 
State Agency, our State Vocational Rehabilitation Agency is 
being wonderful. We are cooperating, collaborating. The 
agreement we have with them is fabulous. They have it with 
every Employment Network signed up in the State who chooses to 
be part of that. We are looking at doing some joint cases with 
them right now for those who truly do need those intensive 
services but also want the advocacy and peer support that we 
provide. We haven't done any yet, but we are sitting down, we 
are talking, we are identifying, we are getting ready to do 
some of those. I am real happy about that as well.
    No matter how effectively we operate, we would not be 
successful without the specific provisions of the Ticket to 
Work and Work Incentives Improvement Act, and we are finding 
those comprehensive reforms that are included in the TTWWIIA, 
as we expected, are proving extremely beneficial. The Ticket 
going directly to the beneficiary is fabulous. It sends a 
strong message that we respect them and their ability to direct 
their own lives. It also says that we expect them to direct 
their own lives. The TTWWIIA provisions that include the 
Medicare extension, the Medicaid buy-in, expedited reentry, CDR 
protections are doing their job of eliminating those fears that 
we have historically seen that prevent people from doing the 
job.
    I am going to move along quickly. The availability of 
MAXIMUS, the BPAOs as you have heard, absolutely excellent. 
SSA's been terrific. I give them a lot of credit for a very, 
very difficult program to implement. They are doing well. Where 
we see improvement, as you have heard, there is not enough ENs. 
More people need to be doing this work. The payment system is 
still a challenge. We need the ENs to be able to choose on an 
individual case basis which payment program they want to use 
for a particular consumer. We need Congress to allow us some 
payment for some work and get away from the zero out.
    In closing, let me say while I realize that I am being very 
positive here today, I know there are many who believe the 
program creates seemingly insurmountable challenges. From an EN 
perspective I believe that effective marketing, training and 
technical assistance is essential, cannot be overemphasized, 
and we need to get some nontraditional folks in here. We need 
to market better to them or find a way to market better to 
them, and then I think the potential increase is there in this 
program, in this legislation. Thank you again for the 
opportunity to be with you here today.
    [The prepared statement of Ms. Webb follows:]
 Statement of Susan Webb, Director, ABIL Employment Services, Phoenix, 
                                Arizona
    Mr. Chairman, Members of the Committee, my name is Susan Webb and I 
am Director of ABIL Employment Services in Phoenix, Arizona. AES is a 
participating Employment Network in the Ticket to Work Program. I am 
also a member of the Ticket to Work Advisory Panel, but today I am here 
commenting only as an Employment Network. It is indeed a pleasure to be 
with you today, and I thank you for inviting me to comment on how 
things are going with this new initiative. I will begin with a brief 
overview of our program and our outcomes so far. Then I will comment on 
the different elements of the TWWIIA that have helped us implement our 
program.
    We began as a separate program of the Arizona Bridge to Independent 
Living (ABIL). ABIL is a 501(c)(3) non-profit Center for Independent 
Living authorized by Title VII of the Rehabilitation Act of 1973, as 
amended. ABIL Employment Services enjoys the existing infrastructure of 
the CIL, but AES is located in a separate building with its own staff. 
This specific program ONLY serves people eligible for the Ticket 
Program. We started with just myself and an employment coordinator with 
a grant from the Nina Mason Pulliam Charitable Trust, a local 
charitable foundation. ABIL matched the grant 100%. The grant has now 
been funded for a second year. This foundation funding along with the 
CIL's match enables us to operate for the two years we estimate that it 
will take before the program achieves self-funding through SSA 
reimbursements from the Ticket to Work Program. Since we began we have 
added three more staff members, two of whom are ticket participants.
    Our results thus far have exceeded our expectations. We believe 
this program has tremendous potential to finally make a significant 
difference in the ability of those on SSI and/or SSDI to achieve 
employment with which they can support themselves and their families.
    So far we have screened/interviewed/counseled over 900 
participants. We have accepted 109 Tickets, placed 48 people into jobs 
and have 26 currently employed. We are the first EN nationally to 
receive a payment from SSA under the Ticket Program.
    These results are early, and I don't want to suggest that we have 
all the answers. Yes, there are challenges that any employment network 
will experience. For example, start-up funding and collecting and 
reporting earnings information to SSA so we can be paid are major 
issues. But there are some aspects of our operation that I want to 
highlight. I believe it is the combination of all these things that has 
made us succeed so far. These are elements that I believe are necessary 
for any EN's operations if this program is to succeed nationally.
    1. Our program started new just for the Ticket Program. We did not 
dump it on top of already overworked staff and try to weave it in with 
other programs.
    2. We recruited staff specifically for this Program who have 
background and skill in operating like a business and specifically like 
a staffing agency. As such, we focus primarily on participants' 
abilities, not their disabilities.
    3. Advocacy and Peer Support are our two most important services. 
Since the majority of our staff are people with disabilities who know 
firsthand what it feels like to live on these benefits and also how 
hard it is to get off of them, we are able to engender trust 
immediately. We ``know the ropes.''
    4. We know the market. We knew going into this program that the 
majority of people who are on SSI and/or SSDI are not the same people 
normally served by the VR system. We have known for many years that 
most people on this program were not being served at all. That is not 
to disparage the VR system; they are very effective in working with 
people who truly need their intensive services. But the majority of 
people on SSI and/or SSDI are not those same people. The Ticket Program 
requires a completely different approach--one that views Ticket holders 
as the customer and one that maintains an almost compulsive focus on 
employment as the outcome, not delivering services.
    5. Because we operate as a staffing agency, we are able to 
effectively work with employers. Because the Ticket Program allows for 
60 months of ongoing supports after the beneficiary goes to work, we 
are also an ongoing resource for the employer.
    6. The program is flexible. We are able to sit down with a 
participant and do whatever we need to do to get them working. We are 
not faced with a traditional program that calls the shots and makes the 
rules. We are not told by a funder what we can and cannot do. We don't 
have to go through bureaucracy and approval processes before we can 
work with someone. For us as an EN and also for the beneficiaries this 
has proven to be refreshing at the very least.
    7. In Arizona the State VR agency is being wonderful to work with 
in implementing this program. They have established the required 
agreement with all the ENs who wish to participate so that we can work 
some joint cases together. We haven't actually done any yet to see how 
things will work out, but the spirit of collaboration and cooperation 
is very evident. I am confident that the Ticket Program will greatly 
expand the availability of services through the State agency since it 
will bring them more reimbursements too.
    No matter how effectively we operate we would not be successful 
without the specific provisions of the Ticket to Work and Work 
Incentives Improvement Act. We are finding that the comprehensive 
reforms included in the TWWIIA, as we expected, are proving extremely 
beneficial:
    1. The Ticket is going directly to the beneficiary. This sends a 
strong message that we respect them and their ability to direct their 
own lives; it also says we expect them to do so. We are seeing 
incredibly motivated, talented people with tremendous work ethic who 
are so excited about this new opportunity. People with all types of 
disabilities, all levels of education and all ethnic groups are 
included in our program. They are wonderful people, and we are honored 
to have the opportunity to help them find the direction they need to 
get themselves out of poverty and add to our nation's productivity.
    2. TWWIIA's provisions for the Medicare extension, the Medicaid 
Buy-In, Expedited re-entry and CDR protections are easing the fears 
participants have that have historically prevented them from trying to 
work. They now can at least try without fear of losing those safety 
nets.
    3. The availability of a private entity, MAXIMUS, and local 
Benefits Planning and Assistance is providing much-needed, timely and 
accurate information to participants so they can truly understand their 
own specific situation and how work will affect their benefits.
    4. By virtue of the TWWIIA being so comprehensive, it is also very 
complex. I give many KUDOS to the SSA itself for doing such a yeoman's 
job, even during the switch to a new Administration, in implementing 
this program. It has been an amazingly huge job to get this thing 
going. They have done a fantastic job and have done it in a timely 
manner when they could have found all sorts of reasons to delay things.
    The areas that still need the greatest amount of work are:
    1. We have not yet achieved enough choice for consumers. There are 
not yet enough ENs and those who have signed on are traditional 
providers for the most part who seem to be doing business much the way 
they have always done it. It is my fervent hope that more providers 
with a different approach can be recruited to participate in this 
Program.
    2. The EN payment system is a real challenge. There are three 
things I think would help. First, ENs should be able to choose on an 
individual case basis as to whether they want to use the milestone/
outcome plan or outcome only plan. This would better enable ENs to 
serve people regardless of which work incentives they might use. 
Second, Congress should allow some form of payment even when a 
beneficiary does not totally leave benefits. I believe all work is 
valuable and some work is better than none. We are turning people away 
who need or want to work part time simply because the payment structure 
does not allow us to serve them. We are also turning SSI beneficiaries 
away whose initial earnings potential is not above the $1,174 break-
even point. Third, the SGA level for purposes of being paid should be 
the same for blind and non-blind beneficiaries.
    In closing, let me say that while I realize that I am being quite 
positive here today, I know there are many who believe the program 
creates seemingly insurmountable challenges. From an EN perspective I 
believe that effective marketing, training and technical assistance is 
essential for ENs, especially non-traditional ones, to be able to 
successfully participate. We need all our stakeholders working 
together. The potential increase in employment and savings to the Trust 
Fund are enormous and long-overdue. I firmly believe the TWWIIA 
includes the basis for great success. Thank you again for the 
opportunity to be with you today.

                                 <F-dash>

    Mr. HAYWORTH. Susan, we thank you for the testimony, and 
appreciate hearing your perspective, and think back to actually 
issuing a couple of tickets with Commissioner Barnhart in 
Tempe, and one such recipient, though I don't believe that 
particular day, is our next witness, the aforementioned Amy 
Gilliland, who is a participation in this program. Amy, 
welcome, and if you can summarize your testimony in 5 minutes, 
your complete statement of course is submitted for the record.

    STATEMENT OF AMY GILLILAND, PARTICIPANT, TICKET TO WORK 
                   PROGRAM, GLENDALE, ARIZONA

    Ms. GILLILAND. Yes. I kind of changed around my testimony 
if that is okay with you.
    Chairman SHAW. That is great, Amy.
    Ms. GILLILAND. First I would like to say thank you for 
letting me come here to Washington, DC, to share my testimony 
with each and every one of you. It is such an amount of 
gratitude that I have to be a part of something critical and 
essential for public users, you know, people like me who 
desperately need a little extra help.
    I grew up pretty rough. I truly think I did a little bit of 
damage to my brain through chemical structure, through drugs 
and alcohol, to be honest with you. My disability happens to be 
psychiatric, and I am on medications and so forth, and luckily 
enough I just celebrated 4 years on sobriety on September 5.
    I am not quite sure why it is that the government is 
willing to go above and beyond their obligations. To me it 
makes no sense. I work and they are still going to pay me. I 
don't get that, but I think it is amazing. It is wonderful. I 
mean, how could I ask for anything more?
    I turned in my Ticket to other companies. ABIL responded to 
me instantaneously. That feels great to feel that I am able to 
stand on my own two feet, that I am able to participate in life 
again. It is amazing. You wonder when you have such a low self 
esteem why it is. Then you get a job and you actually get into 
that working field and you are getting that regular paycheck, 
and you are paying your bills and things such as that, and you 
are going, ``Oh, God, that is it. That is what it is about.'' 
And ABIL, I can only speak on ABIL because like I said, they 
responded to me, and they have been nothing but compassionate, 
proficient and have treated me as a human being. They haven't 
treated me as someone who is disabled. They haven't treated me 
as somebody who is crazy. They have treated me as a human 
being, as themselves, no lower, no higher, just the same, which 
has been wonderful.
    Thank you from the bottom of my heart for giving me this 
opportunity amongst you all to share my experience, strength 
and hope. Like I said, I hope that you stick with this Ticket 
to Work program, because it certainly has made a profound 
impact in my life. It has allowed me to start feeling as though 
I am a--I am learning to be a productive Member of society 
again, and it is really nice. I really do appreciate it. So, 
thank you very much for letting me share.
    [The prepared statement of Ms. Gilliland follows:]
   Statement of Amy Gilliland, Participant, Ticket to Work Program, 
                           Glendale, Arizona
    Mr. Chairman, Members of the Committee, my name is Amy Gilliland 
and I am a participant in the Ticket to Work Program. Thank you for 
inviting me to be with you today. I am 22 years old and am a SSDI 
beneficiary due to a psychiatric disability. I also have a long history 
of drug and alcohol abuse, and I am proud to say that on September 5 of 
this year I celebrated four years of sobriety.
    It is safe to say that I have led a rocky life, one complicated by 
my psychiatric disability. Earlier this year I received the Ticket to 
Work in the mail. I saw the Ticket as a great opportunity to change my 
life--to realize my aspirations to become somebody. I don't want to sit 
around doing nothing. I don't want to suck the system dry. Until I 
received the Ticket I really didn't think I had much chance to get the 
help I needed to go to work and become self-supporting again.
    I called a few of the Employment Networks on the list that was sent 
to me. None called me back except ABIL. They were very encouraging. I 
liked the fact that there were people willing to spend the time with me 
to explore my options. We talked about what I wanted to do and how I 
might get there. We really went into depth. We explored my interests 
mentally and socially as well as professionally. I chose to deposit my 
Ticket with ABIL and they accepted.
    Unfortunately, I was still having a lot of trouble with my mental 
illness. I really wasn't ready. I have training as a Certified Nursing 
Assistant so initially I told ABIL I wanted to go in that direction. I 
guess I felt obligated to use that training since I worked so hard to 
get it. ABIL was very helpful in continuing to call me with different 
job opportunities in that field.
    After several months of trying to get my health stabilized I 
realized that I didn't want to go into nursing. Lynda at ABIL was very 
understanding. She encouraged me to pursue new and different ideas. She 
was there when I needed a sounding board. She told me not to push 
myself too hard and to be sure I was really ready to work before I did 
so. But she kept checking in with me to be sure I was okay. Each time 
she was patient and spent the time I needed to feel comfortable with 
going back to work. She had a way of pushing me just hard enough so 
that I wasn't languishing but not too hard to shove me over the edge.
    I'm proud to say that I am now working at Albertson's as a customer 
relations representative in their store. I make $8.65 an hour and feel 
I can build a career there. Albertson's is a great employer and offers 
lots of training to their employees so we can move ahead and make 
really good money. My prescription drugs are still supplied by Value 
Options, a public mental health program in Arizona. Eventually, I will 
receive full benefits from Alberston's. I plan to stay in the grocery 
business but I also want to get my Bachelor's degree and maybe even a 
Master's degree someday. I even have a dream to publish a series of 
children's books.
    But because of the Ticket to Work Program I know that if I lose my 
job tomorrow, Lynda will be there to help me find something else. I 
really love the Trial Work Period. You need the most help when you're 
just starting out. And to keep my benefits for a full year while I 
increase and stabilize my earnings potential is just great!
    Thank you for the Ticket to Work Program. This Program will not 
only help me be successful but many others just like me. And thanks for 
inviting me here today for my very first visit ever to Washington, D.C.

                                 <F-dash>

    Chairman SHAW. [Presiding.] Thank you for that moving 
testimony. It makes you feel good to be able to pass laws like 
that, and we appreciate your testimony. Mr. Gadaire.

  STATEMENT OF DAVID GADAIRE, PROGRAM DIRECTOR, CAREER POINT, 
                     HOLYOKE, MASSACHUSETTS

    Mr. GADAIRE. I am not sure I want to follow that.
    [Laughter.]
    Mr. GADAIRE. After following home cooking, that may be the 
most powerful testimony. I feel like this might be a bit of a 
set up. I don't think I can match that.
    I guess I would want to start with a thank you, and maybe 
more importantly a thank you to the staff who somehow managed 
to get me here. I am not sure how that happened, but to get 
something this size from Holyoke to here and back again in 1 
day is pretty much an impressive thing, and I am impressed by 
that, so thank you.
    I am here as a supporter of the Ticket. I am here as an 
operator of a one-stop career center, and I guess that makes me 
a little bit out of place. I am here hopefully to make some 
ideas and some suggestions. Given my 20 years of disability 
employment advocacy before I got into the one-stop management 
business, I feel like I know a little bit about this stuff, 
although certainly I am humbled by the panel.
    I will say that I think this is probably maybe the best 
equal rights legislation for employment of people with 
disabilities that I have seen in my lifetime, and the 
suggestions I offer, I offer as enhancements and not as 
anything other than that. They come, frankly, from a little bit 
of hands-on experience. They come from a constant dialog with 
other ENs and other community based organizations, frankly, 
that have decided not to be ENs. So, with that, let me just 
kind of throw it out here.
    I basically have nine suggestions or thoughts or opinions, 
and I will do my best to get that done in 5 minutes. First, I 
would absolutely concur that benefits planning is the key to 
this. I think an educated customer makes this whole thing work. 
We brought a benefits planner into our center about a year 
before we became an EN, and upon her arrival, a number of 
people living with disabilities who came through our doors 
quadrupled. We were able to hit the ground running when the 
Ticket became available, when we became an EN. I am told that 
we were the first career center to become an EN, the first to 
get an actual Ticket assignment, the first to actually get a 
successful employment out of it, but given how I think poorly 
the career centers have stepped up to this, I am not sure I say 
that with pride, but it is my shot, I will take it.
    Second, I think that it is absolutely imperative that the 
Employment Networks have the opportunity to toggle back and 
forth on payment plans. I actually believe that if we are 
forced to make that decision upon application, we then will 
market to a certain type of customer, and I believe eventually 
we will be more motivated by the revenue than the actual 
service. I think that is a mistake. I think we should build 
systems that are customer driven and are revenue driven. I 
think that we can change that. I don't think that would be a 
hard thing.
    Third, I also think there needs to be provisions for part-
time employment. As a workforce development professional, part-
time employment is an absolute integral part of anyone's career 
plan, and I would suggest that it needs to be taken seriously 
here. My greatest fear is without making that change, this 
legislation would slowly start to move away from the people 
with the most severe barriers, and frankly, we would provide 
ammunition to those people who are willing and quickly going to 
call that this is a ``creaming'' program, and frankly, I don't 
want to be a part of that.
    Fourth. I think that the employment services representative 
concept is a brilliant one. We tell people that changes in your 
employment really become one of the four major stressors in 
one's life. If that is the case, dealing with SSA is the fifth.
    [Laughter.]
    Mr. GADAIRE. I absolutely believe that an employment 
service representative can act as a buffer and can minimize the 
amount of distraction that needs to happen or that does happen 
when a person takes on new opportunities through employment.
    Chairman SHAW. I would say, sir, that happens to us every 2 
years.
    [Laughter.]
    Mr. GADAIRE. I am not going to disagree with you on that 
one. I would say that number five, I think that the Employment 
Networks and the State VR systems ought to be compensated in a 
similar way. My greatest fear is there is great talent on both 
sides, and that if they are compensated differently, we will 
eventually drive a wedge between them. I know that already 
happens in the one-stop system, so I am concerned about this. I 
believe we would rather build a bridge to each other's system 
because I don't want to replicate what they do so well, and I 
certainly don't want them to spend time and money replicating 
what I do well.
    I would say, number six, that now that we have Ticket on 
demand, I would say that in spite of what was said earlier, I 
am nervous that the Employment Networks--we need more of them--
could get overwhelmed, and I think if they get overwhelmed, we 
will start to do quantity management as opposed to quality 
management. Now that you can get Ticket on demand, we could 
probably slow that down a little bit.
    Number seven, there is a significant capacity issue, 
especially given how we are funded. The people that are 
eliminated from becoming ENs in this system are the small 
community based organizations, and in some cases, the small 
community based organizations are the lifeline for people with 
the most severest of disability. So, I am concerned about that. 
I think we have to find a way to come up with some kind of up 
front or planning resource to help them get off the ground.
    Number--what number I am on, you keep track--I think that I 
would suggest that we let the Employment Networks actually do 
the employment marketing to the employers. I think that in 
spite of what we want to think here, there is still an 
overwhelming perception of stigma and fear that exists in 
employers. I think that if we are going to make a change, we 
are only going to do it from a trusting relationship. I mean no 
disrespect by this: I think when we say that comes from the 
government, I frankly don't think they are listening, so I get 
concerned about that.
    My last suggestion is I believe we need to spend time and 
effort and resources to develop a cross-match between the 
computer systems that issue the SSI and SSDI payments to the 
computer systems that monitor and track the Employment 
Networks, because all of this is all based on relationship, and 
I believe that there is a relationship between the Employment 
Network and the customer, and there is a relationship with the 
employer. I don't believe asking somebody personal financial 
information is a natural relationship builder. I actually 
believe it becomes a force, a blockade. I believe the 
technology exists. I understand resources are a problem, but I 
think in the long run, this suggestion will actually save more 
money over time.
    With that said, I thank you for the opportunity to be here. 
I am not sure I am home cooking, but I know I am hungry.
    [Laughter.]
    Mr. GADAIRE. I would suggest that if we can be of any help 
personally or our organization, we are willing to do so. So, 
thank you very much.
    [The prepared statement of Mr. Gadaire follows:]
 Statement of David Gadaire, Program Director, Career Point, Holyoke, 
                             Massachusetts
    First let me express my appreciation for the efforts put forth to 
get me here. I appreciate the efforts and feel bad for y'all if you 
need to expend this amount of effort and all you get is to listen to 
me.
    I am told that I need to get my point across in five minutes or 
less, so let's dispense with the chitchat and get to it.
    Before running a OSCC I spent 20 plus years in the disability 
employment business and the concepts of `Universal Access' and `no 
wrong door' are what attracted me to the OSCC business. Categorical 
funding challenges these concepts but that is an argument for another 
day and another committee.
    The decision to become an Employment Network The Ticket to Work 
opportunity was a `no brainer' for CareerPoint, and I proud to report 
that CareerPoint was the first One Stop in the nation to become an 
`employment network', the first to have a ticket assignment and the 
first to realize an employment outcome based on our efforts.
    Having said that, I feel that the Ticket to Work legislation is the 
finest example of equal rights legislation for people living with 
disabilities that I have encountered in my humble career. I fully 
believe it is a perfect match for the mission of the OSCC's, and 
although I fully support this legislation, I do believe there are 
potential improvements that will enhance the impact and just maybe 
actually put a dent in the unemployment rate for people living with 
disabilities.
    Simply put the following 9 suggestions are the results of our 
(CareerPoint's) hands-on--experience combined with a continual 
commentary with other `employment networks' and/or Community-based 
organizations either deciding to become an `employment network' or 
having made the decision not to.

        <bullet> L1. Enhance to role of benefits planning in the 
        legislation. Although we have a benefits planner out-stationed 
        at our center, not all EN's have full access to this. We added 
        the benefits planner before becoming and EN, and our numbers 
        have quadrupled since benefits planning became part of our menu 
        of services. An educated customer has the greatest chance at 
        success, and benefits' planning improves the potential for 
        success.
        <bullet> L(N.B. CareerPoint has a co-location memorandum of 
        agreement with The Resource Partnership & shares any 
        interpretation of success with talent and quality they bring to 
        our table)
        <bullet> L2. I strongly suggest building in the ability to 
        toggle back and forth between payment choice options. By 
        mandating this decision in the application process we are 
        forcing to the EN's to cater to recruiting based on revenue 
        potential. The ability to modify the payment option based on 
        the needs of the customer is a time-tested concept. The very 
        legislation designed to open employment doors can close them 
        for some of the recipients. Our goal needs to be to flex our 
        programs to the needs of the customer, not find customers that 
        meet the design of our programs.
        <bullet> L3. Whether intentional or not, the legislation is 
        geared toward people that have the ability to work full time, 
        and minimizes the options for people needing or wanting to work 
        part time. I suggest that part time work is a crucial part of 
        almost any career plan at one time or another, and `people 
        living with disabilities' are not different. I further suggest 
        that failure to address this will unintentionally invite those 
        deterrents prepared to suggest this is a `creaming' program.
        <bullet> L4. I understand we are considering legislation to 
        include the support of an Employment Support Representative. 
        This simple addition would legislate a circle of support for 
        our customers. As a Career Center, identifying and developing 
        an individuals `circle of support' may be the most valuable 
        career counseling advise we offer.
        <bullet> L5. I fully acknowledge that I have no idea how to do 
        this, but the payment mechanisms for EN's and State VR need to 
        be the same. Neither side would suggest this is a good system 
        as it now stands, and, at least for Career Centers, I believe 
        will only serve to widen the gap between the two service 
        provision models. For the people benefiting from this 
        legislation, we need to combine our respective expertise, and 
        not compete. The Person living with the disability should not 
        be put in the middle of this growing turf-driven debate.
        <bullet> L6. Now that we have added the concept of a `ticket on 
        demand', I fully support spreading out the mailing and 
        marketing strategies, so the limited numbers of EN's don't get 
        so consumed that quality might suffer to quantity.
        <bullet> L7. I truly don't have an idea on how to do this, but 
        if we really want to maximize the number of EN's we need to 
        come up with some way of building in some up front or planning 
        money. Capacity is forcing potential EN's away from the table, 
        and people living with disabilities are experiencing lesser 
        choices as a result.
        <bullet> L8. Let the organizations do the marketing and 
        outreach to employers. Although support is needed at so many 
        levels, I think the employer world is still dominated by stigma 
        and fear, and therefore needs recognize the positive business 
        aspect of a diverse workforce. This will only come when it is 
        outlined and presented through and existing relationship. 
        Although many organizations may need and use supportive 
        research, I believe the actual communication with employers, 
        maybe the most important ingredient in the future success of 
        this program should be done by the local EN.
        <bullet> L9. Finally, and maybe the most difficult suggestion 
        to solve, I strongly, strongly believe that a cross match needs 
        to be developed between computer systems tracking SSI and/or 
        SSDI payments to the computer systems tracking EN progress. The 
        success of this program may ultimately lie somewhere in the 
        relationship between the EN and the person living with the 
        disability. As long as either side of this relationship is 
        forced to either request personal financial information or 
        forced to provide this information, there is an unnatural 
        component that would challenge even the most positive of 
        relationships.

    I realize I have flown through these ideas in an attempt to play by 
the five minute rule and need to be back in Holyoke by 5PM, but I can 
be reach for comment, rebuttal or some good old fashion debate at 413 
532-4900 or on the web at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9ddded8ddd8d0cbdcf9dddccdd4d897d6cbde97">[email&#160;protected]</a>
    Finally, I would be remiss is I didn't offer the fact that as 
Executive Director, I am somewhat of a figure-head in this process. The 
true success is based on the work of Leslie Brooks (Career Counselor 
extraordinaire), Teri O'Shea (benefits planner), Lucy Carlson (Employer 
Account Representative), Joanne Tyler (ground breaking Career 
Counselor), Jane Peoples (Director of Operations) and a full compliment 
of the best staff that has ever been assembled. CareerPoint has been 
voted the Nation's best Career Center by the National Alliance of 
Business, and that honor is truly the result of the hard work and 
dedication of the people making up the CareerPoint team and family.
    My sincerest thanks for the opportunity to express my opinions and 
offer my personal and organizational support to the resolution of these 
or other enhancements.

                                 <F-dash>

    Chairman SHAW. Thank you. Mr. Decker.

  STATEMENT OF CURTIS L. DECKER, EXECUTIVE DIRECTOR, NATIONAL 
         ASSOCIATION OF PROTECTION AND ADVOCACY SYSTEMS

    Mr. DECKER. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you today. I am Curt Decker, and I 
am the Executive Director of the National Association of 
Protection and Advocacy Systems.
    The Protection and Advocacy Systems are 57 programs 
throughout the country in every State and territory that have 
been providing legally based advocacy services to people with 
disabilities for over 25 years. The Ticket to Work Program 
added funds to our program to build our capacity to be 
available to represent individuals who would take advantage of 
this program.
    Now, people come to me when they are unhappy, so my 
testimony may not be as positive. That said, we are an integral 
part of the Ticket to Work constellation of services, and 
support this effort, and want to see it reach its full 
potential. I also want to thank the Subcommittee for addressing 
some of the technical problems in the first round with H.R. 
4070 and we hope to see that bill passed by the full Congress, 
which will address a couple of issues that I want to raise, and 
hope that you will revisit those as a result of the testimony 
you receive today.
    We are in every State and territory, we are in a unique 
place to see how the Ticket is working in the 13 roll-out 
States, and also at the range of barriers to full employment 
that people with disabilities face, and some of these things 
have already been mentioned, but let me just reiterate.
    We think that the lack of information up front to consumers 
about the Ticket to Work Program has probably led to the large 
volume of questions. For many people, their first thought about 
going back to work was a letter from Social Security saying, 
``Here is a ticket. Why don't you go back to work?'' We think 
that if there was in the States that are about to be rolled 
out, more information provided to the general public, e.g., 
that this program is in place, and its purpose that a lot of 
the volume of initial queries, there would decrease. There is a 
lot of confusion and fear on behalf of consumers. We might be 
able to use those resources that the ENs and the BPAOs and 
other agencies involved would have to disseminate information.
    We are concerned about the fact that while the programs 
intent was to expand the choices and opportunities for people 
with disabilities in work, that it looks like the VR system is 
the big winner, and that they are providing about 80 percent of 
EN services, and that was not the intent of the law when it was 
first enacted, and we have seen cases of some very aggressive, 
over aggressive in our feeling, or trying to convince Ticket 
holders to place their Ticket with the VR agency. We have been 
able to negotiate with some of those VR agencies in several 
States to make sure that we think might be something verging on 
coercion is not in fact going to continue. It does raise the 
whole issue of this fight for reimbursement and the attempt at 
trying to maximize payments out of this program, and we think 
that that is going to be something that this Subcommittee needs 
to look at.
    We are disappointed in the fact that there are not a larger 
number of ENs out there providing more choice and opportunity, 
and we are also concerned about some ENs not willing to take on 
the more difficult clients to serve and just simply turning 
people away.
    While we support the benefits planning activity and think 
it is essential to the success of this program, there are some 
conflicts inherent in that program as well. Many VR agencies 
are also BPAOs, and so if there in fact is an effort to try to 
direct people to place their tickets in the VR agency, if the 
benefit planning agency is in fact that very same agency, there 
may be some conflicts that need to be looked at.
    We are seeing, not only in the Ticket States, but in the 
other States, as people attempt to go to work prior to 
receiving a ticket, a whole range of barriers to employment 
that have to be addressed, and again, these are not always in 
your jurisdiction, but it is quite a daunting list of things 
that have to be in place to make sure that people cannot only 
get jobs but maintain their jobs. They range, everything from 
just architectural barriers to discriminatory actions by 
employers; the very complicated number of work incentive 
programs which we feel are not all that adequately understood, 
even by the agencies that have the responsibility to explain to 
clients what these programs are, things like Plan for Achieving 
Self Support plans and Impairment Related Work Expenses, things 
that Social Security has in place. We find that many of the 
Social Security staff have not been adequately trained to be 
able to explain how those programs work so people can take 
advantage of them.
    Obviously, the problem that has been addressed before of 
overpayments, a major problem, been in place for many years. It 
is great to hear that Social Security is trying to figure out a 
way of dealing with that, but until they do, overpayments, the 
threat of overpayments, the perception that you will get an 
overpayment, is very great out there in the field, and a great 
disincentive to people pursuing this program. That is worsened 
by the fact that Social Security has forbidden the Protection 
and Advocacy Program to represent people in that area. I have 
not had the same experience that Ms. Webb has had. Our program 
has been constantly told what we couldn't do, argued with about 
the role we have, trying to restrict our services, when in 
fact, I think the intent of Congress was to make sure that we 
were there in place to protect people in the full range of 
issues that they would face in returning to work, and we would 
ask that you look at those issues as well.
    We are concerned about some of the programs that do not 
work well together. Just one, and then I will close, is the 
fact that in 37 States, VR agencies have orders of selection, 
and under the Ticket program if you are in an order selection 
State and placed on a waiting list, you really aren't still 
protected with the fact that you may be exempted from a 
continuing disability review, and these are the kinds of 
complicated inter workings that need to be understood and 
explained to clients to make their experience a useful one.
    So, in closing I would just say that we ask you to review 
the payment system to ensure that there are stronger safeguards 
for clients, provide better information to beneficiaries and 
provide better flexibility to our program so that we can 
fulfill our mandate to protect people in this program. Thank 
you.
    [The prepared statement of Mr. Decker follows:]
Statement of Curtis L. Decker, Executive Director, National Association 
                   of Protection and Advocacy Systems
    Chairman Shaw, Representative Matsui, and Members of the 
Subcommittee, I am Curtis Decker, the Executive Director of the 
National Association of Protection and Advocacy Systems, the membership 
organization for 57 federally-funded state and territorial systems that 
protect the rights of individuals with disabilities. P&As comprise a 
nation-wide network of federally-mandated, disability rights agencies. 
P&As teach self-advocacy skills, provide education, training, 
counseling and advice, engage in mediation and negotiation, conduct 
investigations, monitor services, and bring legal challenges to civil 
rights violations based on disability. Our services provide enduring 
improvement to the quality of life for children and adults with 
disabilities and their families.
    The P&A system is the one longstanding system of disability-related 
advocacy services that is available in every state. P&As provide 
advocacy services under the following programs: Protection & Advocacy 
for Persons with Developmental Disabilities (PADD), Protection & 
Advocacy for Individuals with Mental Illness (PAIMI), Protection & 
Advocacy for Individual Rights (PAIR), the Client Assistance Program 
(CAP) Protection & Advocacy for Assistive Technology (PAAT), and the 
newest P&A program, Protection & Advocacy for Beneficiaries of Social 
Security (PABSS).
    The PABSS program was established in 1999 when the bipartisan 
Ticket to Work and Work Incentive Improvement Act (TWWIIA) which was 
enacted into law. The intent of this Act was the provision of health 
care, employment preparation and placement services to individuals with 
disabilities. The legislation also established a return to work 
``Ticket'' program to allow individuals with disabilities to seek the 
services necessary to obtain and regain employment, thus reducing their 
dependency on cash benefit programs. At that time, Congress recognized 
that many people with disabilities face major barriers in their efforts 
to leave the benefit rolls for full employment. Therefore, Congress 
authorized the Commissioner of SSA to make payments to the protection 
and advocacy (P&A) system in each state for the purpose of providing 
information and advocacy services to beneficiaries with disabilities 
who want to work and to provide advocacy or other services that 
beneficiaries with a disability may need to secure or regain gainful 
employment. These State Grants for Work Incentives Assistance to 
Disabled Beneficiaries are better known as Protection and Advocacy for 
Beneficiaries of Social Security (PABSS).
    Because PABSS programs are providing advocacy services directly to 
beneficiaries with disabilities, P&As are keenly aware of what is--and 
is not working--with respect to the implementation of the Ticket to 
Work and Work Incentive Improvement Act. There are numerous issues that 
we believe pose challenges not only for Social Security beneficiaries 
involved in the implementation of the Ticket to Work and Work Incentive 
Improvement Act, commonly known as TWWIIA, but for all people with 
disabilities who want to work. We look forward to working with Social 
Security and the Subcommittee in meeting these challenges and 
fulfilling the goals of the legislation.
HR 4070--Advocacy to Maintain Jobs
    There are a number of things that NAPAS' wants to accomplish with 
this testimony today. The primary thing is to respond to the 
Committee's request for information on TWWIIA implementation so far. 
However, before I get into specifics in that area, I want to thank the 
Committee for recently including language in H.R. 4070 which will help 
PABSS Programs be even better advocates for beneficiaries with 
disabilities seeking employment. As we all know, getting a job is only 
the first step. Once beneficiaries with disabilities get jobs, they 
need help to maintain their jobs. They need somewhere affordable to 
live close to their jobs. They need accessible and affordable 
transportation to get to work. They need to know that they have the 
right to reasonable accommodations in their jobs. When beneficiaries 
can't keep their jobs because of these and other barriers, they go back 
on cash benefits, thus reducing the savings to the Social Security 
Disability Trust Fund. Therefore, we believe that helping beneficiaries 
keep their jobs is just as important as helping beneficiaries get jobs. 
Congress recognized this when it enacted TWWIIA, expressly stating that 
purpose of the legislation was to ``establish a return to work ticket 
program that will allow individuals with disabilities to seek the 
services necessary to obtain and retain employment and reduce their 
dependency on cash benefit programs.'' The Committee recognized this 
when it clarified in HR 4070 that advocacy to ``maintain'' employment 
was an important PABSS program activity.
    Unfortunately, the Social Security Administration has instructed 
the PABSS program to remove advocacy services for beneficiaries who are 
trying to ``maintain'' employment from its list of program activities, 
even though it is obvious that it is a critically important PABSS 
function. If Social Security's restrictive interpretation of the scope 
of PABSS services were adopted, the following beneficiaries would have 
lost their jobs and gone back on full cash benefits:

        <bullet> LIn Delaware, an SSI beneficiary hurt himself on the 
        job because his job coach was sitting in a car reading a book, 
        rather than supervising and coaching him on his job tasks. The 
        Delaware P&A got the negligent job coach fired and advocated 
        for a new job coach at a different work site. The beneficiary 
        is working today because the Delaware PABSS program got him the 
        job coaching he needed.
        <bullet> LIn Illinois, a woman stopped working when she got a 
        letter from Social Security informing her that her trial work 
        period and cash benefits had ended. She contacted the Illinois 
        P&A, which provided her with information about trial work 
        periods and helped her explain her absences to her employer. 
        Without the Illinois P&A, she would not be working today.
        <bullet> LIn Michigan, an SSDI beneficiary who is blind, was 
        working as a reservation clerk. She needed a screen reader to 
        access computer data. When the employer refused, the P&A and 
        her union intervened. She got the reader and is continuing to 
        work.
        <bullet> LIn New York, the P&A is representing a beneficiary 
        with a disability who cannot get to her job because the para-
        transit company does not have a usable wheelchair lift. Without 
        this advocacy, the woman would stop working.

    Thank you committee members for approving HR 4070 and recognizing 
that people with disabilities who return to work need advocacy to stay 
at work.
What P&As Report in the 13 Roll-out States
    While the intent of TWWIIA was to remove barriers to employment, 
the changes in the law have yet to eliminate previously known barriers, 
nor enhance the service delivery system. While this is an immediate 
problem in the 13 roll-out states, it also will be a problem in future 
states if substantive changes are not made to the program. People with 
disabilities still face a number of significant barriers to employment 
including (a) a lack of public understanding of TWWIIA; (b) the fact 
that at state VR agencies, it is still ``business as usual''; (c) 
problems specific to Employment Networks; and (d) problems specific to 
Benefit Planning Assistance and Outreach.

The Public's Understanding of TWWIIA is limited

    Although the legislation makes significant changes to the work 
incentive provisions under the SSA programs, there has been no public 
education campaign to inform the disability community at large of the 
improved work incentives, including extended access to Medicare or the 
``easy back on'' provisions for trying work. In fact, until the 
beneficiary received his ticket in the mail, they had probably given 
little thought to working, perhaps remembering the problems they faced 
before, or perhaps recalling the overpayment horror story told by their 
neighbor when they went back to work. While training for professionals 
has been fairly common, consumer training has been pieced together by 
provider and disability organizations, or other community groups. These 
groups have been attempting to convey information to a confused 
beneficiary population. As a result, the public perceptions about what 
the ticket is--and how it works--is muddled. For instance, while a 
community group may understand the importance of benefit planners, they 
may not understand why the Employment Network has so much discretion to 
determine the services they will provide to a beneficiary. There have 
been at least two articles published in the national media blasting the 
limitations of the Ticket program where beneficiaries were not able to 
access the type of services they wanted and therefore felt the program 
did not meet the stated goals.
    With little information available, ticket holders have flooded the 
MAXIMUS call center with requests for information. Staff there have 
struggled with deciding how much information to provide at one time, 
taking criticism from advocates who believed that callers should be 
told about all the services and supports available to help them go to 
work, and that all of this information should be provided without 
regard to the question being asked by the caller.
    P&As have also received it's share of calls and questions and have 
spent a great deal of time talking to beneficiaries about returning to 
work, their employment rights under the ADA, and how to choose an 
Employment Network.

State Vocational Rehabilitation Agencies/Business as Usual

    In the provider community, VR is viewed as controlling and 
``raiding'' the ticket program. Although Vocational Rehabilitation 
agencies came together at the Seattle Symposium to plan for the Ticket 
implementation, counselors have not been trained on TWWIIA or the 
Ticket Program. What they have received is instruction on how to handle 
the tickets. Following their agency direction, many counselors have 
placed pressure on existing clients to assign their ticket to VR. 
Counselors believe this is a requirement for the continued receipt of 
VR services. They do not realize that use of the ticket is voluntary 
and that the provisions and procedures of Title I of the VR program 
apply to Ticket holders, despite TWWIIA.
    Another issue is when, and how, the Comparable Services and 
Benefits provisions (of the Title I VR program) apply. Clients who have 
assigned their ticket to an Employment Network are often told that they 
cannot receive services from VR because it would be a duplication of 
services, even though different services are being provided. For 
example, VR may be providing computer training and the EN may be 
providing job readiness and job search assistance. Yet, in more than 
one state, clients have been told that they must choose one service 
provider, preferably VR, over the other. According to the 
Rehabilitation Act, ``comparable services and benefits'' are services 
provided or paid for in part or whole by other Federal, state, or local 
agencies. These services are available to the individual at the time 
needed to further the progress of the individual toward achieving his/
her identified employment outcome. The intent of this provision is to 
ensure the identification of financial responsibility by a variety of 
agencies for providing such services. It is not intended to preclude 
the individual from receiving such services.
    Thirty-seven (37) state VR agencies are operating with budgets that 
restrict services to individuals with ``significant disabilities'', 
which includes Social Security beneficiaries. These states have 
established an Order of Selection, which establishes strict criteria to 
be met in order for an applicant to receive services. If they do not 
qualify, based on the established criteria, the clients are placed on 
``waiting lists'' for in indefinite period of time. Counselors in 
certain roll out states, that have adopted an Order of Selection, have 
accepted, and ``held onto'' beneficiary tickets without advising the 
beneficiary that they could be better served by taking their ticket 
elsewhere. Since tickets are not assigned until an individual plan is 
developed, clients often are under the false assumption they are 
complying with TWWIIA requirements and are exempted from a CDR. In 
fact, they are not in compliance with TWWIIA, not getting services, and 
not protected.

Employment Network Issues

    Despite active recruitment on the part of the Program Managed, the 
number of Employment Networks continues to be limited in the roll out 
states. This restricts a client's ability to choose from a range of 
services and service providers. ENs under contract with SSA have the 
ability to reject a beneficiary's ticket, further limiting a ticket 
holder's option to obtain services needed to go to work. While there 
has been considerable debate over the voluntary design of the program, 
many advocates feel that ENs have too much discretion to pick and 
choose. There is concern that clients may be refused services based on 
severity of disability, or some other discriminatory basis, which is 
never explained. Ticket holders are simply told, ``We are not suited to 
assist you. Your needs would be better met by someone else''.

Benefit Planning Assistance and Outreach

    Funding for the BPAO program at $23 million dollars under TWWIIA 
was a welcome addition to this fledgling, and under-funded service. The 
new BPAO programs have been energetically implemented and 
enthusiastically viewed as a vital link to the return to work efforts 
of beneficiaries with disabilities. SSA funded three technical 
assistance centers to provide work incentive training. These centers 
have done a commendable job training benefits planners, and the 
curriculum is well regarded. But the addition of these programs has 
created some additional concerns.
    In many states, however, the BPAO contractor is the state VR 
agency. Given the competition for program funding, this arrangement may 
result in inaccurate advice, which could lead to job loss rather than 
continued employment. One anecdote concerns a beneficiary who secured 
employment with the help of a private EN. After securing employment the 
beneficiary also contacted the BPAO project. The BPAO project was the 
state VR agency. The client reported that the BPAO advised him/her to 
quit his/her job and assign the ticket to VR.
    An EN, who is a private provider, worked with a beneficiary to help 
them secure employment. The EN advised them (early on) to check in with 
the BPAO project. The beneficiary did this, but not before they 
accepted a job and began working. The BPAO project is with the state VR 
agency. According to what was reported to me, the BPAO advised them to 
quit their job and to assign their ticket to VR. Now we have a formerly 
employed beneficiary, once again unemployed and continuing benefits. 
This appears to be two parts of the program working at cross-purposes 
due to a struggle for reimbursement.
    In another state, the BPAO program was not a part of the VR agency. 
This BPAO refused to accept VR clients for services because the state 
VR agency has long paid for benefits counseling. The BPAO was hoping to 
receive additional funding from the VR agency for services that they 
were already contracted by SSA to provide.
Barriers to Employment Identified by the PABSS Program
    In May 2001, the Social Security Administration awarded the first 
grants to the PABSS program. Although this was the last program to be 
funded by SSA under TWWIIA, the PABSS Program is up and running in all 
57 P&A agencies. The infrastructure is in place, outreach activities 
are occurring, caseloads are increasing, and Social Security 
beneficiaries are beginning to return to work. During the first year of 
operations, the PABSS programs assisted 10,755 individuals (2001) by 
providing education and training, information and referral, or legal 
based advocacy. There were 8,023 individuals participating in training 
events; 2,182 individuals with disabilities received Information and 
Referral services; and 550 Social Security beneficiaries were provided 
individual representation.
    PABSS programs developed PABSS brochures, informational flyers, 
posters, and postcards for placement in SSA and Vocational 
Rehabilitation offices, One-Stops, and community organizations. They 
engaged in extensive education and training of Social Security 
beneficiaries, their representatives, other individuals with 
disabilities, family members, community groups, disability 
organizations, and supporting professionals. Recognizing the need to 
coordinate services--P&As began to build external relationships with 
other key elements of the ``Ticket to Work'' and workforce development 
system, including, for example the Benefits Planning Assistance and 
Outreach offices and Medicaid Buy-in Working Groups. Many PABSS 
programs also convened statewide workgroups and monthly meetings with 
key disability programs and experts on return to work issues. P&As 
provided information and referral, mediation and legal services to 
beneficiaries.
    When establishing the problem areas and setting up the annual 
reporting requirements, NAPAS assumed--as did others in the disability 
community--that beneficiaries with disabilities would encounter 
problems primarily in the areas of vocational rehabilitation, 
Employment Networks, benefits planning, and employment or employer 
benefits, with some concerns falling into the category of ``Other.'' 
However, direct advocacy services and P&A representation has been 
needed to secure rights and overcome barriers to employment presented 
by entities apart from those previously mentioned. Roadblocks were 
found to often include the discriminatory effects of architectural, 
transportation and communication barriers and failures to make 
modifications to existing facilities. Specific areas of concern 
include:

        <bullet> LAccessing employment and placement services;
        <bullet> LDefaulted student loans (preventing continued 
        employment)
        <bullet> LMedicaid eligibility and 1619 (b) issues;
        <bullet> LPASS and work incentive concerns, including the 
        correct application of Impairment Related Work Expenses 
        (IRWES);
        <bullet> LIn-home support services;
        <bullet> LSocial Security overpayments;
        <bullet> LInadequate special education transition planning;
        <bullet> LDeficient institutional discharge planning;
        <bullet> LInadequate Medicaid and public benefit supports;
        <bullet> LLack of employer adherence to employment 
        discrimination laws, and
        <bullet> LAccess to services such as transportation.

    Recently, NAPAS prepared an Annual Report of PABSS Activities, 
which was submitted to SSA for review and approval (Draft, Summer 
2001). After SSA review, we were asked to delete certain bulleted items 
from the list of ``barriers to employment'' because SSA did not 
consider them to be barriers. These include Medicaid eligibility and 
1619(b), PASS, and work incentive concerns including the (correct) 
application of Impairment Related Work Expenses (IWREs) and SSA 
overpayments. We also were instructed to delete these same items from 
``areas of concern'' under the `Source of Individual Concerns'. It is 
clear from this that SSA does not understand the types of problems 
confronting beneficiaries, nor the advocacy needed to get beneficiaries 
back to work. To get jobs, beneficiaries require advocacy to, among 
other things: get services from state VR agencies; have physical access 
to employment service providers, especially One-Stop centers; have 
accessible transportation to service providers and jobs; and receive 
reasonable accommodations from employers. Social Security should not be 
permitted to narrow the protection and advocacy services that Congress 
mandated in TWWIIA.
    One additional problem facing SSA beneficiaries who return to work 
is overpayments. This can be a major barrier to beneficiaries' 
willingness to take advantage of work incentives programs, including 
the new Ticket to Work program. Beneficiaries may be very conscientious 
in reporting their earnings, but the overpayments still occur over 
significant periods of time, and beneficiaries continue to be fearful 
of owing SSA thousands of dollars for working. Beneficiaries do not 
know whether the benefit amount they are receiving is correct or 
whether SSA has made an error or failed to record their earnings. They 
get stuck and are not able to access advocacy services or assistance on 
overpayment issues from PABSS programs because SS has restricted P&As 
from using this money to address problems related to SSA programs/
services.
Recommendations
    Based on the observations of the PABSS program, NAPAS is providing 
a number of specific recommendations, which we believe will improve the 
effectiveness of the TWWIIAA program.
    We recommend that Congress:

        <bullet> LReview the TWWIIA payment system to enhance the 
        involvement of non-VR providers and to eliminate the ``business 
        as usual'' actions of VR agencies.
        <bullet> LEnsure strong safeguards are in place so that 
        individuals with disabilities, who take advantage of the TWWIIA 
        program in order to become meaningfully employed, are not put 
        in jeopardy of losing their benefits.

    We recommend that the Social Security Administration:

        <bullet> LProvide better information on the TWWIIAA program to 
        beneficiaries and others through a variety of methods and 
        vehicles, including their public information resources, the 
        BPAO and the PABSS program.
        <bullet> LProvide necessary flexibility to the PABSS program so 
        that, as additional barriers to employment are identified, such 
        as overpayments, the scope of the PABSS program, as intended by 
        Congress, is broadened to reflect these new discoveries.
Conclusion
    Thank-you again for inviting NAPAS to testify here today. We look 
forward to working with the Committee and with the Social Security 
Administration to ensure effective TWWIIAA implementation. Hopefully, 
working together, we can resolve problems that have arisen during the 
first year of implementation--not only in relation to the 
implementation of the overall bill, but also to the implementation of 
the PABSS program. Again, we thank the committee for its work to help 
broaden the scope of the PABSS program so that it can address more and 
more of the barriers that people with disabilities face as they work to 
secure, regain, or maintain employment.

                                 <F-dash>

    Chairman SHAW. Thank you very much for that testimony. I 
continue to be concerned, as I think all of us are, with regard 
to the earnings limitation, but as I understand it, the first 
year there is no limitation, which gets people into the 
workforce and see how they feel and how they are doing, and 
then they can move forward if perhaps they want to get out of 
the program entirely if it is very successful. We have heard a 
lot about welfare reform. I chaired that committee when we 
passed welfare reform back in 1996, and it is a question of 
people believing in themselves.
    Ms. Gilliland, you talked very much about self esteem. That 
has a lot to do with it. People's self esteem goes up when they 
get into the job market. They become more and more self 
sufficient, and the whole purpose of the Ticket to Work was to 
give people that chance without the fear of losing everything 
and going forward with it.
    I have just a couple of questions, and I would like to 
throw this one out to the entire panel. The first tickets to 
beneficiaries were mailed out 7 months ago, and based upon your 
experience--I think perhaps all of you have answered this to 
some degree--but I am assuming that all of you think it is 
really working at this point, perhaps not as inclusive as we 
want it to be.
    Mr. Gadaire, you talked about your concern about the system 
becoming overwhelmed. Well, I hope it does get overwhelmed, and 
I hope we have to come back here and figure out ways so that we 
can better service all of these people. Would you like to 
comment on that?
    Mr. GADAIRE. Well, I guess my concern is, I would like to 
try to address it before it gets overwhelmed. When it gets 
overwhelmed, my greatest fear is we start to create what I 
would call bad practices, and second and third-generation bad 
practices are almost impossible to retract. So, my concern is 
now before it is overwhelmed we have frankly a chance to do 
something about it.
    Ms. WEBB. Mr. Chairman?
    Chairman SHAW. Well, that is one of the purposes of this 
hearing, is to do our oversight responsibility. Ms. Webb?
    Ms. WEBB. One element I think that we are experiencing in 
the first 13 States is that the Tickets are out now, and so the 
initial demand is now starting to diminish for those who are 
contacting us, and now what we are thinking about is what are 
we going to do to contact them. What is going to be the 
additional marketing approach that we are going to use, and are 
we going to see the same level of enthusiasm and motivation 
when we start calling people again, a kind of a second phase of 
the roll-out.
    Once you get through those initial people--because 
obviously the ones that are calling us, which is where we are 
now, are the ones that are motivated to begin with. What about 
the ones who have not chosen to call us? Now the impetus is 
upon us to go ahead and start contacting them again and say, 
``Hey, you have this Ticket. We would really like to talk with 
you.'' So, I think we are entering into perhaps the second 
phase in the roll-out States at this time, and it will be 
interesting to see how that goes.
    Chairman SHAW. I have here a sample of what the Ticket 
looks like, and we have been talking a great deal about the 
Ticket to Work, and some people watching this hearing probably 
are wondering what does a Ticket look like. Did you have your 
hand up?
    Ms. GILLILAND. Well, I just wanted to say that originally 
when I got the Ticket to Work in February, I was one of the 
first to receive the Ticket to Work. I mean literally I think I 
must have asked Susan Webb at least a dozen times, ``Are you 
sure this is real? Are you sure this is real, that if I go back 
to work the government is going to continue with my benefits?'' 
At that point it was critical that not only did I have my 
money-wise benefits, my financial, I also needed my mental 
benefits, as far as medications for mental, psychiatric and 
stuff like that. Maybe suggestion-wise, as far as making it 
more clear in the actual format of the Ticket to Work that it 
is true, that it is not some kind of farce, that it is not some 
kind of scheme to get you involved in something like that, that 
it is something that is very much true and very much important 
and very much that if you sign up and that you are willing to 
go forth with this, that there is nothing to worry about, that 
the government will take care of you, which is people get 
real----
    Chairman SHAW. It is like the old joke, ``I am from the 
government and I am here to help you.''
    [Laughter.]
    Ms. GILLILAND. Right, right.
    Chairman SHAW. Ms. Webb, I assume that in Arizona you keep 
your medical benefits.
    Ms. WEBB. Mr. Chairman, we have the Medicaid buy-in in 
Arizona, but our State has experienced the budget crunch like 
everyone else. Our State legislature did vote to keep the 
Medicaid buy-in, but it will not be implemented until January. 
Currently we have 10 of our Ticket participants on the waiting 
list, purposely not working until the Medicaid buy-in goes into 
effect. We are finding that 75 percent of the people we are 
placing, we are placing into jobs where the employer does 
provide health care including prescription drug coverage, but 
as in Amy's case--she is an example of this--where there is a 
waiting period often before those benefits kick in. Where we 
are going to find the greatest use for the Medicaid buy-in is 
for those people that need that help between the time that they 
are not eligible because of earnings in the Medicaid program, 
but now they are working above that eligibility, but their 
employer-provided benefits haven't kicked in yet. So, I see 
where the Medicaid buy-in under this program will be a good 
buffer to get people into the workforce and then eventually the 
employer provided health care will kick in.
    We believe, and we are going to prove it to our State, that 
the Medicaid buy-in will actually save our State money.
    Chairman SHAW. Thank you. Mr. Hayworth?
    Mr. HAYWORTH. Well, Mr. Chairman, let me again thank the 
entire panel, and I guess David, your ``home cooking'' kind of 
works. I say my friends from home have been working with the--
and Amy, especially since you are living this, your perspective 
kind of--well I won't set conditions on it--it is of immense 
value to us. You mentioned one improvement in terms of saying, 
``This is real. It is not false. Let us clear this up with the 
Ticket.'' You have characterized this from your perspective as 
almost too good to be true, I think to paraphrase.
    Ms. GILLILAND. Absolutely.
    Mr. HAYWORTH. Is there any downside that you have 
experienced, anything other than that constructive criticism of 
making it a little more blatant, and I don't know, if we put 
like neon writing or make it fluorescent or what, to glow in 
the dark, really let people know about this, but is there 
anything else that in this imperfect world would make this a 
little better from your perspective?
    Ms. GILLILAND. Well, Congressman Hayworth, I know that for 
ABIL, which is a company, and I promised Susan I wouldn't get 
too involved in it, but I was fortunate enough to be blessed 
with such a wonderful, wonderful Agency, and I am not sure----
    Ms. WEBB. I didn't tell her to say that.
    [Laughter.]
    Chairman SHAW. Well, you will have a chance to correct her 
if you like.
    Mr. HAYWORTH. This is completely spontaneous and 
unrehearsed.
    [Laughter.]
    Ms. GILLILAND. That I think, like this gentleman at the end 
was saying, that a lot of agencies don't want to take on the 
more people that need more help. I have a friend that is on 
disability, who he is one that needs extra help, extra care, 
extra concern, that in fact did call an agency--I am not sure--
but lives in Arizona that did call an agency. Didn't get back 
to him. Called another agency, didn't get back to him. Finally 
I said, ``Listen, you have to call ABIL. You call ABIL. 
Somebody is going to get back to you.'' So, I think that is 
definitely an important issue, and that is making sure that no 
matter what, no matter what the case is, no matter how severe 
the case is as far as how your health is or your physical or 
mental status, that we are all human beings, and we all need 
help sometimes, and that is definitely--that has to be more 
proficient. I know that for ABIL, ABIL is a great, wonderful 
company, and I really was blessed, but I don't know about the 
other companies.
    Mr. HAYWORTH. In fairness, I don't know why I think of 
this, maybe my burgeoning waistline, but I see those ads on TV, 
``Results not typical. Your experience may vary.''
    [Laughter.]
    Mr. HAYWORTH. I don't know why I think about that. In 
fairness, Mr. Decker touched on some points here, and maybe you 
would like to amplify what you see, if you had to prioritize 
the things that can be better, as you have looked at this 
across the country from the roll-out in States like Arizona, 
the places where now it is just coming online, other places 
that unfortunately are having to hang back. If you had to 
prioritize the A-number-one imperative that we missed, what 
would that be?
    Mr. DECKER. Well, I guess I would put it probably in tiers 
of what you could accomplish quite easily, what I think, or is 
going to require a little effort, and then some things that are 
probably going to have to be statutorily changed, which is not 
that easy.
    I guess I go back to the whole issue of the initial 
information. It seems to me Social Security Administration has 
a pretty large public information resource that they should be 
using to get the word out early so when these Tickets do 
arrive, that some of that initial doubt, and in some cases 
fear--the Commissioner herself I think has stated that if she 
got this letter in the mail, she wouldn't be so sure that it 
was something to be taken seriously. So, I think you could get 
a lot of interest and getting people thinking about the fact 
that, ``Gee, maybe I can go back to work even though''--again, 
remember that these folks have maybe spent a year trying to get 
on benefits, have had a fair amount of issues with Social 
Security over the years, and now suddenly get this letter 
saying ``It is okay. We are here to help you.'' I think there 
is a real learning curve and an attitude to get over. I think 
that is pretty simple to do.
    The issue of course of making sure that there is 
coordination with all these different components that have been 
put in place, so that when some person decides to come forward, 
they are getting the best information, the most accurate 
information and the full approach. Again, I think that is 
something they can accomplish, reinforce all of the groups at 
this table, we have some obligation at the local level to be 
working together and trading information, and not just passing 
clients around up and down the line, but making sure that a 
client is getting the right information and the right service 
at the time they need it.
    The last thing, and more difficult, is going to be some of 
the payment incentives to make sure that we get more ENs in, 
that they are willing to take on more difficult to serve 
clients, and try to undercut some of this fighting over the 
reimbursement, so that we get the full range of people involved 
in the program.
    Mr. HAYWORTH. Thank you, sir. Again, thank you to the 
entire panel for being here today.
    Chairman SHAW. Thank you. This has been most enlightening. 
You all come from all the way up to Massachusetts, all the way 
out to Arizona. We very much appreciate all of you being here. 
We appreciate the work you are doing and the good that you are 
accomplishing, and really helping out some people who certainly 
need the help, but can become very productive, self-sufficient 
individuals with just a little bit of faith and a little bit of 
self esteem. Thank you very much.
    We are now adjourned.
    [Whereupon, at 1:52 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Shaw to the panel, and 
their responses follow:]
                                     Social Security Administration
                                     Baltimore, Maryland 21235-0001
                                                  November 29, 2002

    1. LWhere does the Social Security Administration (SSA) stand in 
developing an alternative to the Employment Service Representative 
(ESR)? How can we be assured that an alternative will result in 
improved service, and not merely continue the problems of the past? 
Will the duties so ably performed by the ESR be diffused throughout all 
SSA staff, which was part of longstanding problem with addressing this 
workload? Will you be sure to keep us informed as you consider 
alternatives?
Answer:

    SSA executives are still considering how best to provide, 
nationally, information and services related to SSA's disability 
employment support programs to beneficiaries with disabilities who want 
to work.
    We will keep you informed as we finalize this decision and move 
toward implementation.
    2. LWhat is the relationship between the ticket program and the 
existing Federal-state vocational rehabilitation (VR) system? Can 
beneficiaries use their ticket with another provider and still receive 
VR services? Is the ticket designed to replace the VR system, or is it 
designed to complement it? Do beneficiaries still need the VR system? 
Is any clarification needed in the law to assure that the intent of the 
ticket program to maximize choice is achieved?
Answer:

        <bullet> LWhat is the relationship between the ticket program 
        and the existing Federal-state vocational rehabilitation (VR) 
        system?
    The relationship between the ticket program and the Federal-State 
VR system is one that affords increased access for beneficiaries to 
vocational rehabilitation (VR), employment, and other support services 
with the goal of providing beneficiaries with the services needed to 
obtain employment and reduce their dependence on cash benefits.
    State VR agencies can elect to be paid under the Employment Network 
(EN) payment system or receive traditional cost-reimbursement payments 
for providing VR services to beneficiaries who assign their ticket to 
them, on a case-by-case basis. This option affords the State VR 
agencies with the opportunity to elect the method for recouping the 
cost of the VR services they provide to a beneficiary. This provides 
access to additional funding, which they can use to provide VR services 
to more beneficiaries. In practice so far, a minority of States in our 
initial roll-out group have elected to enroll beneficiaries using the 
EN payment system.
        <bullet> LCan beneficiaries use their ticket with another 
        provider and still receive VR services?
Answer:

    A beneficiary can, after assigning his or her ticket to an 
employment network, receive services from the State VR agency. The 
Rehabilitation Act 1973, as amended, does not require ticket assignment 
as one of the requirements to be eligible for VR services.
        <bullet> LIs the ticket designed to replace the VR system, or 
        is it designed to complement it?
Answer:

    The ticket program complements the VR system by affording the VR 
system with access to additional funding, the EN payment system, which 
can be used to increase the delivery of VR services to more 
beneficiaries. Additionally, through the agreements State VR agencies 
enter into with employment networks the State VR system can contribute 
to the service delivery capacity of the employment network and increase 
the services available to beneficiaries.
    We are concerned that during our initial Ticket roll-out in some 
States, ENs and potential ENs believe that State VR agencies control 
the marketplace. This perception can have a chilling effect on 
participation by providers and can have the same effect on beneficiary 
choice.
        <bullet> LDo beneficiaries still need the VR system?
Answer:

    Beneficiaries still need to have access to the State VR system. 
There are beneficiaries whose employment service needs can be handled 
by State VR agencies, which can wield significant resources under the 
Title I of the Rehabilitation Act. Some beneficiaries with expensive 
service needs may find ENs reluctant to serve them.
    Is any clarification needed in the law to assure that the intent of 
the ticket program to maximize choice is achieved?
Answer:

    We believe that it is too early to tell whether the current law is 
achieving the intended effect relative to choice. We are closely 
monitoring the activities of the State VR agencies, employment networks 
and beneficiaries as we continue the roll-out of the ticket program.
    3. What kinds of activities is SSA undertaking to publicize and 
explain the ticket program to beneficiaries? Are resources specifically 
budgeted for this marketing effort, or has SSA contracted with other 
organizations to market the ticket to beneficiaries?
Answer:

    We have undertaken a number of activities to publicize and explain 
the Ticket to Work program to beneficiaries and other interested 
parties. For example:

        <bullet> Notices

    We send eligible disability beneficiaries a letter and booklet with 
the ticket explaining what the program involves. As of October 21, 
2002, we have mailed 2,329,127 tickets to eligible beneficiaries in the 
Phase One States.

        <bullet> Web Sites

    We developed and launched a Ticket to Work Program section within 
SSA's website, with information specifically for beneficiaries. 
Information on this part of the website, called ``The Work Site'', 
includes fact sheets, frequently asked questions and a Ticket to Work 
calendar of events open to the public. The Work Site was featured in 
SSA's electronic newsletter, E-News in the March 2002 issue. The Work 
Site is available at http://www.ssa.gov/work/Ticket/ticket_info.html.
    Under its contract with SSA, the Ticket to Work Program Manager 
(PM), MAXIMUS, has developed and launched another web site with 
information
on the Ticket to Work program specifically for beneficiaries. 
Information provided
includes frequently asked questions and employment network and State 
Vocational
Rehabilitation contact information. The PM's Web site is available at 
www.yourtickettowork.com.
    Bookmarks with the Web site addresses referenced above were created 
in August of 2001, and are distributed at conferences, conventions, and 
other meetings related to the Ticket to Work program and work 
incentives. The website address is also included in our public 
information materials for people with disabilities.

        <bullet> Video

    In partnership with the Maternal and Child Health Bureau, we 
developed a Ticket to Work video in December of 2001. The video is 
available online at http://www.ichp.edu/videos/TTW2.htm.

        <bullet> Publications

    We have developed publications titled Ticket to Work and Work 
Incentives Improvement Act (June 2002) and Your Ticket To Work: What 
You Need To Know To Keep It Working For You (September 2002)which are 
available online at http://www.ssa.gov/pubs/pubs_whatsnew.htm. Other 
publications were updated with Ticket information in 2001 and 2002. We 
are developing the 2003 edition of the Red Book on Employment Support, 
which will update this resource for employment practitioners, and which 
will include the latest Ticket to Work information. This publication is 
expected to be complete in December of 2002 and will be available 
online, in SSA field offices, and by direct order from SSA.

        <bullet> Poster

    We are developing a Ticket to Work poster that will be distributed 
to SSA field offices, for beneficiaries inquiring about the Program.

        <bullet> Toll-Free Telephone Numbers

    We have worked with the PM, MAXIMUS, to develop and maintain toll-
free telephone numbers to provide Ticket to Work information to 
beneficiaries, employment networks, and other people interested in the 
Ticket to Work program. (1-866-968-7842 and TDD 1-866-833-2967) As of 
October 21, 2002, MAXIMUS had handled a total of 112,337 calls from 
beneficiaries.

        <bullet> Press Events

    We sponsored kick-off events in three of the 13 Ticket States, 
Delaware and Massachusetts in February 2002, and Arizona in April 2002, 
in which the first tickets were issued to beneficiaries directly by 
Commissioner Barnhart. Local media beneficiaries, advocates, service 
providers, business community representatives and others were present. 
SSA's Regional Offices also organized similar press events in other 
First Phase Ticket States. Similar events are being planned for the 
Second Phase Ticket States.

        <bullet> Meetings

    We participate in numerous conferences, conventions and meetings 
with disability advocacy groups, educational institutions and non-
profit organizations nationwide. In these settings, we do presentations 
and speeches, exhibit at booths, participate in forums, and provide 
training on the Ticket to Work Program and other employment support 
programs. SSA staff in the Office of Employment Support Programs, 
regional and local offices and MAXIMUS staff are actively involved in 
this activity. Over the first year of roll-out, we have appeared at 
hundreds of such events.

        <bullet> Partnerships

    We have established partnerships with other Federal agencies who 
serve individuals with disabilities, including the Department of Labor 
(DOL), the Department of Education, the Small Business Administration, 
the Centers for Medicare and Medicaid Services (HHS), and the Agency 
for Children and Families (HHS). We have established the SSA-DOL 
Partnership to pilot the Disability Program Navigator (DPN) Position, 
which will provide an expert on SSA's employment support programs in 
local One-Stop offices.
    A number of our regional offices have established successful 
networks for information sharing. Members include various State and 
local agencies, organizations, and advocates.

        <bullet> Grants and Cooperative Agreements

    We have awarded cooperative agreements to Benefits Planning, 
Assistance, and Outreach organizations in all 50 States, Washington, 
D.C., and the U.S. Territories American Samoa, Guam, Northern Mariana 
Island, Puerto Rico and the U.S. Virgin Islands. These organizations 
are charged with providing SSA beneficiaries with disabilities 
(including transition-to-work aged youth) access to benefits planning 
and assistance services. They also provide information on the Ticket to 
Work program to beneficiaries and organizations that provide services 
to people with disabilities. We have also awarded grant funds to 57 
protection and advocacy agencies in the States and territories to 
provide information and assistance directly to beneficiaries.

        <bullet> Employment Networks

    As our contractors, the Employment Networks are encouraged to 
market and publicize the Ticket to Work program directly to SSA 
beneficiaries.
    4. We understand that a number of employment networks have 
expressed the need to obtain additional capital up front to better 
absorb such risks. What can SSA do to assist employment networks 
seeking additional capital?
Answer:

    Section 1148 of the Social Security Act provides for payment to 
Employment Networks (ENs) only for assisting beneficiaries to achieve 
outcomes and, if the EN has elected, milestones. Some ENs and 
prospective ENs have indicated that they are reluctant to actively 
participate in the Ticket to Work program because they may not be able 
to afford the up front costs of providing employment services, either 
because outcomes are far from certain, or because they may have to wait 
a substantial period of time before payments based on outcomes are 
received. While an issue for most ENs, the need for a stream of up 
front funding is especially critical to smaller organizations that do 
not have a variety of funding sources available to them, such as 
grants, endowments, and charitable contributions. Traditionally, such 
organizations have relied upon immediate payment for services provided, 
which is not an option for them under the Ticket to Work program.
    For this reason, we are working with our program manager, MAXIMUS, 
to identify potential funding sources and to train ENs on how to take 
advantage of them. Tasks involved in this activity:

        <bullet> LPerform an ongoing nationwide review of available 
        funding sources to support EN activities;
        <bullet> LReview the terms and conditions of these funding 
        sources, as well as the application procedures, to determine 
        their appropriateness for ENs;
        <bullet> LCodify the funding sources and application procedures 
        in a directory accessible to ENs, to be maintained by the PM;
        <bullet> LDevelop and maintain a training module on EN 
        capitalization sources and procedures as part of the standard 
        EN training program;
        <bullet> LArrange for the delivery of EN capitalization 
        training to ENs; and
        <bullet> LProvide information regarding EN capitalization to 
        prospective ENs via the Ticket to Work toll-free number, EN 
        Recruitment Fairs, and other EN marketing activities.
    We expect that these activities will significantly assist the ENs 
in obtaining additional funding to assist them in performing the EN 
function.
    5. What are your specific plans to address the depth of choice 
available to consumers in terms of employment networks?
Answer:

    From the beginning of the Ticket to Work program, we have 
recognized that, in order for the Program to be successful, it is 
critical that an extensive recruitment of ENs occur. Accordingly, we 
have required MAXIMUS, as the PM, to manage an ongoing nationwide 
recruitment of ENs. MAXIMUS is specifically responsible for enrolling a 
sufficient number of ENs to ensure the availability of adequate 
services and reasonable access to EN services for all beneficiaries 
within a State, including rural areas. To accomplish this requirement, 
MAXIMUS:

        <bullet> Lutilizes an in-house marketing staff that is 
        responsible for contacting prospective ENs and encouraging 
        these prospective ENs to formally make a proposal to SSA.;
        <bullet> Lorganizes and operates EN Opportunity Fairs, designed 
        to provide prospective ENs (both organizations and individuals) 
        with detailed information on the Ticket to Work and the EN 
        process, in all States;
        <bullet> Lattends National, regional and State events exclusive 
        of the EN opportunity conferences to market the Ticket program 
        to over 11,000 different provider organizations; and
        <bullet> Lactively assists prospective ENs in completing and 
        submitting the necessary documents (Request for Proposal) to 
        become ENs.

    We have been pleased to note recent accomplishments--one-stop 
agencies under the Workforce Investment Act in several States have 
joined the rolls of ENs. Other ENs include a Native American 
rehabilitation agency, a DOL-funded business leadership network, 
several general-purpose employment agencies, and a number of 
independent living centers. We continue to assess our progress in this 
area and will keep you informed as we move through our ticket 
implementation.
    6. The Ticket to Work Act requires the Commissioner of Social 
Security to periodically review the payment schedules to determine if 
there are adequate incentives for employment networks to assist 
beneficiaries to enter the workforce. Witnesses expressed concern that 
the payments are inadequate to ensure a wide range of employment 
networks and that the current structure contains inequities in 
financial incentives to serve certain beneficiaries. Please describe 
what efforts are underway to review and evaluate the milestone payment 
systems.
Answer:

    The evaluation of the Ticket program's payment structure, both 
outcome and milestone payments, for providing adequate incentives for 
Employment Networks (ENs) is a part of the overall evaluation of the 
Ticket program, mandated as part of the Ticket to Work legislation. The 
work activity and earnings of beneficiaries who are served by ENs 
receiving milestone payments will be compared with that of 
beneficiaries with tickets who are not served by ENs receiving 
milestone payments, beneficiaries with tickets who are not served by 
ENs at all, and beneficiaries who do not have tickets. Special emphasis 
will be given to those beneficiaries who are difficult to serve.
    7. One of our witnesses, Dr. Kregel, expressed his concern that 
individuals may be receiving conflicting information about Ticket to 
Work from many fronts, including SSA, Maximus, VR agencies, and 
Employment Networks. How is SSA ensuring information provided to 
consumers is accurate and consistent?
Answer:

    Over the past year, we have developed and provided an extensive 
range of training to our field staff on work incentives, including the 
Ticket to Work program. In addition, we have engaged a consortium of 
university-based trainers and providers of technical assistance. They 
work from a common curriculum and operate in constant contact with SSA 
and its other contractors such as MAXIMUS.
    MAXIMUS also ensures that their personnel are trained in providing 
consistent and accurate information on these programs, and maintains a 
quality assurance review to ensure that this level of accuracy is 
maintained. As we learn of any misinformation being provided by ENs, 
MAXIMUS is ensuring that the ENs are advised of the correct information 
to be provided to beneficiaries. We continue to advise the 
Rehabilitation Services Administration and individual State vocational 
rehabilitation agencies as we learn of instances of misinformation 
being given by State vocational rehabilitation agencies.
    8. When SSA needed administrative money to review disability cases, 
the Congress set aside a separate source of funds that was part of 
Social Security's Limitation on Administrative Expenses, but exempt 
from the budgetary caps in the Budget Act and earmarked specifically 
for continuing disability reviews. Those budget caps and the funding 
amounts have expired, leaving SSA's administrative funding somewhat in 
limbo. How much money do you think it will take to successfully 
administer the Ticket Act, and do you have a plan for assuring the 
Congress will give you those funds for that designated purpose?
Answer:

    Our Administrative budget for FY 2003 includes $44 million for 
Return to Work activities. This funding is for Benefits Planning and 
Assistance Cooperative Agreements ($23 million), Protection and 
Advocacy grants ($7 million), and the Program Manager contract ($14 
million).
    In addition, our administrative budget supports other costs related 
to Return to Work activities such as the Work Incentives Advisory 
Panel, Employment Support Representatives, and research evaluation 
activities.
    9. As you know, the law requires that within 3 years of enactment, 
SSA is required to report to Congress with recommendations for methods 
to adjust payment rates to ensure there are adequate incentives for 
service providers to ensure that ``hard to serve'' populations are able 
to participate in the program. Any necessary changes must be 
implemented before the full implementation of the program is complete. 
Could you give us an update on the status of the recommendations and 
the report?
Answer:

    The report on Adequacy of Incentives will be part of the overall 
evaluation of the Ticket to Work program. Special emphasis will be 
given to analyzing the degree of successful outcomes for those 
beneficiaries designated as hard to serve. Recommendations for changes 
in the Ticket program will be developed based on the findings of the 
evaluation. The contract for the evaluation of the Ticket program will 
be awarded in early 2003 with initial results reported in 2005 and a 
final report in 2007.
    10. SSA is required to provide independent evaluations to assess 
the cost-effectiveness and outcomes of the Ticket to Work program. The 
first evaluation report to Congress is due 4 years after enactment of 
the Act, which means it's due at the beginning of 2004. Could you give 
us the status of this report? Since implementation of the program was 
initially delayed, and the first tickets were not sent out to 
beneficiaries until February of this year, do you expect the evaluation 
report will be on time, or will it be delayed?
Answer:

    The delay in the start of the Ticket program means that the initial 
report in 2004 will be a preliminary or interim report with status of 
the program to that point. Annual reports in subsequent years will 
provide more complete pictures of the progress of the Ticket program. 
The evaluation report in 2007 will provide the first accurate 
assessment of the cost-effectiveness and outcomes of the program.
    11. SSA's proposed rule provided that an individual would be 
eligible to receive a ticket in a month in which he or she is age 18 or 
older and had not attained age 65. Many, including the Ticket Advisory 
Panel, have advocated that individuals younger than age 18 should be 
eligible to receive a ticket to ensure that they do not begin a 
lifelong dependency on public benefits. In issuing its final rule, SSA 
maintained age 18 as the threshold for receiving a ticket. Can you 
provide the reasons for continuing age 18 as the threshold? Do you plan 
to adjust the age? Why or why not?
Answer:
    Beneficiaries in this age group generally are in school, still 
pursuing completion of their formal elementary and secondary education. 
For this group, participation in an employment plan under the Ticket to 
Work program could interfere with their pursuit of an education, 
completion of which many believe should be the primary focus and goal 
for school-age youth. Therefore, we have not made these beneficiaries 
eligible to receive tickets under the Ticket to Work program.
    We were aware of strong interests in this transition-age 
population, and we (concurrently with the final rules) published a 
request for public comment regarding appropriate ways to assist youth 
with employment services. We received over a hundred comments and also 
received input regarding those issues through several public-input 
discussion sessions. We are currently working with this input and other 
data in a review of this policy. We will keep you informed of 
developments in this area.
    12. Individuals designated by SSA as ``medical improvement 
expected'' cannot participate in the Ticket program until after their 
first continuing disability review, which is scheduled for 1 year after 
eligibility is determined. The Ticket Advisory Panel, among others, has 
suggested these individuals also receive tickets, because providing 
services sooner often leads to the best outcomes. Can you provide your 
reasons for this exclusion? Are there any plans for SSA to reverse its 
position? Is so, why? If not, why?
Answer:
    Because beneficiaries in this category could be expected to return 
to work without the need for services under the Ticket to Work program, 
we have decided not to give them tickets. We also believe limiting 
eligibility to tickets in this manner strikes the proper balance 
between equitable treatment of disability beneficiaries and ensuring, 
to the extent possible, that the resources that will be available in 
the Ticket to Work program are distributed in the most effective and 
efficient manner. However, we are reviewing our policy in regard to 
this population. We will keep you informed of developments in this 
area.
    13. Under the Ticket to Work Act, SSA was authorized to complete a 
demonstration project to examine the effect of reducing benefits by $1 
for every $2 in earnings above a certain amount. Could you update us on 
the status of the project and when Congress will see the results?
Answer:

    The $1-for-$2 demonstration is undergoing a thorough reexamination 
and redesign. SSA will work with research experts and the Work 
Incentives Advisory Panel to develop the best research design that is 
feasible to produce a reliable estimate of the potential national 
impact of the benefit offset. After input from the experts, SSA will 
solicit proposals for the design and implementation of the 
demonstration. The demonstration will begin by early 2004 with first 
results available by 2006.

                                 <F-dash>

                    Ticket to Work & Work Incentives Advisory Panel
                                               Washington, DC 20024
                                                  November 4, 2002.
Honorable E. Clay Shaw, Chairman
Subcommittee on Social Security
U.S. House of Representatives
Committee on Ways and Means
B-316 Rayburn House Office Building
Washington, DC 20515

    Dear Chairman Shaw,
    The Ticket to Work and Work Incentives Advisory Panel appreciates 
the recent opportunity to provide testimony before the Subcommittee 
regarding the Social Security Disability Programs' Challenges and 
Opportunities. We have received your follow up questions of October 17, 
2002 and submit the following in response.
    Where possible the answers reflect specific recommendations in the 
Panel's reports and discussions on the general topics relevant to your 
questions. In some cases, we are unable to answer the question at this 
point because we have not yet had an opportunity to gather the data 
needed nor reach a conclusion on the issue. However, in order for the 
hearing record to be complete, we are submitting our response for your 
consideration at this time. To aid in clarity of this response, we have 
separated the five questions as follows:

    1. In the opinion of the Advisory Panel, what made the Employment 
Support Representatives (ESR) pilot so successful? What are the key 
features that would need to be continued in whatever alternative 
structure the Social Security Administration (SSA) develops to meet the 
mandate in the law?

    The Panel believes the ESR pilots were successful because they 
identified and trained work incentive specialists within SSA to assist 
beneficiaries and their advocates in making informed choices about 
returning to work and the use of existing work incentives. Local SSA 
offices have not historically demonstrated great expertise in this 
area.
    The Panel believes the key features that need to continue in any 
structure SSA develops should follow the specifics outlined in the 
Statute.
    The Ticket to Work and Work Incentive Improvement Act states in 
Subtitle C, section 1149(a)(2)(C), ``the Commissioner shall establish a 
corps of trained, accessible, and responsive work incentives 
specialists within the Social Security Administration who will 
specialize in disability work incentives under titles II and XVI. . . 
.''
    The Panel also strongly believes national implementation of the ESR 
position is key to the successful implementation of the programs and 
work incentives improvements under the Act. It is also critical to 
improving customer service for beneficiaries who attempt to work and 
report earnings or attempt to use any of the current work incentives in 
the SSI and SSDI programs. The Panel's position is that all interested 
beneficiaries across the country should have reasonable access to work 
incentive specialists who are dedicated to this task full-time.

    2. You indicated the Panel believes the resources allocated to 
public education, training and marketing of the Ticket program are 
insufficient. What specific recommendations has the Panel made to SSA 
on educating the public, conducting better training, and improving the 
program marketing? How does the Panel plan to assist in these efforts?

    In its recent annual report the Panel specifically recommended that 
SSA dedicate extensive increases in budget to develop outreach, 
training and technical support in the areas of SSA's disability and 
return to work programs and work incentive provisions, as well as, 
other Federal benefit programs and work incentive provisions 
administered by agencies. Based on public comment, the Panel is 
convinced that most beneficiaries who will receive a ticket do not know 
what it is, what to do with it, or why it has been sent to them. In 
recent public forums, White House staff and senior SSA executives have 
acknowledged the need for an outreach campaign to market the Ticket 
Program, not only to beneficiaries but also to employers and providers. 
An immediate, coordinated public information campaign to explain the 
provider and employer opportunities, and beneficiary choices and 
protections under the Ticket Program, is crucial. The Panel is 
concerned SSA has not allocated sufficient resources for this effort. 
Given the potential impact of the Ticket Act Programs on the lives of 
individuals with disabilities and other stakeholders, and the amount of 
information needed to ensure the effectiveness of these programs, 
adequate resources must be allocated to training and technical support 
on national, regional, State and local levels. Readily available, 
accurate information is key to helping people with disabilities return 
to work.
    The Panel is an advisory body with a very limited staff allotment 
and budget. As such, it does not foresee the ability to assist SSA 
directly in these efforts. However, the Panel does continue to 
publicize the programs on our Web site, www.ssa.gov/work/panel, and to 
continue to work very closely with the Agency and the Congress in 
expanding efforts in these areas.

    3. You expressed concern that there are not enough service 
providers, in terms of both geographic location and specialization. 
What specific recommendations have you made to SSA to remedy this 
situation?

    As the roll out of the Tickets continues, this issue is just 
beginning to emerge. The Panel first heard complaints about capacity 
and specialization at its August 2002 meeting. Apparently there has 
been a much greater response to the Ticket roll out than ENs had 
anticipated. Many ENs reported being overwhelmed with the volume of 
calls and contacts from beneficiaries who had received their Ticket. 
The Panel is very concerned with building service provider capacity and 
will continue to investigate this issue.

    4. Is the Panel addressing the issue of obtaining up-front capital 
for employment networks in need? Have you made suggestions to SSA?

    The Panel is concerned about this issue as a result of testimony 
received at its most recent meeting in August 2002 but it has not, as 
yet, made any suggestions to the Social Security Administration.

    5. Would you tell us more about why the Panel believes ticket 
eligibility should be expanded to those under 18 and those whose 
conditions are expected to improve?

    First, the Panel recommended that 16- and 17-year-old beneficiaries 
should be eligible to participate in the Ticket Program. The Panel 
takes the position that making transition-aged youth ineligible for the 
Ticket Program sends the wrong message to youth and could encourage 
lifelong dependence on benefits. The Panel believes short-term costs 
were the primary reason youth were excluded, however, the long-term 
benefits to young beneficiaries and long-term program savings could far 
outweigh the short-term costs. Numerous studies have found the sooner 
someone begins receiving employment services, the more likely the 
person will be to go to work. Delaying the onset of those services, 
even by a short time, makes it substantially less likely that the 
individual will attempt to work or succeed.
    Second, the Panel takes issue with SSA's assumption that because 
beneficiaries with Medical Improvement Expected (MIE) designations have 
medical conditions expected to improve in a relatively short time, they 
could be expected to return to work without the services under the 
Ticket Program. Currently, few beneficiaries with the MIE designation 
are leaving the rolls voluntarily to return to employment. In addition, 
on average, only 16 percent of beneficiaries with this designation are 
ceased for medical improvement after their initial continuing 
disability review (CDR). A substantial number of beneficiaries (51,044 
in 1999, for example) will therefore be denied this important benefit 
for up to 2 years on average, based on what the Panel believes is a 
faulty assumption.
    The Panel also believes the decision to exclude beneficiaries with 
the MIE designation was based primarily on short-term cost 
considerations which may have failed to take into account the long-term 
savings to the programs that could be realized through early 
intervention. The Panel remains convinced that beneficiaries with the 
MIE designation will benefit significantly from participation in the 
Ticket Program and should be included.
    We greatly appreciate your interest in the Panel's views on Social 
Security Disability Programs' Challenges and Opportunities. We look 
forward to continued involvement with the Subcommittee on these and 
other Social Security disability concerns. Thank you again for this 
opportunity. If you need any further information or clarification, 
please contact Marie Strahan of our staff at 202-358-6419.
            Sincerely,
                                             Sarah Wiggins Mitchell
                                                              Chair
CC:
Ticket to Work and Work Incentives Advisory Panel
Marie P. Strahan
JoAnne Barnhart
Martin Gerry
Kenneth McGill

                                 <F-dash>

                          Consortium for Citizens with Disabilities
                                               Washington, DC 20006
                                                   November 1, 2002
Hon. Clay Shaw, Chairman
Committee on Ways and Means
Subcommittee on Social Security
US House of Representatives
B-316 Rayburn House Office Bldg.
Washington, DC 20515

    Dear Mr. Chairman:
    This letter is in response to your request for additional 
information concerning the testimony of the Consortium for Citizens 
with Disabilities Work Incentives Task Force to your Subcommittee's 
hearing on September 26, 2002--``The Social Security Disability 
Programs' Challenges and Opportunities.'' On behalf of the Task Force, 
I appreciate this opportunity to supply additional information to the 
following questions:

1. L``We were disappointed to hear your concerns about Vocational 
Rehabilitation and the Ticket program. In your view, what can SSA do to 
address the issues raised in your testimony?''

    First of all, we want the Subcommittee to understand that our 
criticisms were not lodged against all state vocational rehabilitation 
agencies (VRAs). There are numerous VRAs who are making a concerted 
effort to make the Ticket program successful and to be genuine partners 
with the wider provider community in their states. However, there are 
occasions where confusion still exists among VRA staff over the Ticket 
to Work and Work Incentives Improvement Act (TTWWIIA) and conflicts 
occur over VRAs' Title I Rehabilitation Act responsibilities versus 
their role in the Ticket program.
    We believe that the Ticket regulations are being interpreted by the 
Social Security Administration (SSA) and consequently VRAs in ways that 
conflict with the Vocational Rehabilitation Act. Section 411.585 of the 
Ticket regulations states in subsection (b) that ``if an EN or a state 
VR agency serving a beneficiary as an EN is paid by us [SSA] under one 
of the EN payment systems with respect to a ticket, such payment 
precludes subsequent payment to a State VR agency under the cost 
reimbursement payment system based on the same ticket.'' This has led 
some VRAs to insist that a Social Security disability beneficiary must 
assign his or her ticket to the VRA in order for services under Title I 
to be provided to that beneficiary. VRAs are supposed to assess clients 
for eligibility for VR services independent of the Ticket but, in some 
cases, the VR process is being short-circuited because of a VRA's 
insistence on deposit of the Ticket as a condition of providing 
services.
    The Social Security Administration has contracted for Training and 
Technical Assistance to Benefits Planning Assistance and Outreach 
(BPAO) and Protection and Advocacy for Beneficiaries of Social Security 
(PABSS) staff which includes SSA programs and work incentives and other 
Federal programs such as TANF, housing subsidies, Unemployment 
Insurance, Workers Compensation, earned income tax credit, Medicaid and 
State Childrens' Health Insurance Program (SCHIP). Unfortunately, these 
mandated training sessions do not include information about the 
vocational rehabilitation system or process. Reportedly, SSA contends 
that training about the vocational rehabilitation system is the 
responsibility of the Department of Education. Yet, SSA has not invoked 
similar restrictions when it comes to including information at these 
training sessions about housing and welfare benefits, even though those 
programs fall under the jurisdiction of other Federal agencies. We fail 
to see why SSA is not including information about state VRAs and their 
role in the Ticket program in its internal training sessions.
    At the same time, the Rehabilitation Services Administration (RSA) 
needs to promote training for vocational rehabilitation counselors to 
be better acquainted with all aspects of TTWWIIA, not just the Ticket 
program. Counselors need to understand and more effectively communicate 
the voluntary nature of the Ticket program. Additionally, counselors 
need to inform consumers that they are not obligated to use their 
Ticket even if they receive one, and that Title I rules and regulations 
are not trumped by any provisions of TTWWIIA. Furthermore, counselors 
need to know how to advise consumers about the protections from 
continuing disability reviews, the opportunity for expedited reentry, 
expanded Medicare and, where applicable, the existence of a Medicaid 
buy-in.
    The VR system is severely underfunded and, as a result, 37 state 
VRAs have imposed an ``order of selection''. This means the state 
agency has insufficient resources to serve all clients seeking its 
assistance and will be able to serve only those most severely disabled 
clients under very tight criteria. Fortunately, in most states, SSI and 
SSDI beneficiaries meet the criteria to be served even under the 
state's order of selection. However, in states such as Massachusetts, 
the order of selection criteria is so strict that SSI and SSDI Ticket 
holders do not necessarily qualify for immediate help. Consequently, 
some eligible individuals are placed on waiting lists for as long as 12 
months. Ticket holders in states with restrictive orders of selection 
need to be informed that they may not be served immediately and that 
they have the option of exploring other employment networks.
    We have also received reports that the Social Security 
Administration has advised VRAs that the Individual Plan for Employment 
[IPE] signed by a VRA client when he or she contracts with the agency 
can substitute for a signed Ticket assignment form. This seems contrary 
to the concept of informed consent under TTWWIIA given that the IPE 
says nothing about the assignment of the Ticket. If SSA is permitting 
VRAs to submit an IPE without a statement that the beneficiary is 
choosing the VRA as his or her employment network, this should be 
stopped.
    Certain Members of our Task Force have reported that, during the 
early implementation of the Ticket program, some of their affiliates 
who provide direct services to beneficiaries have been threatened with 
loss of their contract with the State VR Agency if they became an EN in 
competition with the VRA. Several providers of mental health services 
in Massachusetts, Wisconsin, Illinois, Oklahoma and Wyoming have 
reportedly made such claims. Admittedly, some of this information may 
be considered anecdotal and the Council of State Administrators of 
Vocational Rehabilitation (CSAVR) is working to verify if these 
accusations have some validity or if they represent problems that have 
since been corrected. However, we remain concerned that, absent any 
concerted intervention by SSA and RSA, some state agencies may continue 
to pursue such practices.
    Recent reports on the progress of the Ticket program have indicated 
most VRAs participating in the Ticket program are doing so under the 
traditional cost reimbursement method. This is, admittedly, something 
that PL 106-170 allows. However, under the cost reimbursement method, 
once a beneficiary returns to work above the substantial gainful 
activity level, the VRA may close that case after 9 months of sustained 
employment at that level and receive reimbursement from Social 
Security. This differs from the obligations imposed on other ENs that 
must follow a beneficiary for up to 60 months in order to receive the 
full complement of outcome payments. While we understand that 
individuals with closed VR cases may be eligible for post-emplyment 
services, we are still concerned about the impact that this option may 
have on Ticket holders who use VR and who may lose their job after the 
initial 9 months of sustained employment. While such individuals may 
quickly return to the disability rolls under the new provisions for 
expedited reentry, they may not be eligible for another Ticket. 
Consequently, such individuals may be denied the long-term employment 
supports that are available through some ENs.
    Social Security officials have insisted that they are engaged in 
ongoing discussions with officials for the Office of Special Education 
and Rehabilitative Services at the Department of Education concerning 
the issues surrounding the Ticket, Ticket-holders and the vocational 
rehabilitation program. However, it is our understanding that the 
official with the most knowledge about the VR system and most directly 
responsible for its administration, Rehabilitation Services 
Administration Commissioner Joanne Wilson, has not been a part of these 
conversations. We strongly suggest that the leadership of both agencies 
ensure that those with line responsibilities over the affected programs 
are integrally involved when matters of policy are under consideration.
    These are some of the most immediate concerns that have been 
brought to the attention of our Task Force. We suspect that, as time 
goes by, additional questions may arise regarding the interplay of the 
public Vocational Rehabilitation Program and the Ticket to Work 
program. As we encounter these questions, we will be happy to share 
them with the Subcommittee.

2. L``Many have expressed concern over the effect of the employment 
network payment system on their ability to serve individuals with 
disabilities. Some individuals may never reach the point of having zero 
benefits, and thus the employment network would not receive payments. 
This means that some ENs may choose not to serve `harder to serve' 
individuals. What are some potential solutions you see to this 
problem?''

    Although our Task Force has not formally endorsed such an approach, 
some critics of the current payment system have advocated partial 
outcome payments for partial reduction in benefits. They argue that the 
law allows for partial payment for reduction of benefits but that SSA 
has interpreted the statute too narrowly. However, given the current 
level of milestone/outcome payments, any diminution of the already 
small reimbursement paid to providers is unlikely to encourage ENs to 
assist the ``harder to serve.''
    Obviously, one way to resolve the inadequacy of milestone-outcome 
payments would be for SSA to readjust them to an amount that is closer 
to the outcome payment level. Certainly, in the course of developing 
the law, most advocates had expected there would be only a very small 
difference between outcome and milestone-outcome payment levels. 
Additionally, the law allows for outcome payments to be set at 40 
percent of the average benefit. However, SSA chose to set the outcome 
payment rate at 34% of the payment calculation base. Adjusting that 
level upward might also attract more ENs.
    When our task force commented on the proposed Ticket regulations, 
we identified the Report on Adequacy of Incentives mandated by P. L. 
106-170 as a ``key initiative to assure that certain people with severe 
disabilities are able to participate fully in the ticket program.'' 
Among the four groups of people whose circumstances are to be addressed 
in that report are: people with a need for ongoing supports and 
services; people with a need for high cost accommodations; people who 
earn a subminimum wage; and people who work and receive partial cash 
benefits. That report is supposed to be delivered to Congress ``not 
later than 36 months'' after enactment. If the Social Security 
Administration adheres to the direction provided by Congress, that 
report should be issued by the end of this year and should offer some 
specific recommendations for assisting these populations. We encourage 
the Subcommittee to examine that report when it is published and to 
consult with the disability community on the most effective means to 
address particular employment needs of those with the most severe 
disabilities.

3. L``What should SSA specifically do to effectively market the Ticket 
to Work program to its target audience?''

    As we indicated in our written testimony, we certainly recognize 
that SSA and MAXIMUS, along with its marketing subcontractor, NISH, as 
well as many state VRAs have been making concerted efforts to promote 
and publicize TTWWIIA and the Ticket program. Benefits planning 
organizations (BPAOs) and Protection and Advocacy for Beneficiaries of 
Social Security programs (PABSS) have been actively involved in Phase I 
roll out states providing information and guidance to beneficiaries on 
the use of Tickets and the interaction of various work incentives.
    Nevertheless, we believe a variety of additional avenues are 
available to SSA to heighten awareness of the various programs and work 
incentives provisions of TTWWIIA. For example, the Social Security 
Administration is part of an interdepartmental network of numerous 
Federal agencies involved with workforce development. SSA should press 
its counterparts at the Departments of Labor, Education, Health and 
Human Services, Commerce and other agencies to offer information about 
TTWWIIA and the Ticket on their websites and in their communications 
with the public. TTWWIIA was developed to be a multi-dimensional, 
cross-jurisdictional program and SSA should not be solely responsible 
for publicizing this new option for people with disabilities.
    SSA could request that the regional Disability Business Technical 
Advisory Committees or DBTACs, the Job Accommodation Network and 
Centers for Independent Living offer information about TTWWIIA if they 
are not doing so already. Enhanced support for PABSS could draw more 
attention to TTWWIIA through the nationwide network of protection and 
advocacy cross-disability services and programs. SSA might also 
approach private concerns like the Ad Council to produce public service 
announcements in areas where the Ticket is to be issued. Undoubtedly, 
there are additional, relatively economical ways in which to trumpet 
the return-to-work program and we hope SSA will devote more attention 
to utilizing them.
    While marketing the Ticket Program and the other complementary 
pieces of TTWWIIA is critically important, our Task Force also believes 
that all the publicity in the world will be insufficient if 
beneficiaries believe the risks involved with going off benefits to 
work are too great. Widespread confusion and misinformation about the 
Ticket and the other aspects of TTWWIIA may lead many beneficiaries 
with disabilities to forego using their Tickets. By addressing some of 
the issues raised in this letter, your Subcommittee could enhance the 
willingness of beneficiaries to take those risks.
    Thank you for giving our Task Force the opportunity to elaborate on 
our testimony. We look forward to working with you and the Members of 
the Subcommittee to ensure the successful implementation of the Ticket 
to Work and Work Incentives Improvement Act. Please do not hesitate to 
call upon our Task Force if you need additional information.
            Sincerely,
                                                       Susan Prokop
                                                           Co-chair

                                 <F-dash>

    Virginia Commonwealth University, Benefits Assistance Resource 
                                                             Center
                                           Richmond, Virginia 23284
Question 1: What can SSA do to ensure its marketing efforts regarding 
the ticket program are effective?

    The initiation of the Ticket program has been a major challenge for 
SSA. The agency and the Program Manager have done an excellent job of 
designing and implementing operating procedures that have enabled a 
significant number of Employment Networks (ENs) and beneficiaries to 
participate in the program. At the same, SSA, advocates and 
beneficiaries are concerned that the program has not resulted in either 
increased competition among service providers or the emergence of 
``non-traditional'' ENs providing services to SSA beneficiaries.
    To address these concerns, SSA should immediately plan and launch a 
multi-faceted marketing initiative designed to (1) significantly 
enlarge the number ENs available to beneficiaries, (2) ensure that 
agencies and organizations that sign up to be ENs actually participate 
in the program, (3) increase the number of non-traditional services 
providers, especially employers, who are participating in the Ticket 
program, (4) target marketing efforts toward those segments of the SSA 
population most likely and least likely to participate, and (5) prepare 
beneficiaries to receive their Ticket and make informed choices about 
Ticket assignment. Each of these areas of emphasis is briefly described 
below.

Significantly Enlarge the Number of ENs

    SSA should develop and implement a multi-faceted marketing 
initiative that combines targeted marketing approaches with intensive 
technical assistance for ENs. Marketing efforts should continue to be 
directed toward community rehabilitation programs, private 
rehabilitation agencies, State Vocational Rehabilitation agencies, 
advocacy organizations, and similar organizations. Many of these 
organizations are already serving as ENs. However, many agencies have 
attended recruitment fairs conducted by the Program Manager and have 
subsequently not applied to be ENs. Others have completed the 
application, been approved as ENs, but have made a conscious business 
decision not to participate in the program. Both these groups need 
intense technical assistance, in addition to further marketing efforts, 
to promote their full participation in the program.
    Many agencies express initial interest in the prospect of becoming 
an EN. However, upon closer examination, the reimbursement rates 
available to the ENs, and the perceived risks involved in maintaining a 
beneficiary in employment for an extended period of time, lead many 
organizations to view participation with skepticism. However, it should 
be kept in mind that many of the organizations, both for-profit and 
not-for-profit, truly want to assist individuals with disabilities. 
They will be predisposed toward program participation if they believe 
they can do so in a way that is not financially irresponsible. The 
purpose of Ticket related technical assistance should be to show these 
programs potentially effective business models that will allow them to 
successfully participate in the program.
    Several models have begun to emerge that hold promise for potential 
replication across many ENs nationwide. These models involve combining 
Ticket reimbursements with foundation funds or other grant monies, 
collaborating with businesses, combining Ticket reimbursement with 
support from other funding agencies, and specialized job placement 
programs. While the clinical services required to implement these 
models are well within the capacity of many employment service 
programs, the budgeting and financial management of these approaches is 
quite sophisticated for programs used to funding mechanisms based on 
fee-for-service or managed care approaches.
    In the Ticket legislation, the Program Manager is responsible for 
recruiting ENs and operating the program under the direction of SSA. It 
is not charged with the responsibility of assisting ENs to successfully 
participate in the program. Based on initial Ticket implementation, 
many agencies are unwilling to complete the EN application because they 
believe the program is unworkable. SSA should establish a Ticket 
related technical assistance capacity that will provide potential ENs 
the knowledge and support they need to serve beneficiaries in their 
communities. Technical assistance should go beyond basic program 
operation and address customized business models that can make the 
program financially viable for many different types of organizations

Ensure Program Participation

    Those organizations who have signed up to be ENs, but have not yet 
accepted any Tickets, should considered a specific target of the SSA's 
Ticket marketing efforts. It appears that approximately 75% of the ENs 
in the 13 initial rollout states have yet to accept a Ticket 
assignment. While there may be many different reasons for the lack of 
Ticket assignments, if over half of the organizations signed up for the 
program are in fact not participating in the program, it should be 
viewed as a cause for concern. Additional marketing efforts should be 
targeted toward this group to increase the number of eligible entities 
accepting Tickets and serving beneficiaries.
    SSA should assume that, in addition to further marketing efforts, 
these ``non-participating ENs'' require technical assistance to assist 
them in effectively participating in the program. Based on site visits 
I have made to ENs in three states, a sizable number of ENs applied to 
the program without first developing a business plan for successful 
program implementation. After learning more about the program, the ENs 
have made the determination that program participation is not 
economically feasible for them. SSA sponsored technical assistance 
activities should provide these organizations information on the 
business models that have proven most successful for other ENs and 
encourage them to actively participate in the program. Additional 
marketing efforts in the absence of technical assistance will not be 
successful.

Increase the Number of Employers Participating as ENs

    SSA should develop and implement a major marketing initiative 
directed specifically at businesses. The employer marketing initiative 
should have two purposes. First, it should encourage employers to 
become ENs. Employers, particularly large national corporations, may be 
ideally suited to participate in the Ticket program. Since they receive 
virtually no Federal or State rehabilitation funds, Ticket payments 
would not replace an existing funding source, but rather represent a 
new source of income for them. Many employers are highly skilled at 
providing accommodations and promoting return to work for their 
employees through disability management programs. With their existing 
payroll and billing infrastructures, the administrative features of the 
program would create little burden for them. Ticket participation would 
provide employers a powerful incentive for retaining beneficiaries once 
hired and working in their company. The powerful potential of employers 
as ENs has not been tapped and should be the focus of a specific 
marketing campaign. SSA should consider partnering with business 
organizations in this effort.
    The second purpose of an employer marketing program should be to 
encourage employers to hire Ticket holders when approached by ENs. A 
consistent theme emerging from site visits I made to ENs in three 
states was that ENs would like brochures and other marketing materials 
directed toward employers that would explain the program and promote 
hiring efforts. This is particularly true for ENs that have limited 
prior experience providing employment supports to beneficiaries. SSA's 
Ticket marketing program should directly encourage employers to hire 
Ticket holders and assist ENs in marketing the program to employers.

Develop Targeted Marketing Efforts

    SSA should aggressively analyze available data on beneficiary and 
EN participation in the Ticket program in order to more systematically 
target its marketing efforts. A basic principle of marketing requires 
the marketer to fully understand who is, and who is not, using their 
product. At the present time, SSA is seemingly unaware of the basic 
characteristics of beneficiaries who have assigned their Ticket to an 
EN in one of the 13 initial rollout states. The agency should look 
carefully at the current benefit status (SSI, SSDI, or concurrent), 
age, and primary disability of individuals who have made a Ticket 
assignment, and develop marketing plans that reflect these trends. For 
example, if SSDI beneficiaries are assigning Tickets at a significantly 
higher rate than SSI recipients, the agency should expand its marketing 
efforts toward the segment of the population that is most likely to 
participate in the program. Similarly, if younger beneficiaries are 
assigning Tickets at a higher rate than older individuals, or if 
persons with psychiatric disabilities are participating at a higher 
rate than individuals with orthopedic disabilities, customized 
marketing efforts should be developed that are targeted specifically at 
the subgroups with the highest ``take up'' rates.
    At the same time, if a particular segment of the SSA beneficiary 
population is not presently participating in the program, it does not 
mean that these individuals should be ignored, or marketing efforts 
directed toward these individuals should be reduced. Rather, it should 
be assumed that current marketing efforts are not successfully reaching 
these individuals, and alternative approaches should be used to include 
them in the program. SSA's Ticket marketing program should study the 
reasons why individuals are not assigning their Tickets and develop 
specialized marketing efforts that will maximize their participation in 
the program.
    Similarly, SSA should investigate the characteristics of the 
entities and organizations that have applied to become ENs. Are these 
organizations public or private, for profit or not for profit, large or 
small? To what extent do these organizations have prior experience 
providing employment supports to individuals with disabilities? Are 
employers, one-stop centers, educational institutions, and other non-
traditional entities participating in the program? Marketing efforts 
should be customized to reach out to specific sectors of the potential 
EN population. The SSA Ticket marketing program should not be designed 
using a ``one size fits all'' approach. Instead, a series of highly 
targeted campaigns should be used to maximize the diversity and 
increase the supply of ENs.

Prepare Beneficiaries for Ticket Receipt

    SSA should develop and implement an aggressive marketing program 
that prepares beneficiaries to receive their Ticket and make informed 
choices about Ticket assignment. The first time beneficiaries become 
aware of the Ticket program should not be when they actually receive 
the Ticket in the mail. For individuals who have not participated in 
the workforce for protracted periods of time, and who depend on cash 
benefits and health care coverage for their economic well-being, the 
Ticket program may be viewed as quite risky. Receiving information 
about the Ticket program prior to actual receipt may allow 
beneficiaries to gradually learn about the program over time and 
carefully consider the implications of program participation.
    Marketing efforts should focus on, and work in collaboration with, 
agencies and organizations that are frequented by and have contact 
with, SSA beneficiaries. Centers for Independent Living, mental health 
centers, Benefits Planning, Assistance and Outreach (BPAO) programs, 
rehabilitation clinics and hospitals, community rehabilitation 
programs, and advocacy organizations should all be considered SSA 
partners in providing information to beneficiaries about the Ticket 
program. SSA sponsored marketing activities should target beneficiaries 
directly, as well as provide assistance and support to community 
agencies that can assist in the information sharing process.
    SSA marketing activities targeted toward beneficiaries should 
continue after the receipt of the Ticket. The Web site maintained by 
the Program Manager provides basic information on the Ticket program, 
but it is simply not written in a manner that will enable beneficiaries 
to understand and feel comfortable with the program. SSA's marketing 
program should work with advocacy organizations to develop materials 
and create information sources that are understandable and will foster 
beneficiary confidence in the program.

Question 2: Do the individuals providing these services typically meet 
the beneficiaries in-person for discussions, or is the majority of work 
conducted over the telephone?

    Benefits planning, assistance and outreach programs (BPAOs) provide 
services through a combination of telephone calls and face-to-face 
contacts. In order to fully address this question, it is important to 
distinguish among the different levels of service provided by BPAOs. 
While the projects provide a variety of different services, most BPAO 
activities can be grouped into (1) Information and Referral, or (2) 
Intensive Benefits Support.
    Information and Referral--Information and Referral is defined as 
providing basic written and verbal information in response to inquiries 
regarding all Federal and State benefit programs. Information provided 
may include initial and continuing eligibility for programs, impact of 
employment and other changes on benefit status and amount, and 
information on work incentive provisions. This includes referral to 
government agencies and other community services/resources and may 
involve one contact to several contacts over a relatively short period 
of time. Information and referral services may be delivered in person, 
but is generally provided via telephone or written communication. BPAO 
projects indicate that the majority of these services are provided via 
telephone. Some examples of Information and Referral questions that the 
projects might receive include:

        <bullet> LAn individual knows what SGA is but needs to know the 
        current limit.
        <bullet> LA consumer wants to understand work incentives in 
        general but doesn't want to discuss his or her situation.
        <bullet> LCan you help me get those stamps that people use at 
        the grocery store?
        <bullet> LI got this letter from the Social Security 
        Administration saying that my SSI is going down because of my 
        income. Can you tell me how that works?
        <bullet> LMy landlord is raising my rent. Can you tell me where 
        to get subsidized housing?

    In some instances, Information and Referral services may also 
involve problem solving and advocacy activities that provide time-
limited assistance to beneficiaries/recipients in solving specific 
Federal and State benefit and work incentive problems. This level of 
assistance may sometimes require contacting other agencies and programs 
on behalf of the individual. It requires in-person, telephone and/or 
written communication with the individual and other involved parties 
generally over a period of several weeks. Again, BPAO projects indicate 
that the majority of these services are provided via telephone. 
Examples of these types of beneficiary questions might include:

        <bullet> LI get SSI and am getting married. Can you tell me 
        what will happen?
        <bullet> LI got a letter saying that my Medicaid is going to 
        stop. I need the Medicaid for my attendants. Can you help me 
        get it back?
        <bullet> LYou did my benefits analysis last year. I have been 
        telling the SSA about my work, but they haven't stopped my 
        check, should I be worried?

    Intensive Benefit Support--Intensive Benefit Support may include 
activities such as benefits analysis and advisement, benefits planning, 
and benefits management. It is considered a more intensive service than 
those previously stated. Benefits analysis and advisement can be 
defined as a thorough review of the comprehensive information gathered 
for the beneficiary/recipient and an assessment of the real or 
potential impacts of employment and/or other life changes on the 
person's Federal and State benefit programs and overall financial 
status. It also includes development of a comprehensive outline of 
possible options available to the individual and projected outcomes 
associated with each option, as well as providing advisement to support 
an informed choice. The majority of these types of services are 
performed face-to-face rather than via telephone. An example of this 
type of service is as follows:

        <bullet> LEmily receives SSI and SSDI benefits. She wants to 
        understand how work might affect those benefits, but doesn't 
        have a job goal in mind. In Benefits Analysis and Advisement, 
        the benefits specialist verifies Emily's benefits situation and 
        meets with her to explain everything. An analysis of all of the 
        work incentives that Emily may access is developed. An 
        explanation of how the SSI and SSDI programs work together is 
        prepared. Since Emily also receives food stamps and subsidized 
        housing, these programs are explained to her. Finally, a 
        written analysis is prepared and one or more meetings conducted 
        so that she fully understands how work income will affect her 
        benefits.

    Benefits Support Planning involves direct assistance to 
beneficiaries/recipients in the development of a comprehensive, long-
term plan to guide the effective monitoring and management of the 
individual's Federal and State benefit programs and work incentives. 
Benefits support planning addresses desired benefit and work incentive 
outcomes, related steps or activities necessary to achieve outcomes, 
and associated dates or timeframes. Benefits Support Planning services 
are time-limited, generally ranging from several weeks to several 
months. An example of this service is as follows:

        <bullet> LA benefits analysis was prepared for Emily 6 months 
        ago. She is now ready to work. In Benefits Support Planning, 
        her current situation is verified, and assistance is provided 
        to help Emily plan for her new job. A PASS plan may be prepared 
        to pay for interviewing clothes and resume preparation. The 
        benefits specialist explains all relevant work incentives to 
        Emily again and helps her map the points at which she needs to 
        let the SSA know about changes, when things will end or begin, 
        and how to keep track of the PASS receipts and details. These 
        steps are written out for Emily, and calendars and other tools 
        are created so she can keep track of things herself.

    In benefits management, the benefits specialist and beneficiary/
recipient design, implement, monitor, and evaluate the outcome of a 
long-term support plan. It involves ongoing, comprehensive, benefits 
monitoring and management assistance to beneficiaries/recipients who 
are likely to experience employment, benefits, or other changes that 
may dramatically affect their benefit(s) status, health care, or 
overall financial situation. Benefits management services generally 
build on previous planning and assistance services and include periodic 
updates of the individual's specific information, reassessment of 
benefit(s) and overall impacts, education and advisement, and 
additional planning for monitoring and managing benefits and work 
incentives.
    Long-term benefits management services are provided on a scheduled, 
continuous basis, allowing for the planning and provision of supports 
at regular checkpoints. An example of this type of service is as 
follows:

        <bullet> LSusie has severe mental illness and has just been 
        offered a job through a special mental health program making 
        $12,000 per year. She receives SSDI of $942 per month, and pays 
        $435 per month for her medications out-of-pocket. Susie has a 
        severe mental illness. Through benefits management services 
        provided through the BPAO, Susie discovers she will be eligible 
        for the State's Medicaid buy-in program as soon as she begins 
        to work. Susie has a case-manager that she likes, but the case 
        manager doesn't understand Social Security benefits or 
        Medicaid. The benefits specialist works with Susie and the case 
        manager to develop a plan and a detailed analysis is prepared. 
        The analysis may determine that the special program may 
        represent a subsidy and that either the cost of the 
        prescriptions, or prescription copayments if Susie applies for 
        Medicaid, may possibly be used as an IRWE.
        <bullet> LEach month the benefits specialist meets with Susie 
        and her case manager to monitor her situation. SSA determines 
        that Susie has a 40% Subsidy. Susie applies for Medicaid, and 
        now pays only $30 per month in co-payments. The benefits 
        specialist continues to provide support to Susie and her case 
        manager on how to keep receipts and how to continue reporting 
        to SSA. As soon as Susie and her case manager take over this 
        reporting requirement, the benefits specialist backs out, 
        letting them know that they can call if something unexpected 
        happens.

    In summary, BPAO programs provide two distinct types of services. 
Each service requires a different level of communication and 
interaction with the beneficiary/recipient. Information and Referral 
services are less intensive services and in most situations these 
questions can be handled over the telephone. In contrast, Intensive 
Benefits Supports (benefits analysis and advisement, benefits support 
planning, and benefits management) require more in-depth discussion, 
review of records, explanation of specific benefits and review of 
specific calculations. These types of services are very difficult to 
effectively provide over the phone. As of September 30, 2002:

        <bullet> LInformation and Referral services had been provided 
        to 17,762 individuals nationwide. BPAO projects report that 
        approximately 75% to 85% of all Information and Referral 
        services are provided via telephone.
        <bullet> LIntensive Benefits Supports had been provided to 
        16,953 individuals nationwide. BPAO projects report that 
        approximately 75% to 95% of these services are held in a face-
        to-face setting.

Question 3: Are there standards for services that the BPAOs must meet, 
similar to the performance goals that SSA imposes on its 800 number 
calls? How is the accuracy of the information provided measured?

    Before providing services to beneficiaries, benefits specialists in 
SSA funded BPAO programs are required to attend a 5-day training class 
on SSA programs and work incentives conducted by one of three Regional 
Training Centers (RTCs). The RTCs are operated by Virginia Commonwealth 
University (Regions III, IV, VI, and IX), Cornell University (Regions 
I, II, and V), and the University of Missouri (Regions VII, VIII, and 
X). After attending the training class, the prospective benefits 
specialist must successfully complete a field assignment that tests 
knowledge of general SSA information and specific work incentives. 
Benefits also receive an additional 2 days of training on other benefit 
programs (TANF, food stamps, HUD, and so forth) within 6 months of the 
initial training.
    After completing the field assignment, the benefits specialist is 
allowed to deliver services in the local BPAO. There are no specific 
performance standards that the programs are required to meet, other 
than to fulfill all aspects of their cooperative agreement with SSA. 
After beginning to deliver services, benefits specialists receive 
extensive technical assistance provided by the RTCs, attend 2-day 
follow-up training sessions, participate in distance education courses, 
receive information through Web sites and list serves, and communicate 
regularly with other benefits specialists in their state and region.
    By contract, the RTCs provide only training and technical 
assistance. They do not formally monitor the delivery of services by 
the BPAOs. In a number of instances, particularly with new benefits 
specialists, staff from the RTCs may review some or all of the benefits 
analyses and benefits plans developed by a particular specialist for 
accuracy and completeness. However, the purpose of the analysis and 
plan reviews are to verify that the specialist has acquired the 
competencies taught in the 5-day class session, and to target specific 
technical assistance, rather than to monitor the quality of services 
provided by the BPAO.
    SSA program regulations and work incentives are extremely complex 
and any inaccurate or incomplete information provided to beneficiaries 
is a serious concern. I am aware of situations in which benefits 
specialists have made mistakes during analysis and advisement. These 
instances are shared with the SSA Office of Employment Support 
Programs. For the most part, however, the quality of services provided 
by the BPAOs is very high, especially for a new program and 
particularly in relation to the information provided by other 
organizations involved in the implementation of the Ticket legislation. 
BPAOs routinely encounter beneficiaries who have received inaccurate 
information from an EN, the Program Manager, a Protection and Advocacy 
organization, a State Vocational Rehabilitation agency, or even an SSA 
field office. Correcting the inaccurate information provided by others 
is a major function of the BPAOs.
    To further improve the quality of services provided by BPAOs, SSA 
could consider conducting program audits of the benefits analyses and 
benefits plans developed by local specialists. Given the fact that 
there are 116 local BPAO programs and nearly 150 individual sites, 
monitoring the telephone contacts of these programs might prove to be 
impractical. However, SSA could review a number of analyses or plans 
developed by benefits specialists through a simple file review that 
could be conducted on a regular schedule. Such a monitoring function 
would require a cadre of highly skilled and experienced experts to 
detect mistakes and inaccuracies in these highly detailed reports.

                                 <F-dash>

    [Submissions for the record follow:]
      
                        Independent Living Resource Center of NE FL
                                        Jacksonville, Florida 32207
                                                    October 7, 2002
Subcommittee on Social Security
Room B-316
Rayburn House Office Building
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cda5a8acbfa4a3aaaea1a8bfa6bee3baacb4beaca3a9a0a8aca3be8da0aca4a1e3a5a2b8bea8e3aaa2bb">[email&#160;protected]</a>  

FAX (202) 225-2610

    Dear Members of the Ways and Means Committee:
    I write this letter because of my interest in helping people with 
disabilities and as a disabled person myself. I also was move by the 
statement made by Mr. Shaw in announcing the hearing. Mr. Shaw stated: 
``Simply put, the Ticket to Work program is about work. Its aim is to 
replace barriers with opportunities, so that individuals with 
disabilities may achieve their goal of working and supporting 
themselves and their families. We must ensure implementation of this 
important program proceeds smoothly and addresses the concerns and 
needs of individuals with disabilities who want to work and 
organizations that are serving them.''

ESR's and BPAO

    I believe these programs have been instrumental in many facets of 
the lives of people with disabilities on benefits and wanting to try to 
work. So many myths and misinformation are floating about and this 
leaves consumers confused and scared.
    I am a disabled individual. I was on benefits and very much feared 
losing my medical benefits through employment. I took a job as a 
Benefit Specialist in Colorado with the idea, if they could show me how 
to maintain my medical benefits I would continue the employment. During 
the training, my fears were lifted and I saw that employment was an 
option.
    As a Benefit Specialist, I was amazed at all the people on Benefits 
I met that had that same fear. All the misconceptions I cleared up, the 
information on old and new work incentives I gave, and the empowerment 
I gave people to take control of their own lives makes me firmly 
believe that this program is essential for all beneficiaries and 
recipients of Social Security. We have the time and knowledge to help 
CR's with consumers thinking about employment to make sure accurate 
information is dispersed making everyone's lives easier. The BPAO 
program is an invaluable part of the ticket legislation.
    I have had the incredible fortune of being able to work with the 
ESR program. This program has been an intricate part of helping 
individuals on benefits who want to work. This includes consumers that 
find employment then find out for some reason their records are 
inaccurate. These people can get help from an ESR, get their record up 
to date and accurate so they can feel good about working without the 
stress of what's going to happen to them from SSA.

SSI and families

    When you really look at the program, it is anti-family. I say this 
because if you have a disability and are on SSI, if you marry and that 
spouse works, you the recipient is penalized by losing medical and cash 
benefits. Now the loss of the $545.00 or less is not as much of an 
issue as the loss of the medical benefits. For instance, take a SSI 
recipient that is working and overcoming the barrier of medical 
insurance through the 1619(b) provision of SSI. Now that they are 
working and feeling more independent and just wanting `life, liberty 
and the pursuit of happiness', they find out that if they were to marry 
and start a family they will lose everything they have worked for. But 
it is OK for them to have illegitimate children or out of marriage 
sexual relations.
    Some of these individuals have no choice but to be on SSI. For 
example, the child who becomes disabled before age 22. Has had no 
opportunity to earn enough work credits for SSDI, neither parent is 
disabled, retired or dead and needs medical assistance in order to 
live. This individual, not knowing what they can accomplish with their 
disability, ends up on the SSI roles. Not only are you keeping them in 
poverty if they can't work but if they do take the initiative to chase 
the American dream, they are quashed if they want a family of their 
own.
    Another example, you have the already married couple that are both 
SSI recipients. In this case, not only if one of them becomes employed 
does the non-employed spouse fear losing their benefits, but they are 
treated as one person and get less benefits all together because of 
their being married.
    Solution. Have a provision for SSI where a SSI recipient who has 
earned income can have spousal protection. Spousal protection: meaning 
that the SSI recipient's non-cash benefits would be calculated based on 
only the SSI recipient's earned income. As a safety net, if that person 
become unemployed, due to their disability, They could retain their 
medical benefits (even if their spousal income pushes them into no-pay 
status) for up to 93 months, like Medicare does in the Expedited 
reinstatement process.
    I thank you for reading my comments and please feel free to contact 
me with any questions.
            Sincerely,
                                                      Natalie Alden
                                           BPAO Project Coordinator

                                 <F-dash>

     Statement of Carl Suter, Executive Director, Council of State 
    Administrators of Vocational Rehabilitation, Bethesda, Maryland
    Chairman Shaw, Ranking Member Matsui, and Members of the 
Subcommittee, I am Carl Suter, the Executive Director of the Council of 
State Administrators of Vocational Rehabilitation, known as the CSAVR.
    The CSAVR is composed of the chief administrators of the public 
rehabilitation agencies serving persons with physical and mental 
disabilities in the States, District of Columbia, and the Territories. 
These agencies constitute the state partners in the State-Federal 
program of rehabilitation services provided under the Rehabilitation 
Act of 1973, as amended. The State Agencies supervise the 
rehabilitation of more than 1.2 million eligible individuals with 
disabilities annually. Of those eligible individuals served each year, 
by the State Agencies, more than 233,000 are placed in competitive 
employment.
    On behalf of the CSAVR, I submit this written testimony in response 
to the September 26, 2002, oral and written testimony provided by the 
National Association of Protection & Advocacy Systems (NAPAS) before 
the Subcommittee on Social Security of the House Committee on Ways and 
Means.
    My response is focused on the section of NAPAS' testimony that 
addresses the State Vocational Rehabilitation Agencies' (VR) 
implementation of the Ticket to Work. I respectfully request that this 
testimony be entered in its entirety into the September 26, 2002, 
permanent hearing record of the Subcommittee.
    First, I would like to provide some background information on the 
unique role that the Public VR Program plays in the Ticket to Work 
Program. The Ticket to Work and Work Incentives Improvement Act of 1999 
(TWWIIA) was designed to increase employment opportunities for 
beneficiaries who receive cash benefits under the Social Security 
Disability (SSDI) and Supplemental Security Income (SSI) programs to 
encourage them to enter or re-enter the workforce. According to the 
U.S. General Accounting Office, less than one percent of these 
individuals leave the SSDI and SSI rolls each year as a result of paid 
employment. While State VR Agencies serve thousands of beneficiaries 
with disabilities each year, a majority will choose not to seek 
assistance from VR for fear of losing needed health care coverage, 
which has been the pervasive and persistent problem for SSI and SSDI 
beneficiaries not entering or returning to work.
    Prior to the Ticket, the Social Security Administration (SSA) would 
reimburse VR for client services and administrative costs when VR was 
successful in placing individuals on SSDI and SSI in employment that is 
sustained over a nine-month period with earnings equal to substantial 
gainful activity (SGA). I am pleased to report that for FFY ending 9-
30-2002, the amount of reimbursement from SSA to the State VR Agencies 
was $131,014,755. This was the largest amount ever received, and an 
increase of $27,000,000 over FFY 2001. This record reimbursement 
demonstrates the State Vocational Rehabilitation Agencies' commitment 
to serving individuals who are SSDI and SSI recipients and 
substantiates the results.
    The Ticket to Work Program expands SSA's options for providing 
compensation to State VR agencies, and for the first time, permits SSA 
to compensate private providers, when the provision of services and 
supports results in an individual working and earning SGA. Private 
providers can apply to SSA for approval to serve beneficiaries with 
tickets and receive compensation, either through an outcome payment or 
milestone and outcome payments combined, when a beneficiary's earnings 
from work result in the discontinuation of cash benefits. Approved 
providers are referred to as Employment Networks (ENs).
    Since VR is the only program that will be automatically approved to 
provide services to beneficiaries under the Ticket Program, the impact 
on the Public VR Program is likely to be dramatic. Over the next two 
years, tickets will be mailed to eligible beneficiaries along with 
information on how to use the ticket to obtain training and employment 
services. Many beneficiaries will call local VR agencies to find out 
more about the Ticket Program. With the complementary work incentives 
provisions in TWWIIA, it is expected that larger numbers of 
beneficiaries will be willing to attempt work than in the past.
    State VR Agencies were extremely disheartened by the manner in 
which they were portrayed by the oral and written testimony presented 
by NAPAS on September 26, 2002, in implementing the Ticket to Work 
Program. The State VR Agencies in the first 13 states to implement the 
Ticket had to move forward in planning for Ticket implementation before 
issuance of the final regulations governing the Program. In the case of 
the Ticket to Work Program, many difficult policy decisions were left 
up to the Social Security Administration (SSA) to interpret through 
regulation. The final regulations were published in the Federal 
Register in December 2001.
    Part of SSA's interpretation of the Ticket Program is that State VR 
Agencies must participate in the Ticket to Work Program to receive any 
type of payment for successfully serving a beneficiary with a 
disability who has a ticket. There are many policy questions inherent 
in VR's participation in the Ticket Program. The CSAVR has been in 
discussions with SSA over a number of policy issues since tickets were 
first mailed in February 2002. TWWIIA is clear, however, that State VR 
Agencies must still operate in compliance with the requirements of 
Title I of the Rehabilitation Act and its governing regulations. This 
means that the interface between the requirements in Title I of TWWIIA 
and Title I of the Rehabilitation Act must be clarified and addressed 
through policy guidance.
    In August 2002, SSA issued a new chapter to the procedures manual 
that State VR Agencies must use to secure compensation from SSA for 
successfully serving beneficiaries with disabilities. The SSA chapter 
specifically addresses what State VR Agencies must do to participate in 
the Ticket to Work Program, establishing both policies and procedures 
for VR's participation. For example, the chapter establishes a policy 
whereby a beneficiary who approaches VR for services after receiving a 
ticket, and who, through informed choice, decides to sign an 
Individualized Plan for Employment (IPE) with VR, has, for SSA's 
purposes, assigned their ticket to VR. This policy interpretation has 
led some advocates to believe that VR Agencies are ``forcing'' 
beneficiaries to assign their tickets to VR, when in fact; VR is merely 
following SSA's procedures.
    State VR agencies, like all stakeholders involved with the Ticket 
implementation, have acknowledged that implementing the Program is a 
work in progress. To date, approximately 80 percent of the 
beneficiaries who have decided to participate in the Program have 
assigned their tickets to State VR Agencies. Since the structure of the 
Ticket Program does not provide any ``upfront'' funding to serve 
beneficiaries, EN's who want to participate in the program will have to 
absorb considerable costs, pending payment from SSA, after the 
beneficiaries they serve obtain and maintain employment at SGA. In some 
states, the State VR Agency is partnering with other providers to form 
a coalition which functions as a single EN. In other States, the State 
VR Agency will be operating independently and competitively with other 
ENs.
    Some State VR Agencies acknowledged that early on, missteps might 
have occurred in information communicated to VR customers. These 
missteps, however, were remedied as quickly as possible, upon receipt 
and clarification of information from the SSA.
    That said, State Agencies, have not now nor ever have been 
``raiding'' the Ticket program as alleged by NAPAS in their written 
testimony. Relatedly, the State Agencies have not and do not pressure 
existing clients into assigning their tickets to VR.
    Indeed, some State VR Agencies have reported that EN's are 
referring individuals to VR that they are choosing not to serve. These 
are predominantly individuals with the most significant disabilities 
and high support needs, who are and will be more costly to serve and 
individuals who need services that are not available through the EN.
    It is difficult to comprehend how NAPAS has determined that VR 
Agencies are ``raiding,'' the ticket program, when it is the Public VR 
agencies who serve eligible individuals with the most significant 
disabilities, among others, unlike all of the other Employment Networks 
who can refuse to serve any individual with disabilities who may seek 
services and supports from them. In some States, State VR Agencies have 
entered into Memoranda of Understanding with other EN's, which define 
how they will share in the costs of services for mutual clients and 
share in the reimbursement from SSA.
    NAPAS stated in their testimony that State VR Agencies who are 
operating under an Order of Selection (OOS) are taking tickets from 
beneficiaries and placing them on waiting lists, if they do not meet 
the States' OOS criteria to receive services. SSDI and SSI recipients 
who want to work are presumptively eligible for VR services, and, in 
most cases, are also individuals with the most significant 
disabilities. These individuals are among the first to be served under 
any States OOS, second only to serving existing VR clients and 
providing diagnostic services to new clients.
    NAPAS implied in their testimony that State VR Agencies adopt an 
OOS at will. You should be aware that implementing an OOS is not an 
option at the discretion of the State Agency, but a requirement under 
the Rehabilitation Act of 1973, as amended, if VR Agencies have 
insufficient resources or staff to serve all eligible individuals who 
seek services from VR.
    On more than one occasion, staff from the CSAVR have invited NAPAS 
staff to work with us on identifying State Agencies that they have 
reason to believe may not be serving Ticket customers appropriately. We 
have assumed, and will continue to assume, a leadership role in working 
with these Agencies to identify--not by innuendo as NAPAS did during 
the hearing--but by actually identifying the alleged instance(s) of 
non-compliance and working in concert with one another to correct a 
misinterpretation or problem.
    Anecdotal accusations and criticisms cannot--and should not--be 
tolerated by anyone, including the Congress. Individuals who have 
inflated the size and scope of anecdotal incidences and unsubstantiated 
charges should be held accountable for making them.
    In this regard, the CSAVR has requested from NAPAS that we be made 
privy to any and all information that suggests or implies that VR 
Agencies are not in compliance with the law in their implementation of 
the Ticket to Work.
    Notwithstanding these unsubstantiated charges, the CSAVR plans to 
continue to work with State VR agencies and other stakeholders to 
remedy any alleged missteps or misinformation that may, or may not, be 
occurring at the VR Agencies and elsewhere.
    Like hundreds of thousands of others, we are very proud of the 
Public VR Program, a proven, evidence-based service delivery system 
that is indisputably the most successful employment program in the 
history of the workforce.
    Perhaps that is the reason so many individuals with disabilities 
continue to choose overwhelmingly the Public VR Program for the 
services and supports they need to enter the world of work.
    Thank you for the opportunity to share our concerns with you on the 
testimony presented at the September 26 hearing regarding State 
Vocational Rehabilitation Agencies' implementation of the Ticket to 
Work program.
    We look forward to working with you in ensuring that beneficiaries 
with disabilities--including those with significant disabilities--are 
served and served well by all employment networks.
    In closing, we again acknowledge that there are isolated incidences 
where misinformation may have occurred; however, these do not translate 
to the overwhelming negative criticism of State VR Agencies' 
implementation of the Ticket to Work for thousands of beneficiaries 
with disabilities.

                                 <F-dash>

    Statement of Steve Miller, Member, Board of Directors, National 
           Alliance for the Mentally Ill, Arlington, Virginia
    Chairman Shaw, Congressman Matsui and members of the Subcommittee, 
I am Steve Miller of Cedar Rapids, Iowa. I am pleased to submit this 
testimony to the Social Security Subcommittee on behalf of the National 
Alliance for the Mentally Ill (NAMI). Since 2001, I have served on the 
Board of Directors at NAMI--the largest national organization 
representing people with severe mental illnesses and their families--
220,000 members and 1,200 affiliates in all 50 states. NAMI strongly 
supported the Ticket to Work and Work Incentives Improvement Act 
(TWWIIA) when it passed Congress in 1999 and is on record in strong 
support of its full implementation in reaching all people with severe 
disabilities that want to participate in the American workforce. NAMI 
applauds President Bush for his support of full implementation of 
TWWIIA as part of his ``New Freedom Initiative'' for people with 
disabilities. We embrace the President's goal of ensuring that TWWIIA 
works to remove barriers to employment and full participation in 
society and eliminate perverse incentives that leave consumers better 
off by staying on government benefit programs, rather than working.
    For NAMI, the goals of TWWIIA are central to the NAMI vision for 
recovery from mental illness and full participation in community life. 
At NAMI we know that mental illnesses are real, with symptoms that are 
disabling and capable of destroying lives. We also know that treatment 
for mental illnesses such as schizophrenia, bipolar disorder and major 
depression are effective and based on a large and growing body of 
scientific evidence. We know that when consumers are able to access 
evidence-based treatment and supportive services--a process that is 
often difficult as a result of our country's fragmented and underfunded 
public mental health system--they can achieve recovery and a full life. 
Further, there is substantial evidence that work actively reduces the 
symptoms of mental illness and can prevent relapse. NAMI's consumer and 
family membership feels strongly that genuine recovery from mental 
illness can and should mean the opportunity to work.
    More importantly, NAMI also believes that real recovery cannot be 
realized so long as consumers are forced to spend their entire adult 
lives trapped on programs such as SSI and SSDI (and the Medicare and 
Medicaid eligibility that go with them)--not because they do not want 
to work or cannot work, but because these government programs operate 
as barriers to employment. TWWIIA can and should be an instrument to 
recovery from mental illness and away from lifelong dependence. 
Unfortunately, TWWIIA has not achieved these goals thus far for people 
with severe mental illness. As I will discuss in my testimony, more 
needs to be done to resolve long-standing problems with the way the 
Social Security Administration (SSA) administers its current programs 
(both TWWIIA and others). In addition, changes need to be made to the 
final TWWIIA regulations to ensure that more beneficiaries can access 
the program.
    Before moving on to NAMI's comments on TWWIIA implementation, I 
wanted to note for the record my own background and personal experience 
in dealing with Social Security's disability programs. I was first 
diagnosed with schizophrenia in 1979 when I was 19 years old. I became 
eligible for SSI in 1990 and was shifted to the SSDI in 1996 when my 
father retired. A few years ago, I made major progress toward recovery 
when I was able to access one of the newer more effective atypical 
anti-psychotic medications that has consistently improved my 
functioning to the point that I am now working as the coordinator of 
``Peer-to-Peer'' programs for NAMI Iowa. Since this past summer, I have 
been collecting a salary--something I am very proud of. At the same 
time, like all other SSDI beneficiaries I have to be careful to keep my 
earnings below substantial gainful activity (SGA) in order to avoid 
compromising eligibility for cash benefits (and more importantly) 
health care coverage.
    TWWIIA is intended to help consumers like me achieve enhanced 
recovery and independence--and NAMI hopes that it one day will. As part 
of my testimony, I would like to highlight a few concerns (both with 
the TWWIIA regulations and the way SSA continues to do business) that 
NAMI believes the Subcommittee needs to address.
1) SSA's handling of beneficiary earnings reports is incompatible with 
        making TWWIIA effective.
    This concern predates passage of TWWIIA and goes straight to the 
experiences of many consumers struggling to move off of SSI and SSDI 
toward employment. Currently, SSA does not have the means to intake and 
track earnings of beneficiaries who work. Frequently, beneficiaries who 
work continue to receive disability checks, despite the fact that their 
earnings have made them ineligible for benefits. Further, SSA takes 
months, usually years, to ``catch up'' with a beneficiary who should 
have had their checks stopped. When SSA does catch up with a 
beneficiary, the person usually owes thousands, and maybe tens of 
thousands of dollars, in overpayments. This creates havoc with a 
beneficiary who in the course of attempting to work finds themselves 
financially worse off. SSA ignores this problem despite the impact on 
individuals. However, under TWWIIA with the payment to Employment 
Networks (ENs) and the Continuing Disability Review (CDR) protection 
now dependent on SSA stopping checks in a timely fashion, this problem 
can become catastrophic for Ticket holders.
    Although SSA has not proposed a rule on this issue, this matter is 
critical to the success of the Ticket program. In NAMI's view, SSA must 
address this issue in order for the program to be effective and to 
ensure that beneficiaries have sufficient confidence in the system in 
order to take the risks inherent in using the Ticket program to go to 
work. NAMI strongly recommends that SSA initiate a change to ensure 
that an EN's report to the Program Manager (PM) on a beneficiary's 
income and earnings be given by the PM to SSA within 30 days. Further, 
as an additional requirement SSA should make clear that if within 60 
days of the PM's report to SSA, SSA has failed to appropriately stop or 
adjust a beneficiary's check, SSA cannot hold the beneficiary liable 
for overpayments and SSA must make payment to the EN as though the 
benefit has been adjusted or ceased.
2) Restrictions on Ticket eligibility are preventing beneficiaries with 
        mental illness from accessing the program.
    In our comments to SSA on both the Draft and Final TWWIIA 
regulations, NAMI expressed two major concerns with respect to 
eligibility for the Ticket program: limitations for those labeled as 
``Medical Improvement Expected'' (MIE) and the limitation of one Ticket 
per period of eligibility. Citing administrative feasibility, SSA's 
final regulations kept in place a bar on eligibility for a Ticket to 
anyone designated MIE that has not had their first CDR. At the same 
time, SSA claims that it plans to ``evaluate'' the methodology used to 
classify individuals MIE to ``assess possible ways to improve the 
system for use in identifying those beneficiaries for whom near-term 
medical improvement should preclude the immediate receipt of a 
Ticket.''
    This is particularly troubling for several reasons. First, a high 
proportion of SSI and SSDI beneficiaries classified as MIE have severe 
mental illness as the primary basis for their successful disability 
claim. Second, historically, SSA has had a tremendous backlog in 
completing CDRs, resulting in significant delays until these mandated 
reviews are completed. There is growing evidence that this MIE 
restriction is resulting in significant delays in beneficiaries with 
severe mental illnesses getting Tickets. This runs counter to a large 
body of research indicating that early employment and rehabilitation 
interventions are more effective in serving most consumers.
    With respect to the one Ticket per period of eligibility 
limitation, SSA again appears to be using an overly narrow view of the 
statute. In NAMI's view, SSA ought to allow individuals to be eligible 
for another Ticket when the cash value of their first Ticket is 
exhausted, i.e. when the first 60 non-consecutive month limit had been 
reached. This one Ticket per eligibility period limit is especially 
troubling for SSI beneficiaries participating in 1619 programs that 
allow for extended health and cash benefits for beneficiaries entering 
the workforce. These SSI beneficiaries often retain ``eligibility'' for 
benefits under 1619(b) even though they are not receiving any cash 
benefits. For these individuals, the Ticket could be fully paid out and 
the person would come back into payment status and not be able to get 
another Ticket because they are still considered to be in the same 
``period of disability.''
    In addition, some individuals with high upfront rehabilitation 
costs who are served by their state vocational rehabilitation (VR) 
agency are seeing their chance to fully benefit from a Ticket limited. 
In many cases, VR agencies are reimbursed for the full costs of 
services, even if the cost is higher than the total value of the 
Ticket, so long as a person achieves nine months of Substantial Gainful 
Activity (SGA). Since nine months of SGA still leaves a person eligible 
to receive SSI or SSDI, the person will still be on the rolls, not 
having achieved full independence. However, these same individuals no 
longer have access to services because they do not have a Ticket. This 
result is especially unjust in the rehabilitation of individuals with 
severe mental illness, since state VR agencies have generally done a 
strikingly poor job of tailoring VR programs to their need for ongoing 
job related supports.
3) Slow recruitment of Employment Networks (ENs) is preventing the 
        development of real consumer choice for employment and 
        rehabilitation services.
    Under TWWIIA, SSA is supposed to enter into agreements with ENs to 
provide vocational, employment rehabilitation services to Ticket 
holders. The idea is to promote consumer choice and shift incentives 
toward paying for specific outcomes (long-term successful job 
retention), rather than short-term results (job placement alone). Under 
TWWIIA, beneficiaries with disabilities would no longer be limited to 
seeking services from a public VR agency that is ill-equipped to 
provide longer term job-related supports designed to help hold down a 
job. More importantly, innovative programs in the employment and 
rehabilitation field such as clubhouses, consumer-run services and 
psychosocial rehabilitation programs would be able to serve consumers 
outside of the cumbersome and outdated payment rules governing VR.
    According to SSA and Maximus, as of this month 425 providers have 
signed up to be ENs. While this appears on its face to be a large 
number given that it is only in the 13 pilot states, NAMI is 
nonetheless disappointed that only a handful of these approved ENs have 
significant experience in serving individuals with psychiatric 
disabilities. In NAMI's view, more needs to be done to bring innovative 
and cutting edge providers into the program ENs in order to ensure that 
meaningful consumer choice is realized. This is especially needed in 
the case of innovative programs such as clubhouses, psychosocial 
rehabilitation programs and Peer-to-Peer programs that NAMI believes 
have greater potential to produce positive long-term employment 
outcomes for people with mental illness.
4) The Outcome-Milestone payment system in the regulations makes SSI 
        beneficiaries a bad risk for providers.
    The payment systems for ENs are perhaps the most complex and 
important provisions in the TWWIIA regulations, particularly with 
respect to the ``outcome-milestone'' payment system. As you know, 
Congress provided SSA with wide discretion in how to craft this system 
with general guidance to ensure that providers are rewarded for helping 
beneficiaries meet individualized goals that are short of getting 
completely off of cash benefits--the latter being a major concern for 
SSI beneficiaries.
    There is growing evidence that most ENs view SSI clients as more 
risky with a much longer return on investment for the EN. As TWWIIA 
Advisory Panel member Stephen Start has noted, a small EN would break 
even on most SSDI clients after 2.4 years versus 5.5 years on a client 
on SSI. He and others have suggested it is better for ENs serving SSI 
beneficiaries to partner with other entities to mitigate the front-end 
cash requirements needed until SSA starts to pay.
    Some of the impediments to serving those on SSI, or those with the 
most severe disabilities, derive from the fact that it takes longer for 
these beneficiaries to reach ``zero cash benefits'', the point at which 
an EN gets paid. In addition, payments to ENs for serving clients on 
SSI are lower because SSI benefits are lower than those for clients on 
SSDI. The requirement that a beneficiary go completely off cash 
benefits also works against those who may only be able to work part-
time and those with vision impairments who must reach the higher blind 
SGA level.
    As our CCD colleagues have noted, NAMI appreciates the fact that 
SSA increased the number and amount of milestone payments. However, we 
continue to believe that the payments are inadequate to ensure a wide-
range of ENs are available to serve Ticket holders with the most 
significant barriers to employment, i.e. those that need intensive 
employment supports and those who want to work but may remain on 
benefits for an extended period of time.
5) Ongoing frustrations regarding the lack of coordination between 
        public vocational rehabilitation (VR) and TWWIIA.
    As noted above, one of the major policy objectives of TWWIIA was 
fostering consumer choice and maximizing long-term successful 
employment outcomes for people with severe disabilities. Despite this, 
Maximus (SSA's national Program Manager) is reporting that most Tickets 
are being assigned to state VR agencies and, rather than competing with 
private ENs under the Ticket payment options, most VR agencies are 
opting to be paid under the traditional cost-reimbursement method. 
Opting for the traditional payment method also allows the public VR 
agency to ``close'' a case after only nine months, as opposed to the 60 
month ``investment'' in the client required of private ENs. 
Furthermore, there are persistent reports among private providers of 
significant reluctance of private providers to become employment 
networks. These private providers perceive, whether justified or not, 
that becoming an EN might jeopardize an existing relationship with 
their state VRA. This unease, coupled with the financial risk of the 
payment system as outlined above, may discourage providers from 
becoming ENs, thus further limiting choice of provider to 
beneficiaries.
6) Current budget crises in the states are severely hampering the 
        development of Medicaid ``buy-in'' programs.
    Recognizing that your colleagues at the Energy and Commerce 
Committee have jurisdiction over Medicaid, NAMI nevertheless wanted to 
share with you our observations about this important element of TWWIIA. 
According to CMS figures, 22 states, slightly less than half, are 
involved in some fashion with a Medicaid buy-in--either through the 
1997 BBA or TWWIIA. While this is encouraging, the actual enrollment 
figures in some states are frustratingly low, e.g. only 40 in Florida, 
75 in Mississippi, 80 in Nebraska. In addition, there are troubling 
signs that increasing state budget shortfalls are already discouraging 
participation by additional states in this important health care work 
incentive program. According to a report from CMS, Florida has 
indicated that it plans to repeal its Medicaid buy-in option. Assuring 
beneficiaries that they would retain access to health insurance 
coverage was a key tenet of TWWIIA. Moreover, Medicaid buy-ins were 
meant to supply important additional benefits not found in Medicare and 
considered necessary for many disabled beneficiaries to take the risks 
inherent in entering the workforce. NAMI remains very concerned that 
fiscal difficulties in nearly every state are foreclosing opportunities 
through TWWIIA for millions of SSI and dual eligible beneficiaries.
    A similar phenomenon is occurring with respect to the ``pre-
disabled'' demonstration option for the states under Section 204, i.e. 
Medicaid coverage for workers with potentially severe disabilities 
that, without medical treatment, could place them on SSDI or SSI 
disability rolls. A total of $250 million was made available to the 
states, at the regular Medicaid matching rate, to provide Medicaid to 
such ``pre-disabled'' workers who meet state-set and HHS-approved 
medical criteria and are working at least 40 hours monthly (or meet 
comparable HHS-approved rules). However, apparently less than half the 
appropriated federal funds will be drawn down under current 
projections. This is because--again--recession-related state funding 
shortages have prevented all but four states from taking this option--
and even they are only now completing implementation (including the 
Texas programs covering people with early-stage schizophrenia and 
bipolar disorder). NAMI would like to join CCD in recommending that the 
authority for this option be extended and that the Secretary's required 
recommendations be postponed for at least two years in order to allow 
more time for the program to play out.
7) SSA has been slow to develop the required ``1 for 2'' demonstration 
        program under the SSDI program.
    NAMI remains concerned about SSA's lack of progress in moving 
forward with the mandatory ``1 for 2'' demonstration authorized as part 
of TWWIIA. Beneficiaries that fear the adverse consequences of 
returning to work regularly cite the ``cash cliff'' that SSDI 
beneficiaries face when they reach SGA (currently $780 a month). This 
demonstration will test the feasibility of reducing Title II benefits 
as earned income rises. NAMI respects that this demonstration may be 
limited in scope to a handful of states and would certainly have 
preferred that it be a nationwide study. At the same time, NAMI 
believes it is more important for SSA to move on with this 
demonstration expeditiously so that we can begin to answer the many 
questions surrounding the merits of that policy.
8) Confusion regarding eligibility is especially difficult for 
        ``disabled adult children'' (DACs).
    The overwhelming confusion and complicated rules governing 
eligibility beneficiaries classified as ``disabled adult children'' or 
DACs requires some attention from SSA and this Subcommittee if the 
Ticket program is to be successful for these individuals. For a DAC, 
leaving the SSDI program as a result of earning above the SGA level 
after the extended period of eligibility (EPE) and a re-entry grace 
period have expired, could mean the loss of ``disabled adult child'' 
status for life. The experience of many NAMI families under current law 
indicates that some do not understand that the benefits a parent has 
earned for their disabled adult child (severely disabled since 
childhood) could be permanently lost with no re-entry to DAC status 
under SSDI after a certain period of time with earnings over SGA. This 
must be addressed to avoid completely undermining the purpose of TWWIIA 
for those who qualify for benefits as DACs. TWWIIA clearly envisioned 
the ability of DACs to move on and off the program to the same extent 
that other people with disabilities will be allowed to do so.
Conclusion
    Mr. Chairman, thank you for the opportunity to share NAMI's views 
on this important issue for individuals with severe mental illnesses 
and their families. We are committed to working with every member of 
this Subcommittee and SSA to ensure that TWWIIA meets its goal of 
assisting all SSI and SSDI beneficiaries in trying to reach toward 
recovery, greater independence and full community integration.

                                 <F-dash>

 Statement of Witold Skwierczynski, President, National Council of SSA 
  Field Operations Locals, and Representative, American Federation of 
           Government Employees, AFL-CIO, Baltimore, Maryland
    Chairman Shaw, Ranking Member Matsui, and members of the Social 
Security Subcommittee, I respectfully submit this statement regarding 
the implementation of Ticket To Work and Work Incentives Improvement 
Act. As a representative of AFGE Social Security General Committee and 
President of the National Council of SSA Field Operations Locals, I 
speak on behalf of approximately 50,000 Social Security Administration 
(SSA) employees in over 1300 facilities. These employees work in Field 
Offices, Offices of Hearings & Appeals, Program Service Centers, 
Teleservice Centers, Regional Offices of Quality Assurance, and other 
facilities throughout the country where retirement and disability 
benefit applications and appeal requests are received, processed, and 
reviewed.

Ticket to Work

    AFGE has advocated and testified since the enactment of TWWIIA for 
the implementation of the Employment Support Representative (ESR) in 
SSA's field offices throughout the country. This position is the key to 
delivering service to the public in the beleaguered and complex area of 
work incentives. The success of TWWIIA is dependent on implementation 
of this legislatively mandated position as SSAs corps of trained, 
accessible and responsive work incentives specialists.
    As members of the subcommittee know, this legislation mandating 
specialists within SSA is the result of the failure of SSA to both 
provide accurate information on work incentives and also process work 
CDR cases timely and accurately. SSA created the Employment Support 
Representative (ESR) position as this federal work incentives 
specialist. The pilot of 32 ESRs testing models of how best to service 
the disabled community concluded in August 2001.
    The final Evaluation Report of the ESR position was completed in 
November 2001. Findings of the report clearly showed that the ESR was 
resoundingly successful in serving beneficiaries, communities, and 
organizations in all return to work issues encountered in both the SSDI 
and SSI programs. Beneficiaries and community organizations were 
overwhelmingly appreciative of the services the ESR performed, finding 
them to be compassionate, responsive, accessible, and highly 
knowledgeable. The investment of the ESRs in outreach programs resulted 
in increased trust of SSA by the communities, and increased program 
knowledge on the part of professionals and consumers.
    Furthermore, the ESRs were able to develop a single point of 
contact with beneficiaries, monitor their work progress in a timely and 
supportive manner, and process work reports and work-issue Continuing 
Disability Reviews (CDRs) timely. This resulted in reducing large 
benefit overpayments and a reduction in anxiety for the beneficiary. 
ESRs gave examples of customers who, with ESR guidance, were able to 
reliably predict the outcome of their work activity and viewed benefit 
cessation as a mark of achievement.
    The significance of the single point of contact within SSA that the 
ESR provides cannot be overemphasized. GAO recently published a report 
called: ``Enhanced Procedures and Guidance Could Improve Service and 
Reduce Overpayments to Concurrent Beneficiaries''. Currently, little 
coordination exists in offices between the work incentives in SSI and 
SSDI. This confuses beneficiaries, and often results in discouraging 
them from working, or not effectively utilizing all available work 
incentives. The ESR is a specialist in both SSDI and SSI work 
incentives, and processes TWP, work issue CDRs, promotes PASSes, posts 
wages to SSI records, explains Medicare and Medicaid entitlements. 
Furthermore, the ESR as a specialist in work issues for both programs, 
would recognize and develop timely entitlement to SSDI benefits on the 
part of the SSI recipient.
    Work reports of disabled beneficiaries are currently not 
effectively processed. SSA does not have in place an adequate mechanism 
to process work reports. It is frequently difficult for beneficiaries 
to report return to work or stopping work. Again, because of 
insufficient resources, reports are not acted on in a timely manner, 
the reports may be in multiple locations and the file in a different 
location, and employees cannot currently obtain accurate systems 
information showing current reports or a history of reports. Processing 
work reports currently receives no workload credit, is not a high 
priority, and is frequently backlogged. Beneficiaries may receive 
confusing information on what they need to report. As Ticket expands, 
and Employment Networks expect payment, these delays will only cause 
further chaos. The ESR handles work reports effectively and promptly.
    Mental impairments are the most common disabilities in the SSDI and 
SSI population returning to work. Work activity is a key element in the 
therapeutic treatment of mental conditions. The nature of work activity 
on the part of these individuals characteristically includes frequent 
work attempts, many different employers, and work under special 
conditions. These beneficiaries especially require the consistency and 
expertise that a single point of contact within SSA provides.
    AFGE, SSA, and other agencies and organizations have previously 
testified that hundreds of millions of dollars in benefit overpayments 
would be saved nationally if work issues are reported and worked 
promptly. In the GAO Report referenced, field office employees cited 
delays in receiving cases from the Program Centers ranging from one to 
ten years! This delay is eliminated in ESR work locations, because the 
ESR controls and monitors the case on a continuing basis from the 
initial return to work.
    Anecdotal evidence from employees throughout the country indicates 
that work issue CDRs are backlogged for up to several years in some 
field offices. Overpayments on these cases can reach $250,000 for an 
office, and employees have encountered overpayments on individual 
records reaching $100,000! Unfortunately, the Union is unaware of any 
statistical data regarding the numbers of work CDRs processed, the 
number pending, and the cessation rate due to work activity. SSA should 
be required to maintain and produce such data. In processing the 
medical issue CDRs, SSA contends that for every dollar spent, seven to 
twelve dollars in benefits are saved. The cost savings are greater for 
``work'' CDRs since the cost of medical decision-making is eliminated, 
and the cessation rate on work issues is higher. AFGE estimates cost 
savings approaching $30 to the Trust Fund, for every dollar spent. 
Investing in the ESR position is a perfect example of applying 
stewardship responsibilities effectively and investing resources in a 
high cost: benefit manner.
    The Evaluation Report recommends that the ESR should be made a 
permanent position within SSA, and that the ESR position be expanded to 
as many SSA offices as possible. The Report cautions: ``Failure to 
institutionalize a position to perform the duties that the ESR has 
piloted could in effect deny the public and community the opportunity 
to interact with an accessible and responsive SSA specialist. This 
could eliminate an important element in SSA's plan to improve its 
employment support service delivery to the public. It could also 
negatively affect our ability to effectively train and advise other SSA 
staff in the provisions of the law, with implications for increased 
incorrect payments and the denial of benefits to beneficiaries.'' 
Community organizations, BPAOs and other advocates for the disabled, 
and the Ticket to Work Advisory Panel's Annual Report to the President 
and Congress, Year Two have endorsed these conclusions as well.
    Unfortunately, SSA does not plan to implement the ESR position, due 
to shortages of staff and resources in field offices. SSA's latest 
strategy is apparently a combination of: training all employees again 
on work incentives, providing ``systems enhancements'' and designating 
additional duties called ``Work Incentives Liaison (WIL)'' or ``Work 
Incentives Specialist (WIS)'' as collateral functions of existing 
Claims Representatives, Technical Experts, Management Support 
Specialists, Public Affairs Specialists, or other management personnel.
    The ESR Evaluation Report addressed the ineffectiveness of this 
approach: ``. . . Currently, these types of activities are handled by a 
myriad of positions--including management, field representatives, 
public affairs specialists, and claims representatives. Usually, all of 
the activities related to Return To Work (RTW/WI) are split among these 
various positions; there is no single point of contact. Many Field 
Offices have a designated employee identified as a work incentive 
liaison (WIL), but this duty is but a small portion of the overall job 
responsibilities of the WIL. Experience shows that the WIL is often not 
an effective answer in carrying out SSA's new RTW/WI 
responsibilities.''
    SSA's latest strategy of adding this workload as collateral duties 
to that of employees already overburdening with many workloads and 
priorities will set SSA back to the point that the public outcry led to 
enactment of legislation to begin with.
    SSA also touts systems enhancements in processing return to work as 
another reason a dedicated specialist is not needed. Planned systems 
enhancements, such as Modernized Return to Work (MRTW) and Disability 
Claim File (DCF) are but a piece of improving service and complying 
with Congress's mandate in the legislation. Following are comments from 
ESRs addressing the role of dispersing return to work duties and 
systems enhancements in performing their functions:

        <bullet> L``Congress should be concerned with the person being 
        treated fairly and getting the full benefit of the law, not 
        just how many work CDR's were cleared for an office. Cases laid 
        for 2-3 years and were never worked and then the claimant had a 
        tremendous overpayment to pay back. the whole point in the 
        ticket legislation calling for this position was to correct 
        what was going on in the offices.''
        <bullet> L``The other part of our job, which has been the 
        outreach, has been an invaluable service to the public. I have 
        provided training in most offices in my state on the MRTW and 
        Work CDRs. Still, most of the CRs, SRs and even TEs in the 
        field do not know work CDRs. They also were stupefied by the 
        complexity of the MRTW. It's not that they can't learn it, it 
        is that they don't have time for it!''
        <bullet> L``These relationships, both with the claimants and 
        beneficiaries, and with the community, are essential if we are 
        to be serious in our endeavor to help individuals with 
        disabilities to work. The CRs, though most of them are 
        excellent servers of the public, cannot be dedicated to only 
        the task of work issues. There are just too many other issues 
        to be dealt with. It was necessary to have the ``dedicated'' 
        language in the legislation because an effort like this merited 
        one on one and on going attention. That was the problem with 
        the WILs; they were not dedicated and they could not 
        concentrate on the problem of work issues. This is the reason 
        we have so many overpayments. However, if you dedicate someone 
        to be the point person for these issues, then you curb these 
        negative effects.''
        <bullet> L``The ESR acts as an ombudsman to the community, 
        resolving public relations problems, solving complex work 
        incentive issues, teaming with community leaders to form best 
        practices in addressing vocational needs in their area, and 
        acts as an expert resource for field office employees. There is 
        no computer program that can ``take over'' for these duties.''
        <bullet> L``Additionally the outreach fosters better 
        relationships with organizations. This eliminates the fear 
        factor and fosters faster reporting, which also minimizes 
        overpayments. Overpayments are a major disincentive to keeping 
        the disabled in the workforce. When claimants receive an 
        overpayment letter the most likely course of action is for the 
        person to stop working. This is particularly true when the 
        nature of the impairment is mental rather than physical. The 
        added stress of the overpayment very frequently is enough to 
        trigger a relapse.''

    AFGE believes an Agency decision not to implement the ESR would be 
a tragic mistake when the ESR has proven to be a winner for all 
parties. For SSA, it shows superb service to the public, provides 
stewardship in reducing benefits and overpayments, and results in SSA 
compliance with the legislative mandate for work incentive specialists 
within SSA. For the public, it provides stellar service, a single point 
of contact, and assists beneficiaries in leaving the disability rolls. 
For the taxpayer, it saves money and prolongs Trust Fund solvency.
    AFGE respectfully poses this question to members of this 
subcommittee: How many of you are aware of spouses, siblings, children, 
or close friends or relatives who are disabled and could potentially 
seek assistance from Social Security in return to work? What kind of 
service are they entitled to receive? By implementing the ESR, SSA has 
the opportunity to provide service long overdue.
    AFGE requests that Congress and this Subcommittee support 
legislation to provide the additional resources to SSA to meet the 
requirements of the Ticket to Work and Work Incentives Improvement Act 
and fund a ``work incentives specialist within SSA''. Legislation is 
also required for continuous funding beyond FY 2004. AFGE requests this 
Subcommittee support an amendment proposed to HR 4070 to provide such 
funding, which is currently before the Senate Finance committee. A copy 
of this amendment is attached to this statement. It would cost 
approximately 120 million dollars to staff SSA's 1300 field offices 
with 1500 ESRs. The potential return of $3.5 billion indicates that 
this would be a prudent expenditure. Additionally, legislation should 
also require SSA to report on continuance and cessation rates of work 
issue CDRs, overpayments due to work cessations, and benefits saved the 
Trust Fund by work cessations.
    AFGE thanks the Subcommittee for its consideration of the issues 
raised in this statement.

                                 <F-dash>

                                National Rehabilitation Association
                                           Bethesda, Maryland 20814
                                                   October 10, 2002
    Chairman Shaw, Ranking Member Matsui, and Members of the 
Subcommittee on Social Security, I am proud to serve as the Director of 
Governmental Affairs of the National Rehabilitation Association (NRA). 
I am also the parent of a child with multiple, significant 
disabilities.
    I have requested, and have received, the concurrence of the 
President of the NRA and the Executive Director respectively, John Lui 
and Michelle Vaughan, to response to what I, and they, consider to be 
very unsettling--and more importantly unsubstantiated--testimony 
presented by some in the disability community to the Members of the 
Subcommittee on Social Security.
    The National Rehabilitation Association was founded in 1925 and is 
the longest-standing and one of the strongest advocates ensuring that 
the rights of individuals with disabilities are both respected and 
realized.
    With Chapters in all 50 States, the NRA's mission is to provide 
advocacy and awareness for the employment of qualified professionals in 
the field of vocational rehabilitation. The NRA has a national 
membership of nearly 10,000, comprised of consumers, physical, speech 
and occupational therapists, qualified rehabilitation counselors, 
private providers, career counselors, and others who provide employment 
services on behalf of individuals with disabilities.
    I appreciate the opportunity to respond to written and oral 
testimony to the September 26, 2002, Subcommittee hearing examining the 
implementation of the Ticket to Work and Work Incentives Improvement 
Act (P.L. 106-170), with a specific focus on the role of the Public 
Vocational Rehabilitation Program in this implementation.
    As a preface to responding to certain testimony presented at this 
hearing, I would like to provide a brief background of the Public VR 
program which has been engaged in decades in productive, private/public 
partnerships.
    Like you, the National Rehabilitation Association strongly believes 
in the dignity of work and the power of partnerships, while recognizing 
that those partnerships, if they are to be truly productive for 
individuals with disabilities, must fully recognize and respect the 
integrity of the programs administered under the Rehabilitation Act of 
1973, as amended (also known as the Public Vocational Rehabilitation 
(VR) Program).
    The Public VR Program, which is authorized under the jurisdiction 
of the House Education and the Workforce Committee and the Senate 
Health, Education, Labor and Pensions Committee, respectively, is an 
eligiblity employment program which just last year served approximately 
1.2 million eligibile indivdiuals with disabilities--many of whom were 
indivdiuals with significant disabilities--placing more than 233,000 
eligible individuals into competitive employment.
    The Public VR Program is housed in the U.S. Department of 
Education's Office of Special Education and Rehabilitative Services 
(OSERS) and is administered by the Commissioner of the Rehabilitation 
Services Administration (RSA) in the U.S. Department of Education and 
in conjunction with its State Partners.
    The Public VR Program is a successful service delivery system that 
exemplifies the ABCs of public vocational rehabilitation--it is 
Accountable, Bipartisan, Comprehensive and Cost-Effective, with ample 
supporting documentation, which I believe makes it one of the most 
successful, accountable education and job training programs in the 
history of the workforce world.
    The Public VR Program has been serving, and continues to serve, 
Social Security Disabilitity (SSDI) and Supplemental Security Income 
(SSI) beneficiaries/recipients, who are presumed eligible under the VR 
Program since many of these beneficiaries are individuals with the most 
signifciant disabilities.
    Indeed, 38 States are presently on an Order of Selection (OOS) 
which, mandated by the VR statute, places a priority on individuals 
with the most signifciant disabilities who walk or wheel through VR's 
doors.
    When the originally-titled ``Work Incentives Improvement Act'' 
(WIIA), was proposed by the Congress, the principal reason for this 
legislation was to help alleviate the single greatest barrier to SI/DI 
individuals entering or re-entering the world of work.--that of losing 
their precious Medicaid benefits if they exceed the Substantial Gainful 
Activity (SGA). Indeed, according to the U.S. General Accounting Office 
(GAO), less than one percent of SI/DI indivdiuals will choose not to 
seek employment services from the Public VR Program, or any other 
Employment Network (EN), because employment that produces income in 
excess of $750 per month for non-blind, disabled individuals and $1,200 
for blind individuals, results in forfeiture of their health care 
Medicaid coverage.
    The loss of health care coverage for those SI/DI individuals who 
want to work is many times missing in the discussions as the 
overarching reason why the original Work Incentives Improvement Act 
(now TWWIIA) was proposed.
    One of the issues that I (and I assume others) had advocated for in 
this legislation was safety net legislative language for the States 
should a downturn in the economy occur. This argument was, 
understandably, a hard-sell in a record-booming economy that most of us 
thought would never end. Now that the booming economy has ebbed, it is 
not surprising that some States which agreed to participate in the 
Medicaid buy-in are, understandably, reconsidering (at least for now) 
their participation in the Medicaid buy-in option under TWWIIA. Those 
States include, Georgia and Florida, and there may be others of which I 
am unaware.
    Given only a brief background of the original intent of the Work 
Incentives legislation, I would now like to address what I consider to 
be unsubstantiated testimony from a few of the advocates who testified 
before your Subcommittee.
    As I know you fully appreciate, anecodotal allegations of fraud, 
waste and abuse have never been, nor are now, acceptable venues of 
veracity.
    The anecdotal allegations advanced by certain advocates testifying 
before the Social Security Subcommittee on September 26, 2002, that the 
VR Agencies were ``raiding'' the Ticket and strong-arming customers 
into depositing their Tickets with Public VR attempted to paint the 
public VR Program with the broad brush of being the bully on the block, 
rather than the best on the block.
    These faceless--and in most if not all cases baseless--charges 
should never find a forum in the U.S. Congress or in any Body that 
enjoys a reputation of fundamental fairness.
    With all due respect, the Social Security Administration cannot 
have it both ways. The Public VR Program has served and will continue 
to serve SI/DI individuals with the same respect and responsibility 
that has characterized the Public VR Program thoughout its 82-year 
history.
    Because SI/DI receipients/beneficiaries are continuing to choose 
the Public VR Program over other Employment Networks may have nothing 
to do with anecdotal allegations and much more to do with inadequate 
information and incentivization from SSA to all ENS (including VR) 
regarding their participation in the Ticket to Work program. Indeed, it 
speaks volumes to me that only 400 additional Employment Networks 
(additional to VR) have opted to become Employment Networks in the 
States.
    Relatedly, I believe that the Social Security Administration must 
recognize its responsibility to the Congress and the American public, 
especially to those individuals with disabilities, to provide clear, 
crisp and consistent regulatory and sub-regulatory guidance. That 
sought-after succinct and consistent guidance has been absent the 
Ticket process from the beginning and is causing enormous confusion and 
frustration in the States, with ENs and among individuals with 
disabilities.
    One final, important consideration. All private employment networks 
have the option, under TWWIIA, to refuse to serve any SI/DI 
beneficiary. This option is especially concerning regarding individuals 
with the most significant disabilities, many of whom are SI/DI 
individuals, and are the most costly and challenging to serve. This, to 
me as a parent of a child with multiple, significant disabilities, 
qualifies as one of the greatest disability disconnects in D.C.
    While private ENs can pick whomever they choose to serve, the 
public VR program presumes that SI/DI individuals are eligible for 
services from the successful State/Federal, public/private partnership 
known as the Public VR Program which has been serving millions of 
eligible individuals with disabilities for more than 82 years with the 
dignity and dedicated and qualified staff that individuals with 
disabilities deserve and demand.
    Thank you for the opportunity to share with you the National 
Rehabilitation Association's views, and those of myself both as as a 
professional and as a parent. We appreciate this opportunity for 
outreach to you and are ready to work with you in the future as we have 
in the past.
            Respectfully submitted,
                                                 Patricia C. Leahy,
                                  Director of Govermental Relations

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
